<html>
<title> - LEGISLATIVE HEARING ON H.R. 1157, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO TAKE LAND INTO TRUST FOR THE BENEFIT OF THE SANTA YNEZ BAND OF CHUMASH MISSION INDIANS, AND FOR OTHER PURPOSES, ``SANTA YNEZ BAND OF CHUMASH MISSION INDIANS LAND TRANSFER ACT OF 2015''; H.R. 2386, TO PROVIDE FOR THE RECOGNITION OF CERTAIN NATIVE COMMUNITIES AND THE SETTLEMENT OF CERTAIN CLAIMS UNDER THE ALASKA NATIVE CLAIMS SETTLEMENT ACT, AND FOR OTHER PURPOSES, ``UNRECOGNIZED SOUTHEAST ALASKA NATIVE COMMUNITIES RECOGNITION AND COMPENSATION ACT''; AND H.R. 2538, TO TAKE LANDS IN SONOMA COUNTY, CALIFORNIA, INTO TRUST AS PART OF THE RESERVATION OF THE LYTTON RANCHERIA OF CALIFORNIA, AND FOR OTHER PURPOSES, ``LYTTON RANCHERIA HOMELANDS ACT OF 2015''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






H.R. 1157, ``SANTA YNEZ BAND OF CHUMASH MISSION INDIANS LAND TRANSFER 
   ACT OF 2015''; H.R. 2386, ``UNRECOGNIZED SOUTHEAST ALASKA NATIVE 
    COMMUNITIES RECOGNITION AND COMPENSATION ACT''; AND H.R. 2538, 
              ``LYTTON RANCHERIA HOMELANDS ACT OF 2015''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON INDIAN, INSULAR AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 17, 2015

                               __________

                           Serial No. 114-11

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-136 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Vacancy

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON INDIAN, INSULAR AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                RAUL RUIZ, CA, Ranking Democratic Member

Dan Benishek, MI                     Madeleine Z. Bordallo, GU
Paul A. Gosar, AZ                    Gregorio Kilili Camacho Sablan, 
Doug LaMalfa, CA                         CNMI
Jeff Denham, CA                      Pedro R. Pierluisi, PR
Paul Cook, CA                        Norma J. Torres, CA
Aumua Amata Coleman Radewagen, AS    Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 17, 2015.........................     1

Statement of Members:
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California..............................................    21
        Prepared statement on H.R. 1157..........................    23
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement on H.R. 2538..........................    20
    LaMalfa, Hon. Doug, a Representative in Congress from the 
      State of California........................................     5
    Ruiz, Hon. Raul, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement of....................................     4
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     2
        Prepared statement of....................................     2

Statement of Witnesses:
    Armenta, Vincent, Chairman, Santa Ynez Band of Chumash 
      Mission Indians, Santa Ynez, California....................    28
        Prepared statement on H.R. 1157..........................    30
    Barlow, Leo, Representative for the Community of Wrangell, 
      Alaska, on behalf of the Southeast Alaska Landless 
      Corporation, Juneau, Alaska................................    42
        Prepared statement on H.R. 2386..........................    44
    Black, Michael, Director, Bureau of Indian Affairs, U.S. 
      Department of the Interior, Washington, DC.................    24
        Prepared statement on H.R. 1157, H.R. 2386, and H.R. 2538    26
    Lavagnino, Steve, Fifth District County Supervisor, Santa 
      Barbara County, California.................................    39
        Prepared statement on H.R. 1157..........................    41
    Mejia, Margie, Chairperson, Lytton Rancheria, Santa Rosa, 
      California.................................................    46
        Prepared statement on H.R. 2538..........................    47
    Miyasato, Mona, Executive Officer, County of Santa Barbara, 
      on behalf of the County of Santa Barbara Board of 
      Supervisors, Santa Barbara, California.....................    32
        Prepared statement on H.R. 1157..........................    33

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    70

    Submissions for the Record by Representative Huffman
        Memorandum of Understanding between the County of Sonoma 
          and the Lytton Rancheria of California.................     9
        Gorin, Hon. Susan, Sonoma County Board of Supervisors, 
          Prepared statement of..................................    10
        Memorandum of Understanding between the Windsor Fire 
          Protection District and the Lytton Rancheria of 
          California.............................................    11
        Windsor Unified School District, Letter in support of 
          H.R. 2538..............................................    18
        Map of Lytton Fee Owned Property to be Taken into Trust..    19
                                     
 
LEGISLATIVE HEARING ON H.R. 1157, TO AUTHORIZE THE SECRETARY OF 
  THE INTERIOR TO TAKE LAND INTO TRUST FOR THE BENEFIT OF THE 
   SANTA YNEZ BAND OF CHUMASH MISSION INDIANS, AND FOR OTHER 
  PURPOSES, ``SANTA YNEZ BAND OF CHUMASH MISSION INDIANS LAND 
     TRANSFER ACT OF 2015''; H.R. 2386, TO PROVIDE FOR THE 
RECOGNITION OF CERTAIN NATIVE COMMUNITIES AND THE SETTLEMENT OF 
 CERTAIN CLAIMS UNDER THE ALASKA NATIVE CLAIMS SETTLEMENT ACT, 
AND FOR OTHER PURPOSES, ``UNRECOGNIZED SOUTHEAST ALASKA NATIVE 
COMMUNITIES RECOGNITION AND COMPENSATION ACT''; AND H.R. 2538, 
TO TAKE LANDS IN SONOMA COUNTY, CALIFORNIA, INTO TRUST AS PART 
 OF THE RESERVATION OF THE LYTTON RANCHERIA OF CALIFORNIA, AND 
 FOR OTHER PURPOSES, ``LYTTON RANCHERIA HOMELANDS ACT OF 2015''

                              ----------                              


                        Wednesday, June 17, 2015

                     U.S. House of Representatives

       Subcommittee on Indian, Insular and Alaska Native Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 11:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Benishek, Gosar, LaMalfa, 
Denham, Cook, Radewagen; Ruiz, and Torres.
    Also Present: Representatives Huffman and Capps.
    Mr. Young. The committee will come to order.
    The subcommittee today is hearing testimony on the 
following bills: H.R. 1157, by Doug LaMalfa, the ``Santa Ynez 
Band of Chumash Mission Indians Land Transfer Act of 2015''; 
H.R. 2386, by myself, the ``Unrecognized Southeast Alaska 
Native Communities Recognition and Compensation Act''; and H.R. 
2538, by Mr. Huffman from California, the ``Lytton Rancheria 
Homelands Act of 2015.''
    I would also like to mention that two local governments 
were invited to testify on H.R. 2538, the Sonoma County Board 
of Supervisors and the Town of Windsor. Both were unable to be 
here today. I am somewhat concerned we are unable to have an 
open dialog with all local stakeholders. I would like to 
continue in an open dialog with the bill's sponsor, as well as 
any local stakeholders who may be impacted by the bill.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and Ranking Minority 
Member, Vice Chairman, and designee of the Ranking Member. This 
will allow us to hear from our witnesses who have traveled to 
testify on these legislative packages. Therefore, I ask 
unanimous consent that all Members' opening statements will be 
made part of the hearing record if they are submitted to the 
Subcommittee clerk by 5:00 p.m. today, or at the close of the 
hearing, whichever comes first.
    [No response.]
    Mr. Young. Hearing no objection, so ordered. I also ask 
unanimous consent that the gentlelady from California and the 
gentleman from California, Mrs. Capps and Mr. Huffman, will be 
allowed to join us on the dais to be recognized and participate 
in today's hearing.
    [No response.]
    Mr. Young. Hearing no objection, so ordered.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. As I mentioned, the subcommittee would hear 
testimony today on three bills.
    H.R. 1157 would direct the Secretary of the Interior to 
place approximately 1,400 acres of land commonly known as the 
Camp 4 Property into trust for the benefit of the Santa Ynez 
Band of Chumash Mission Indians with Santa Barbara County. The 
bill is sponsored by my colleague, Mr. LaMalfa.
    The second bill on our agenda, H.R. 2386, will provide 
redress to Alaska Natives from the communities of Haines, 
Ketchikan, Petersburg, Tenakee, and Wrangell. These natives 
were denied an opportunity to establish villages or urban 
corporations under the Alaska Native Claims Settlement Act 
(ANCSA) in 1971. Natives who enrolled in these communities did 
become at-large shareholders in the regional corporation for 
Southeast Alaska, but were denied rights to land and local 
resources that other villages and urban corporations received 
under ANCSA.
    ANCSA prohibits these communities from obtaining an 
administrative or judicial solution, so legislation is 
necessary. My bill will recognize the five communities under 
ANCSA, establish urban corporations for the communities, and 
provide a process for newly established urban corporations to 
negotiate with the Department of the Interior for selection of 
surface estates of Federal lands that would be conveyed to the 
corporations as compensation--the same amount of land that 
other native villages received under ANCSA.
    The final bill on our agenda today is H.R. 2538, which 
would direct the Interior Secretary to take into trust 
approximately 511 acres of non-contiguous fee land owned by the 
Lytton Rancheria, adjacent to the Town of Windsor in Sonoma 
County, California.
    [The prepared statement of Mr. Young follows:]
  Prepared Statement of the Hon. Don Young, Chairman, Subcommittee on 
               Indian, Insular and Alaska Native Affairs
    As I have mentioned already, the subcommittee will hear testimony 
today on three bills: H.R. 1157, H.R. 2386, and H.R. 2538.
    H.R. 1157 would direct the Secretary of the Interior to place 
approximately 1,400 acres of land, commonly known as the Camp 4 
property, into trust for the benefit of the Santa Ynez Band of Chumash 
Mission Indians within Santa Barbara County. The bill is sponsored by 
my colleague, Mr. LaMalfa.
    The second bill on our agenda, H.R. 2386, would provide redress to 
Alaska Natives from the communities of Haines, Ketchikan, Petersburg, 
Tenakee, and Wrangell.
    These natives were denied the opportunity to establish villages or 
urban corporations under the Alaska Native Claims Settlement Act 
(ANCSA) process in 1971. Natives who enrolled in these communities did 
become at-large shareholders in the regional corporation for Southeast 
Alaska, Sealaska, but were denied rights to land and local resources 
that other village and urban corporations received under ANCSA.
    ANCSA prohibits these communities from obtaining an administrative 
or judicial solution, so legislation is necessary.
    My bill would recognize the five communities under ANCSA, establish 
urban corporations for the communities, and provide a process for the 
newly established urban corporations to negotiate with the Department 
of the Interior for selecting surface estates of Federal land that 
would be conveyed to the corporations as compensation--The same amount 
of land that other native villages received under ANCSA.
    The final bill on our agenda today, H.R. 2538, would direct the 
Interior Secretary to take into trust approximately 511 acres of non-
contiguous fee land owned by the Lytton Rancheria adjacent to the town 
of Windsor in Sonoma County, California.

                                 ______
                                 

    Mr. Young. Now I will recognize the Ranking Member for his 
opening statement.

 STATEMENT OF THE HON. RAUL RUIZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Dr. Ruiz. Thank you, Mr. Chairman. As always, I want to 
thank our witnesses here today for taking time to help us 
understand your views on these bills.
    Today we will hear testimony on three bills: H.R. 1157, 
introduced by our colleague, Rep. LaMalfa, will authorize the 
Secretary of the Interior to take 1,400 acres of property in 
the Santa Ynez Valley in California into trust for the Santa 
Ynez Band of Chumash Indians. The Chumash have longstanding 
cultural and spiritual ties to the property, which is located 
just 2 miles from the current Santa Ynez Reservation.
    Currently, only about 17 percent of the Tribe's members are 
able to reside on the reservation, due to the fact that the 
natural terrain is unsuitable for further housing development. 
Therefore, the Chumash would like the 1,400-acre property, 
which they already own, to be taken into trust so that they may 
construct 143 single family homes for their members. The Tribe 
has no intention of using these lands for gaming, and the 
legislation includes a specific provision to the effect.
    H.R. 2538, introduced by my friend and colleague, Rep. 
Huffman, will take approximately 511 acres in Sonoma County, 
California, into trust as part of the reservation of the Lytton 
Rancheria. Most of us, especially those Members from 
California, are aware of the Federal Government's sad history 
in dealing with the Rancherias, including the unjust 
termination of their status in the late 1950s. With the 
exception of a small parcel of land that Congress provided for 
gaming in San Pablo, the Lyttons have been left essentially 
landless and without a reservation since 1961. The new land, 
which the Tribe holds in fee status, will ensure that they will 
finally have a permanently protected homeland on which they can 
plan for future generations.
    Furthermore, I understand the Tribe has worked closely with 
Sonoma County to reach an agreement that protects the sovereign 
rights of the Tribe, while sharing any burdens of development. 
This is a shining example of how tribal government-to-
government relationships can create positive outcomes for all 
involved.
    The third bill, H.R. 2386, introduced by Chairman Young, 
will designate five Alaskan communities as urban corporations 
under the Alaska Native Claims Settlement Act (ANCSA), and 
grant each corporation 23,040 acres of public lands. While I 
empathize with the concerns of the villages, I understand that 
there are serious concerns that enactment of these legislations 
could have sweeping and harmful impacts to the forest and the 
economy of southeastern Alaska. I am looking forward to 
listening to have a deeper understanding, so that we can get to 
the bottom of this.
    In closing, let me again thank our witnesses for appearing, 
thank the Members who have come to testify, and thank all the 
staff who have worked very hard on these bills. I look forward 
to your testimony. Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Dr. Ruiz follows:]
Prepared Statement of the Hon. Raul Ruiz, Ranking Member, Subcommittee 
              on Indian, Insular and Alaska Native Affairs
    Thank you Mr. Chairman. As always, I want to thank our witnesses 
here today for taking time to testify and to help us understand your 
views on these bills.
    Today, we will hear testimony on three bills. H.R. 1157, introduced 
by our colleague Rep. LaMalfa, will authorize the Secretary of the 
Interior to take 1,400 acres of property in the Santa Ynez Valley in 
California into trust for the Santa Ynez Band of Chumash Indians. The 
Chumash have long-standing cultural and spiritual ties to the property, 
which is located just 2 miles from the current Santa Ynez Reservation.
    Currently, only about 17 percent of the Tribe's members are able to 
reside on the reservation, due to the fact that the natural terrain is 
unsuitable for further housing development. Therefore, the Chumash 
would like the 1,400-acre property to be taken into trust so that they 
may construct 143 single-family homes for their members. The tribe has 
no intention of using these lands for gaming, and the legislation 
includes a specific provision to this effect.
    H.R. 2538, introduced by my friend and colleague Rep. Huffman, will 
take approximately 511 acres in Sonoma County, California, into trust 
as part of the reservation of the Lytton Rancheria. Most of us, 
especially those Members from California, are aware of the Federal 
Government's sad history in dealing with the Rancherias, including the 
unjust termination of their status in the late 1950s. With the 
exception of a small parcel of land that Congress provided for gaming 
in San Pablo, the Lyttons have been left essentially landless and 
without a reservation since 1961. The new land, which the Tribe holds 
in fee status, will ensure that they will finally have a permanently 
protected homeland on which they can plan for future generations.
    Furthermore, I understand the Tribe has worked closely with Sonoma 
County to reach an agreement that protects the sovereign rights of the 
Tribe, while sharing any burdens of development. This is a shining 
example of how tribal government-to-government relationships can create 
positive outcomes for all involved.
    The third bill, H.R. 2386, introduced by Chairman Young, will 
designate five Alaskan communities as ``Urban Corporations'' under the 
Alaska Native Claims Settlement Act (ANCSA), and grant each corporation 
23,040 acres of public lands. While I empathize with the concerns of 
the villages, I understand that there are serious concerns that 
enactment of this legislation could have sweeping and harmful impacts 
to the forest and the economy of southeastern Alaska.
    In closing, let me again thank our witnesses for appearing, and I 
look forward to your testimony.

    Thank you Mr. Chairman, and I yield back.

                                 ______
                                 

    Mr. Young. Thank you. I would like to recognize the sponsor 
of the legislation, Mr. LaMalfa, if he has an opening 
statement.
    Mr. LaMalfa. I do.

    STATEMENT OF THE HON. DOUG LaMALFA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. LaMalfa. Thank you, Mr. Chairman and committee members, 
and Mr. Ruiz, thank you for your comments on H.R. 1157. I 
appreciate the strong support that the committee is showing 
here today. So thank you.
    I am pleased to present H.R. 1157 with, again, 10 
cosponsors, 8 Californians and 4 Californians that are members 
of this committee, subcommittee. This will direct the Secretary 
of the Interior to take land into trust to enable the Santa 
Ynez Band of Chumash to address a shortage of housing for their 
members.
    The Tribe, to its credit, has used its own resources to 
purchase land to meet these housing needs, has a demonstrated 
presence in the area dating back to the earliest European 
contact with California Indians, and the Bureau of Indian 
Affairs recently announced that it would approve the Tribe's 
application to take the land into trust, administratively. 
Unfortunately, anti-growth obstructionists have already 
threatened to stall this process with lawsuits.
    The recorded history of the Chumash in the area reaches 
back to the earliest arrival of Europeans in California. When 
Spanish explorer Cabrillo landed on the shores of California in 
1542, it was the Chumash he encountered. Beginning in the early 
1800s, the Chumash became wards of the Spanish mission in Santa 
Ynez, which included the Camp 4 property, and later the Mexican 
Governor granted lands to Chumash members that included the 
Camp 4 property.
    The Mission Relief Act of 1891 created a commission which 
found that the Tribe continued to reside in the Santa Ynez and 
Camp 4 area, though only 99 acres, mostly unusable creek bed, 
were ultimately taken into trust. The reservation grew through 
small additions to about 130 acres today, and is home to 17 
percent of tribal members and lineal descendants, lacks any 
additional space for homes, lacks safe access and escape, 
especially in emergencies--emergency equipment--and is at the 
risk of flooding.
    Chumash have long worked to provide for the needs of their 
members without relying upon outside assistance. In the 1960s 
the Tribe raised funds through a number of creative means to 
provide the reservation with running water for the first time. 
In a continuation of this self-sufficiency, the Tribe purchased 
the Camp 4 property in 2010 with the intent of addressing the 
housing needs of its members and lineal descendants. 
Unfortunately, the Chumash's efforts to secure housing for the 
members--efforts, which must again be noted are undertaken with 
the Tribe's own resources--have been hindered by anti-growth 
extremists and frivolous lawsuits.
    One local anti-group has gone so far as to question the 
legitimacy of the Tribe's federally-acknowledged status and its 
existing reservation, despite records of the Tribe's presence 
in the area dating back over 470 years. Though the Tribe has 
repeatedly attempted to work with the County to reach a 
mutually agreeable arrangement to address any impact to the 
local governments, a vocal minority of residents have persuaded 
the portions of the county government to refuse to even 
negotiate with the Tribe.
    Some opponents claim that the trust proposal would reduce 
the county property tax revenues, ignoring both the fact that 
the County currently receives just $83,000 from the property 
annually, and the Tribe's initial offer of $1 million each year 
to offset any impacts to infrastructure or services.
    Other opposition arguments are equally misleading. Claims 
that the proposal would be too densely developed, which ignores 
an adjacent housing subdivision, which is actually more dense 
than the Chumash proposal.
    Despite this continued mistreatment, the Tribe strives to 
be a good neighbor and support local governments, funding 
multiple full-time firefighter and paramedic positions, and 
recently a new ladder fire engine.
    Again, the Chumash intend only to build housing for their 
members, and the measure includes a prohibition on gaming in 
the measure, ensuring that no casino will be built on the 
property.
    When did it become acceptable to obstruct the efforts of 
historically mistreated groups to provide themselves with 
housing, one of the most fundamental human needs? Prior 
congresses and previous presidents have worked to right the 
generations of wrong committed against American Indians. They 
would be appalled by the actions of those attempting to prevent 
the Chumash from meeting their most basic needs of their 
members on lands that their ancestors occupied for millennia.
    Additionally, on a very basic level, I firmly believe that 
any American family should have the right to build a home for 
their own purpose on land that they own, within reason.
    Mr. Chairman, members of the subcommittee, the Constitution 
places great responsibility to redress relations with Indian 
tribes with the Congress. A number of laws require that tribes 
are ceded the support of the Federal Government for education, 
health care, and housing. Chumash have strived to address these 
needs with their own resources, an effort that every member of 
the subcommittee should support.
    While the BIA has indicated that it intends to take the 
property into trust administratively, opposition groups have 
already announced their intent, through the courts, to obstruct 
the administrative process indefinitely. It is imperative that 
Congress act to ensure that the Tribe is able to address its 
needs in a timely fashion, and I urge and appreciate your 
support of this bill. Thank you, I yield back.
    Mr. Young. I thank the gentleman and recognize Mr. Huffman 
to make a statement on his legislation.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you very much, Mr. Chairman. I want to 
start by thanking you and Ranking Member Ruiz for including the 
Lytton Rancheria Homelands Act of 2015 in today's hearing. I 
also want to welcome the Chairperson of the Lytton Rancheria, 
Margie Mejia, who is here to speak in support of the bill 
today.
    This bill, which I am pleased to introduce with my friend, 
Congressman Jeff Denham, takes lands already owned by the 
Lytton Tribe in Sonoma County into trust for housing and other 
non-gaming purposes, as part of the Lytton Rancheria 
Reservation.

    In 1958, this tribe, which was federally recognized as a 
Pomo Indian Tribe, lost its homeland when it was terminated by 
the Federal Government. The Tribe was restored in 1991 by the 
courts to federally-recognized status, but the restoration did 
not include restoring the Tribe's reservation on its ancestral 
homeland.

    Now, I represent lots of tribes, about 30, which I think 
makes me second only to Chairman Young in terms of the number 
of tribes. And many of them have land to trust issues in my 
district. One thing I tell them all so that I can be very 
consistent is that I need for them to work things out with 
their local government partners. I cannot introduce bills that 
are at odds with my local government colleagues.

    So, an important condition of my introducing this bill was 
that the Tribe negotiate agreements with its local government 
neighbors to address and mitigate potential concerns, including 
the strong opposition to new casinos in Sonoma County. They 
have done that. The agreements that have been negotiated--and 
in some cases there are some processes still underway--will 
provide certainty for all parties, and provide a model for 
functional, respectful, productive relationships between local 
governments and federally-recognized tribes.

    This bill ensures that the Lytton Tribe, after many long 
years, can finally return to a homeland, and it does it in a 
partnership that works for its local government neighbors. The 
County of Sonoma and the Tribe have entered into a Memorandum 
of Agreement on March 10, 2015, and Mr. Chairman, I ask 
unanimous consent that the resolution signed by the Sonoma 
County Board of Supervisors be entered into the record.

    [No response.]

    Mr. Young. Without objection, so ordered.

    Mr. Huffman. The Chairperson of the Sonoma County Board of 
Supervisors, Susan Gorin, has also written a statement for the 
record, and I would ask unanimous consent that that be entered 
into the record at this time, too.

    [No response.]

    Mr. Young. Without objection, so ordered.

    Mr. Huffman. I would like to highlight just a few lines 
from Supervisor Gorin's statement. She says, ``The Tribe and 
the County worked together to accurately identify the off-
reservation impacts and, as the project changed over time, to 
build a framework that met the parties' respective interests.''

    ``Enactment of H.R. 2538 will re-establish an historic 
homeland for the Tribe in Sonoma County, while setting a course 
for a constructive intergovernmental relationship and 
addressing community concerns regarding gaming.''

    The town of Windsor is still working through a cooperative 
process with the Tribe, which will include some public 
proceedings. While that is happening, I am pleased to note that 
two of the affected local agencies in Windsor have already 
reached agreements with the Tribe covering their interests.

    The Lytton Rancheria has entered a separate MOU with the 
Windsor Fire Protection District to provide emergency services 
to the Tribe.

    I ask unanimous consent that that agreement be entered into 
the record, Mr. Chairman.

    [No response.]

    Mr. Young. Without objection.

    Mr. Huffman. Thank you. And the Tribe has entered a 
Memorandum of Agreement with the Windsor Unified School 
District to prepare for and mitigate the increase in school-
aged children who would move into the proposal tribal housing. 
I also ask unanimous consent that that agreement be entered 
into the record.

    [No response.]

    Mr. Young. How many more are you going to put into the 
record?

    [Laughter.]

    Mr. Young. I mean this is one way to have a long 
statement----

    Mr. Huffman. I know, but I am done at that point.

    Mr. Young. Without objection.

    Mr. Huffman. Mr. Ruiz is showing you pictures of his 
children, isn't he?

    [Laughter.]

    Mr. Young. It is a little more interesting.

    Mr. Huffman. I hear you.

    Last, Mr. Chair--I actually do have one more unanimous 
consent request.

    [Laughter.]

    Mr. Huffman. It is that we enter the pictures of Mr. Ruiz's 
children into the record.

    No. In seriousness, it is that we enter the map referenced 
in my bill into the record.

    [No response.]

    Mr. Young. Without objection.

    [The submissions for the record by Mr. Huffman follow:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
  Resolution of the Board of Supervisors of the County of Sonoma, 
                                State of
  California, Authorizing the Chair to Sign a Memorandum of Agreement
  between the County of Sonoma and the Lytton Rancheria of California
      Regarding Development of Tribal Homelands in Sonoma County.

    Whereas, Sonoma County has a government-to-government relationship 
with all five federally recognized tribes in the County, respects their 
tribal sovereignty, and understands the significance of their status as 
federally recognized tribes; and

    Whereas, the County has a long history of advocating for a thorough 
environmental review and appropriate mitigation of any environmental 
impacts of tribal development projects that otherwise would be borne by 
County residents; and

    Whereas, Lytton Rancheria of California is a federally-recognized 
Indian Tribe whose traditional lands lie within Sonoma County; and

    Whereas, the Tribe is currently seeking to have lands placed into 
federal trust status to reestablish a Tribal homeland and to diversify 
its tribal economy; and

    Whereas, the Tribe has proposed that the federal government take 
into trust 14 parcels consisting of 124.12 acres of land for the 
development of a residential community, a community center and 
associated facilities (Residential Development Project); and

    Whereas, the Tribe is seeking proposed federal legislation to place 
into trust approximately 500 acres of land that includes the 
Residential Development Project; and

    Whereas, it is anticipated that the Tribe will in the future seek 
to place additional lands into federal trust status; and

    Whereas, the Tribe and the County have negotiated an agreement to 
address issues including gaming, potential off-site environmental 
impacts, and possible mitigation measures regarding the Residential 
Development Project and other potential Tribal development, consistent 
with the Tribe's sovereignty and applicable law; and

    Whereas, the Agreement addresses the potential impacts of any 
present and future trust land acquisitions by the federal government 
for the benefit of the Tribe, while at the same time allowing the Tribe 
to reestablish its homeland and exercise its authority as a sovereign 
government; and

    Whereas, the Residential Development Project and other potential 
Tribal development are not County projects and are not subject to the 
discretionary approval of the County, and, absent this Agreement, the 
County has limited opportunity to influence mitigation measures or seek 
compensation for adverse environmental impacts; and

    Whereas, the Tribe has reached separate agreements with the Windsor 
Unified School District and Windsor Fire Protection District, and is 
negotiating with the Town of Windsor toward an agreement regarding 
water and sewer services.

    Now, Therefore, Be It Resolved that the Chair is hereby authorized 
to sign the Memorandum of Agreement between the County of Sonoma and 
the Lytton Rancheria of California labeled Fee to Trust Lands (March 
10, 2015).

    Be It Further Resolved that entry of the Memorandum of Agreement is 
not a project subject to the California Environmental Quality Act. By 
approving, executing and performing the Agreement, the County has not 
and is not, making any commitment to issue a lease, permit, license, 
certificate, or other entitlement for use, or develop, construct or 
improve any facilities or cause any other physical change in the 
environment.

    Be It Further Resolved that the original copy of the Memorandum of 
Agreement shall be kept by the Clerk of the Board. This document may be 
found at the office of the Clerk of the Board, 575 Administration 
Drive, Room 100-A, Santa Rosa, California 95403.

Supervisors:

Rabbitt: Aye      Zane: Aye      Gore: Aye      Carrillo: Aye      
Gorin: Aye

    Ayes: 5          Noes: 0          Absent: 0          Abstain: 0

                                                            So Ordered.

                                 ______
                                 

 Prepared Statement of the Honorable Susan Gorin, Chairperson, Sonoma 
  County Board of Supervisors, Sonoma County, California on H.R. 2538
    On behalf of the Sonoma County Board of Supervisors I would like to 
thank Chairman Young, Ranking Member Ruiz, and members of the 
subcommittee for the opportunity to submit this testimony in support of 
H.R. 2538--the Lytton Rancheria Homelands Act of 2015. My name is Susan 
Gorin, and I serve as the Chairperson of the Sonoma County Board of 
Supervisors. This bill, in many ways, exemplifies the type of 
relationships between tribes and local governments that should be 
promoted not just in individual legislation but as part of reform of 
the fee-to-trust process. Several weeks ago my colleague, Sonoma County 
Supervisor David Rabbitt, testified before this subcommittee on behalf 
of the California State Association of Counties (``CSAC'') at its 
oversight hearing on ``Inadequate Standards for Trust Land Acquisition 
in the Indian Reorganization Act of 1934.''
    A central point of CSAC's testimony was that the fee-to-trust 
process is broken due, in part, to the lack of objective standards. 
Supervisor Rabbitt urged that perhaps the single most important thing 
Congress could do to reform the system would be to require that, in any 
decision to take land into trust, there be a determination by the 
Department of the Interior, that the off-reservation impacts related to 
the acquisition are fully mitigated--both for the short and long term. 
This would be demonstrated either by a voluntary intergovernmental 
agreement between the tribe and local jurisdictions or a Secretarial 
determination, after consultation with local governments, that the 
projects would not have a significant off-reservation impact. As part 
of his oral testimony Supervisor Rabbitt singled out the Sonoma County 
-Lytton Rancheria Tribal Agreement (``MOA'') as an example of the type 
of intergovernmental understandings that should be reached on fee-to-
trust projects.
    Sonoma County is home to five federally-recognized tribes, two of 
which operate casinos. While the County opposes gaming we nonetheless 
have intergovernmental agreements with three of the five tribes 
including the two who operate gambling facilities. We are also in 
conversation with the other two tribes to work toward memorandums of 
agreement with respect to pending fee-to-trust requests. We are 
grateful for the efforts of Congressman Huffman and the leadership of 
the Lytton Rancheria of California to engage in a fee-to-trust 
consultation process where we could work together on a government-to-
government basis to insure that the Tribe's objectives were met and 
that the off-reservation impacts were mitigated through a judicially 
enforceable agreement.
    This Agreement is the product of hard work among the parties and 
started about 8 years ago with the County working with the Lytton Tribe 
to address what was seen as inadequacies in the Environmental 
Assessment of its initial trust proposal and community concerns 
regarding gaming. The Tribe and County worked together to accurately 
identify the off-reservation impacts and, as the project changed over 
time, to build a framework that met the parties' respective interests. 
We believe the Memorandum of Agreement approved by both the Tribe and 
County, and which is supported in the legislation, is now a model for 
the type of agreement that should be incentivized as part of much 
needed fee-to-trust reform.
                            the legislation
    From the County's perspective, H.R. 2538 has two critical 
components. First, Section 5 insures that, in perpetuity, no gaming 
will be conducted on the lands taken into trust. While the Lytton Tribe 
did not have an intention to acquire the land for gaming purposes, the 
legislative provision helps address community and government concern on 
the issue for the long term. Second, Section 6 recognizes and protects 
the Memorandum of Agreement from any potential interference from the 
Department of the Interior. While the Tribe entered into this Agreement 
as an exercise of its sovereignty, under 25 U.S.C. Section 81, the 
Department of the Interior reserves the ability to substitute its 
judgment for the Tribe's and, historically, has not played an active 
role in facilitating these types of agreements. The legislation helps 
insure that the mutually beneficial MOA will not be disturbed.
                      the memorandum of agreement
    As CSAC stated in its prior testimony, having an intergovernmental 
agreement between a county and a tribe to ensure that off-reservation 
impacts are addressed is the type of critical demonstration that should 
be in place before actions are taken to move land into trust--either 
legislatively or administratively. While the Lytton Tribe and County 
were in discussions previously, Congressman Huffman played a key role 
in ensuring that the County (and CSAC) objectives of mitigating off 
reservations impacts were met. The MOA does this in several important 
respects by: (1) specifying current development limits and providing 
for tailored mitigation; (2) setting land use parameters and providing 
for environmental review of future tribal projects (and a conflict 
resolution process if there is disagreement over necessary mitigation); 
(3) prohibiting gaming (which provision is enhanced by the legislative 
ban); (4) ensuring that applicable building and fire code standards are 
met; and (5) making the Agreement and compliance with prior NEPA 
identified mitigation measures judicially enforceable.
    One of the unique provisions of the Agreement addresses another key 
component of CSAC's fee-to-trust reform proposal, specifically: 
``Changes in use should not be permitted without further reviews, 
including environmental impacts, and application of relevant procedures 
and limitations.'' As stated above, this was accomplished in the Lytton 
Agreement by establishing some broad parameters for future use and 
building in a voluntary, tribal driven, environmental review process, 
the focus of which would be to determine any off-reservation impacts of 
a proposed project. The MOA then put in place a negotiation and binding 
dispute resolution process if the parties were not able to agree on 
appropriate mitigation. This approach respects sovereignty while also 
insuring that off-reservation impacts are adequately addressed.
                               conclusion
    As part of the 1991 judicial settlement agreement which restored 
the Lytton Tribe, the County promised to assist it in finding suitable 
housing and economic development opportunities. Almost 25 years later 
those promises finally can be kept through the passage of H.R. 2538 and 
the resulting implementation of the Memorandum of Agreement. Enactment 
of H.R. 2538 will reestablish an historic homeland for the Tribe in 
Sonoma County while setting a course for a constructive 
intergovernmental relationship and addressing community concerns 
regarding gaming.

    Thank you for the opportunity to share these views.

                                 ______
                                 

                        MEMORANDUM OF AGREEMENT
    This Memorandum of Agreement (hereinafter ``Agreement'') is made 
and entered into effective this 22nd day of May, 2012, (hereinafter 
``Effective Date'') by and between the Windsor Fire Protection 
District, a California Special District authorized by California Health 
and Safety Code 13800, et seq. (hereinafter ``Fire District'') and the 
Lytton Rancheria of California aka Lytton Band of Pomo Indians 
(hereinafter ``Tribe'') (collectively hereinafter ``Parties'').

    1. Recitals

    1.1  WHEREAS, the Tribe is a federally-recognized Indian tribe 
which occupies land within the Windsor Fire Protection District's 
geographic boundary that will be held in the future by the federal 
government, in trust for the benefit of the Tribe (``the Property''); 
and

    1.2  WHEREAS, the Tribe intends to develop a community of 
residences and related structures on the Property to be occupied and 
used by Tribal members (``the Project''); and

    1.3  WHEREAS, the Fire District provides fire prevention and 
emergency response services (``Services'') on the Property prior to the 
Federal government's anticipated acquisition of the Property, in trust, 
for the benefit of the Tribe; and

    1.4  WHEREAS, the Parties acknowledge that the development of the 
Project, and the increase in population and activity that will exist 
when the Project is completed and the residences and other structures 
are occupied, will require fire protection and emergency response 
services; and

    1.5  WHEREAS, the Tribe desires to have the Fire District continue 
to provide Services to the Project; and

    1.6  WHEREAS, the Parties recognize that the fire protection and 
emergency service needs arising from the Project will increase the 
burden on the Fire District's resources and that public safety is 
enhanced by cooperation between the Tribe and Fire District to 
alleviate the increased burden; and

    NOW, THEREFORE, the Parties mutually agree on the terms and 
conditions as follows:

    2. Cooperation Agreement

    2.1  The Tribe and Fire District desire to cooperate on an inter-
governmental basis to promote public safety and provide the Tribe with 
the opportunity to benefit, on a voluntary, non-jurisdictional basis 
from the constructive suggestions Fire District personnel may have with 
respect to fire safety and building issues, and to share expertise to 
maximize public and emergency personnel safety.

    3. Level of Services to be Provided

    3.1  The Fire District shall provide the initial response to all 
emergency incidents on the Project. Nothing in this Agreement is 
intended to provide any special services to the Tribe that are not 
provided equally throughout the Fire District's boundaries. The Fire 
District, with its own resources and with the mutual aid services 
provided to the Fire District under separate contracts, shall provide 
the required initial response as outlined in paragraphs 3.2 through 
3.6.

    3.2  Any reported fire or fire alarm shall have the initial 
response of one fire engine and any other additional personnel and 
equipment deemed necessary by the Fire District to effectively mitigate 
the emergency.

    3.3  Any reported medical emergency shall have the initial response 
of one vehicle appropriately equipped with medical equipment, supplies 
and communications sufficient to render medical care in accordance with 
the currently applicable Standard of Care applicable to the Fire 
District. When required, the Fire District will request resources 
including additional personnel and equipment and ground and/or air 
transport to effectively mitigate the emergency.

    3.4  Any reported rescue shall have the initial response of one 
fire engine or rescue squad and any other additional personnel and 
equipment deemed necessary by the Fire District to effectively mitigate 
the emergency.

    3.5  Any reported hazardous material incident shall have the 
initial response deemed necessary by the Fire District to assist in 
containing the emergency in accordance with the applicable hazardous 
materials response plan, as determined by the Fire District.

    3.6  Any reported miscellaneous response shall have a person in a 
vehicle with appropriate equipment and communications to handle the 
request.

    4. Alleviation of Impact on Fire District

    4.1 Impact on Fire District: The Parties recognize that the 
increased need for Services to the Project will impact the Fire 
District's daily operations. These impacts include the additional time 
required of the paid and volunteer personnel responding to calls, the 
additional wear and tear on equipment, the potential need for 
additional part or fulltime fire fighting and clerical personnel, as 
well as the possible need for capital improvements to accommodate these 
needs.

    4.2 Capital Improvement Contribution: The Tribe agrees to make an 
annual capital contribution of Fifty-Thousand Dollars ($50,000) to be 
used for equipment purchases.

    4.3 Payment of Fees and Taxes: The Tribe agrees to pay the Fire 
District the following payments that equate in general to the 
mitigation fees, special taxes and ad valorem property taxes that would 
be applicable to the Project if the Tribe was not a federally 
recognized Indian Tribe and the Property was not held by the federal 
government, in trust, for the benefit of the Tribe. Said fees may be 
deposited in the Fire District's general fund and may be used for any 
legitimate Fire District purpose:

    4.3.1  The Tribe agrees to pay the Fire District prior to start of 
construction of each single family house or cottage a fee of $750.00 
per unit.

    4.3.2  The Tribe agrees to pay the Fire District prior to the start 
of construction of each multi-family unit a fee of $525.00 per multi-
family unit.

    4.3.3  The Tribe agrees to pay the Fire District prior to the start 
of construction a fee of $340.00 per 1,000 square feet of space for the 
construction of the Community Center and Tribal Retreat.

    4.3.4  The Tribe agrees to pay the Fire District pursuant to the 
following schedule once the Property is taken into trust by the federal 
government for the benefit of the Tribe:

        First day of the first calendar year following the
        date the Property is taken into trust.                    
$25,000.00

        First day of the second calendar year following the
        date the Property is taken into trust.                    
$30,000.00

        First day of the third calendar year following the
        date the Property is taken into trust.                    
$35,000.00

        First day of the fourth calendar year following the
        date the Property is taken into trust.                    
$40,000.00

        First day of the fifth calendar year following the
        date the Property is taken into trust.                    
$45,000.00

        First day of the sixth calendar year following the
        date the Property is taken into trust.                    
$50,000.00

        First day of the seventh, eighth, ninth and tenth
        calendar year following the date the Property is
        taken into trust, and each year thereafter
        during the term of this agreement.                      
$50,000.00

    4.4 Funding for Additional Firefighter: The Tribe will pay the Fire 
District an annual amount equal to $80,000.00, which is estimated to be 
the full expense, including benefits, of one full-time paid 
firefighter. Said funding will only occur beginning the first day of 
the calendar year following the completion of any building structure on 
the Property and only if the Town of Windsor has provided public sewer 
and water to the Project.

    4.5  [Intentionally Deleted]

    4.6 Unforeseen Costs: The Parties recognize that during the term of 
this Agreement potential significant unforeseen costs may arise which 
are not contemplated by this Agreement, including, but not limited to, 
expenses which would be necessary in order to respond to an unforeseen 
emergency situation, examples include Acts of God, such as earthquake, 
or acts of terrorism, among others, that could require specialized 
equipment such as cranes, excavators, decontamination facilities, 
specialists or other resources required to provide a level of service 
above that specified in Section 3 of this Agreement. In such case, the 
Fire District is not required to incur such expenses or undertake the 
underlying activity. However, the Fire District may agree to incur such 
expenses or undertake the underlying activity if the Tribe provides 
assurance that it will reimburse the Fire District for such expenses, 
and provides resources it has at its disposal for use by the Fire 
District to address the situation. Such assurance must be in writing 
unless the nature of the situation does not provide sufficient time to 
receive written assurance, in which case the assurance may be provided 
orally by a representative of the Tribe.

    4.7 Accounting for Payments: The Fire District agrees to account 
for all monies paid to the Fire District pursuant to this Memorandum of 
Agreement, and shall provide the Tribe an annual accounting for all 
payments made by the Tribe to the Fire District.
    5.  Building Design, Modifications and Construction

    5.1 Adoption of Current Standards: The Tribe shall comply with the 
most current adopted editions of the California Fire Code and the 
current Fire Safety Standards Ordinance in effect at the time of 
construction for the Project. The Parties acknowledge that the Fire 
District does not have fire code enforcement authority on the Property 
under Public Law 280 or any other applicable law, and nothing in this 
Agreement is intended to or may be interpreted as effecting any change 
in this area. Nonetheless, as part of government-to-government 
consultations, the Fire District shall be permitted by the Tribe to 
inspect and review Tribal plans and the Project, consistent with and 
pursuant to the terms specified in this Agreement, provided that Fire 
District inspections or review of residential projects shall take place 
prior to occupancy.

    5.2 Recommendations: Upon the request of the Tribe, the Fire 
District shall provide recommendations to the Tribe regarding on-going 
design, modifications, and construction of the Project. In order to 
protect the safety of Fire District personnel, employees of the Project 
and members of the Tribe, the Tribe shall provide the Fire District 
reasonable access to the Project so the Fire District may examine the 
Project. Pursuant to these examinations, the Fire District shall make 
recommendations to the Tribe regarding maintaining or improving the 
safety of the Project. The Parties agree that no liability shall be 
conferred on either Party based on the fact that any recommendations 
have or have not been made pursuant to this Section.

    5.3 Non-compliance with Codes: If the Fire District believes the 
Project does not meet the provisions of the California Fire Code and 
the current Fire Safety Standards Ordinance or is otherwise unsafe, the 
Fire District shall raise its concerns with the Tribe. If the Tribe 
fails to address these concerns to the Fire District's satisfaction, 
the Parties agree that the Fire District may utilize the dispute 
resolution provisions of Section 8 of this Agreement or unilaterally 
terminate the Agreement immediately.

    6.  Adequate Water Supply

    6.1  The Tribe agrees to provide adequate water at an adequate 
pressure to effectively fight fires in and around the Project.

    7.  Obligations and Immunities

    In order to effectuate the implementation of, and ensure the 
effectiveness of this Agreement, the Parties recognize and agree to the 
following obligations and immunities:

    7.1 Indemnification: Each Party agrees to maintain, defend (with 
counsel satisfactory to the indemnified Party), protect, hold harmless, 
and release the other, its officers, members, agents, representatives, 
volunteers and employees, from and against any and all claims, loss, 
proceedings, damages, causes of action, liability, costs or expense 
(including attorneys' fees and witness costs) arising from or in 
connection with, or caused by, any act, omission, or negligence of such 
Party, including its members, officers, agents, representatives, 
volunteers or employees. This indemnification obligation shall not be 
limited in any way by any limitation on the amount or type of damages 
or compensation payable to or for the indemnifying Party under workers' 
compensation acts, disability benefit acts, or other employee benefit 
acts. This indemnification obligation shall be subject to the 
limitations of the Tribe's waiver of sovereign immunity described in 
Section 7.3.

    7.2 Insurance: The Tribe agrees to obtain and maintain, at its sole 
cost, a policy of commercial general liability insurance with limits 
not less than Two Million Dollars ($2,000,000) per occurrence and in 
the aggregate covering bodily injury and property damage, including 
excess medical coverage. The policy shall contain endorsements for 
coverage, which includes but is not limited to: premises liability, 
general liability, personal injury, blanket contractual coverage and 
contractual indemnity. The policy shall be endorsed to name the Fire 
District, its officers, officials, employees and volunteers as an 
additional insured. The Fire District shall cooperate in providing any 
information reasonably required to obtain such insurance. The Tribe 
shall provide a copy of the policy to the Fire District for review and 
approval and timely provide proof of such insurance on an annual basis. 
Any dispute over the existence of a duty to indemnify or defend shall 
be resolved through the dispute resolution process set forth below in 
the Agreement. No cancellation or change of coverage of insured shall 
be effective until thirty (30) days written notice has been given to 
the Fire District.

    7.3 Limited Waiver of Sovereign Immunity. The Tribe agrees to be 
bound by the terms of this Agreement. The Parties acknowledge that the 
Tribe is a federally-recognized Indian tribe and, as such, it possesses 
sovereign immunity from suit. Nothing in this Agreement is or shall be 
deemed to be a waiver of the Tribe's sovereign immunity from suit, 
which immunity is expressly asserted, except that Tribe agrees to waive 
its immunity for the limited and sole purpose of effectuating this 
Agreement and enforcing the dispute resolution provisions described in 
Section 8. The Tribe's limited waiver of its sovereign immunity as 
provided herein in favor of the Fire Department extends only to an 
arbitration, action to compel arbitration and action to confirm or 
enforce arbitration awards by the Fire Department for the Tribe's 
breach of this Agreement. The Tribe does not waive its sovereign 
immunity for the benefit of any third party.

    7.4 Fire District Obligations and Immunities. The Fire District 
agrees to be bound by the terms of this Agreement. In order to be so 
bound, the Fire District agrees to waive its immunity for the limited 
purposes of effectuating this Agreement and enforcing the dispute 
resolution provisions described in Section 8. However, notwithstanding 
any other provision in this Agreement, the Parties agree that the Fire 
District, in response to any claim or action, may assert all of the 
statutory immunities and related statutes of California with regard to 
fire protection services, rescue services, emergency medical services, 
hazardous material emergency response services, ambulance services and 
any other service relating to the protection of lives and property and 
other matters covered by this Agreement.

    8.  Dispute Resolution/Mediation/Judicial Review

    8.1 Meet and Confer. Prior to pursuing any arbitration, each Party 
shall, whenever possible, attempt to resolve any grievances, complaints 
or disputes that are brought to its attention by the other Party. Each 
Party shall notify the other Party in writing of any material 
dissatisfaction with the other Party's performance at that Party's 
address of record. Within ten (10) days of receipt of such notice, 
unless the problem has been resolved, the Parties shall meet and confer 
in good faith to determine what remedial action, if any is necessary; 
provided that if the complaining Party believes that the problem 
identified creates a significant, imminent threat to public health or 
safety or to the Property and Project, the complaining Party may 
proceed directly to judicial review as provided in Paragraph 8.5 below.

    8.2 Arbitration. In the event of any dispute between the Parties 
arising under this Agreement, such dispute shall be submitted to 
mandatory binding arbitration pursuant to the Commercial Rules of 
American Arbitration Association. Each Party shall initially pay its 
own arbitration costs and expenses, but the arbitrator may, in its 
discretion, include such costs and expenses, together with reasonable 
attorney's fees, as part of the award to the prevailing Party.

    8.3 Judicial Review. Any award of the arbitrators may be submitted 
for enforcement to a court of competent jurisdiction located in Sonoma 
County, California. Such enforcement actions shall be brought in the 
United States District Court for the Northern District of California, 
the United States Court of Appeals for the Ninth Circuit, and the 
United States Supreme Court. If the United States District Court for 
the Northern District of California determines that it lacks 
jurisdiction, the Parties shall be entitled to file in the appropriate 
trial court for the State of California. The awards of any arbitration 
if brought in Federal Court shall be governed by the Federal 
Arbitration Act codified in Title 9 of the United States Code except as 
the same may be changed or limited by the provisions of this Agreement. 
The appropriate Court shall have the authority not only to confirm any 
order or decision of the arbitrator, but to issue all orders necessary, 
including, but not limited to, the issuance of temporary or permanent 
injunctions to prohibit the Parties from engaging in conduct that 
violates the provisions of this Agreement; compelling the Parties to 
comply with the provisions of this Agreement; requiring the Parties to 
pay over any income, or profits subject to attachment or any decision 
or order of any arbitrator selected under this Agreement.

    8.4. Judicial Remedies. Judicial remedies are specifically limited 
to the following:

    8.4.1.  The enforcement of an award of money damages by arbitration 
pursuant to this Agreement; provided that the arbitrator(s) and/or 
Court shall have no authority or jurisdiction to execute against its 
San Pablo Lytton Casino operations and to award the prevailing Party 
the costs of arbitration, court costs to enforce the arbitration 
decision and legal fees incurred during arbitration and any subsequent 
court proceedings to enforce the arbitration decision.

    8.4.2.  The enforcement of a determination by an arbitrator 
pursuant to this Agreement that mandates either Party to specifically 
perform any obligation under this Agreement (other than an obligation 
to pay money which is provided for in Paragraph 8.4.1 above).

    8.5 Expedited Procedure for Significant, Imminent Threats to Public 
Safety: If the Fire District or the Tribe reasonably believes that the 
other Party's conduct in violation of this Agreement or applicable law 
has caused or will cause a significant, imminent threat to public 
health or safety or to the Property or the Project, resolution of which 
cannot be delayed for the time periods otherwise specified in this 
section, the complaining Party may proceed directly to arbitration as 
set forth in Paragraph 8.2 above, without reference to the Meet and 
Confer process set forth in Paragraph 8.1 above and seek immediate 
equitable relief. At least twenty-four (24) hours before proceeding in 
this manner, the complaining Party shall provide to the other a written 
request for correction and notice of intent to exercise its rights 
under this Paragraph 8.5, setting out the legal and or factual basis 
for its reasonable belief that there is a significant, imminent threat 
to public health or safety or to the Property or Project.

    9.  Miscellaneous Provisions

    9.1 Notices: Notices and service of process shall be sent to the 
contacts listed below or to such other person or address as shall be 
provided in writing by the party. Notice or correspondence provided 
pursuant to Section 8 of this Agreement shall be by Certified Mail, 
return receipt requested, to the addressees below. All other 
correspondence under this Agreement, including but not limited to 
submission of payments, shall be provided by personal delivery or first 
class mail to the first addressees specified below for each Party. 
Notice or payment provided by Certified Mail or first class mail 
pursuant to this Paragraph shall be deemed given upon deposit in the 
United States mail, postage prepaid or otherwise at the time of actual 
delivery. Notice of changes in any of the addressees below is to be 
given by giving notice pursuant to this Paragraph.

        FOR THE TRIBE:                FOR THE FIRE DISTRICT:

        Lytton Rancheria of 
        California                    Windsor Fire Protection District
        Margie Mejia                  Pat McDowell
        Tribal Chairperson            Board President
        437 Aviation Blvd.            P.O. Box 530
        Santa Rosa, CA 95403          Windsor, CA 95492

        Lawrence R. Stidham           William J. Arnone, Jr. Esq.
        Stidham Law Offices           Merrill, Arnone & Jones, LLP
        210 5th Street                3554 Round Barn Blvd., Suite 303
        Ramona, CA 92065              Santa Rosa, CA 95403

    9.2 Applicable Law: This Agreement is not intended to nullify or 
reduce the effect of application of any applicable law.

    9.3 Amendments: This Agreement may be modified or amended only by 
mutual and written agreement of the Parties. The Parties may amend this 
Agreement by mutual written consent at any time.

    9.4 Third Party Beneficiaries: This Agreement is not intended to, 
and shall not be construed to, create any rights in third parties.

    9.5 No Waiver of Breach: No covenant, term or condition or the 
breach thereof of this Agreement shall be deemed waived, except by 
written consent, and any waiver of the breach of any covenant, term or 
condition shall not be deemed to be a waiver of any preceding or 
succeeding breach of the same or any other covenant, term or condition.

    9.6 Assignment and Delegation: Neither Party shall assign, delegate 
or transfer any interest in or duty under this Agreement without the 
prior written consent of the other, and no such transfer shall be of 
any force or effect unless and until the other Party shall have so 
consented.

    9.7 Force Majeure: In the event of a forced delay in the 
performance by either Party of obligations under this Agreement due to 
acts of God or of the public enemy, acts or inaction of the other Party 
or its employees or agents, strikes, lockouts, unusual delay in 
transportation, unavailability of materials, fires (other than those 
fires intended to be covered by the Services), floods, catastrophic 
weather or other natural disasters, epidemics, riots, insurrection, war 
or unavoidable casualties, the time for performance of such obligations 
shall be extended for the period of the forced delay.

    9.8 Termination: This Agreement shall remain in effect until at 
least January 1, 2022, and may not be terminated by either Party 
without the other Party's written consent, unless in accordance with 
the terms of this Agreement. This Agreement shall continue in effect 
after January 1, 2022, until terminated by mutual agreement or until 
either Party provides six (6) months written notice indicating its 
desire to terminate the Agreement. Any disputes regarding payments to 
the Fire District incurred prior to the termination date shall be 
resolved through the dispute resolution process outlined in Section 8 
above.

    9.9 Suspension of Services: If the Tribe fails to make a payment in 
accordance with the requirements of this Agreement, then, upon ten (10) 
days written notice to the Tribe, the Fire District may suspend 
Services and any other obligations to the Tribe under this Agreement 
until such payment is made.

    9.10 Change in Use of Property: The Parties acknowledge that the 
terms of relative duties and obligations in this agreement are based 
upon the Project being the development of a residential community on 
the Property. The Parties agree that, should the use of the Property 
change from residential to another use, this Agreement shall be 
reviewed and changed as appropriate.

    9.11 Final Agreement: This Agreement is intended both as the final 
expression of the agreement between the Parties with respect to the 
included terms and as a complete and exclusive statement of the terms 
of the agreement and supersedes all prior written and oral agreements, 
if any, with respect to the subject matter hereof. No modification of 
this Agreement shall be effective unless and until such modification is 
evidenced by a writing signed by the Parties.

    9.12 Authorized Representatives: The persons executing this 
Agreement on behalf of the Parties hereto affirmatively represent that 
each has the requisite legal authority to enter into this Agreement on 
behalf of their respective Party and to bind their respective Party to 
the terms and conditions of this Agreement. The undersigned 
representative of each Party agrees to provide written proof of such 
authority to the other Party prior to, or at the time of, execution of 
this Agreement. The persons executing this Agreement on behalf of their 
respective Parties understand that both Parties are relying on these 
representations in entering into this Agreement.

    9.13 Successors in Interest: The terms of this Agreement will be 
binding on all successors in interest to each Party.

    9.14 Severability and Construction: To the fullest extent allowed 
by law, the provisions of this Agreement shall be construed and given 
effect in a manner that avoids any violation of applicable law. The 
Parties covenant and agree that in the event that any Provision of this 
Agreement is determined to be invalid, void, or unenforceable, such 
determination shall not affect the validity of any other provision of 
this Agreement or the remaining portion of any provisions. In the event 
of a dispute between the Parties as to the language of this Agreement 
or the construction or meaning of any term hereof, this Agreement will 
be deemed to have been drafted by the Parties in equal parts so that no 
presumption or inferences concerning its terms or interpretation may be 
construed against one Party over the other to this Agreement.

    9.15 Governing Law: This Agreement shall be construed according to 
applicable federal and California substantive law to the extent not 
inconsistent with the express provisions of this Agreement, unless 
federal law as to the Tribe or the Fire District, or California law as 
to the Fire District, prohibits such Parties from abiding by such 
express provision, in which case the provision will be deemed to be 
invalid and resolved, if possible, under the severability provisions in 
Section 9.15. Notwithstanding the foregoing California rules of 
construction shall be applied in interpreting this Agreement.

    9.16 Hazardous Materials: The Tribe agrees to maintain information 
on hazardous materials used or stored on the Project, including, at a 
minimum, information on the types, quantities and location of use or 
storage of such materials. Such information shall be available to the 
Fire District upon request and shall be maintained so that it is 
immediately available in case of emergency. The Parties acknowledge 
that, in the event of an emergency involving Hazardous Materials, the 
Fire District's responsibility is limited to clearing the impacted 
area, if possible, and containing the hazard, if possible; the Tribe is 
solely responsible for the clean-up, transportation and disposal of any 
hazardous material.

    9.17 Mutual Good Faith: Throughout the term of this Agreement, the 
Parties agree to exercise good faith and to observe the covenants 
contained herein.

    WHEREFORE, IN WITNESS THEREOF, the Parties hereby execute and enter 
into this Agreement with the intent to be bound thereby through their 
authorized representatives whose signatures are affixed below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 

                   Windsor Unified School District,
                                               Windsor, CA,
                                                      June 3, 2015.

Hon. Jared Huffman,
1630 Longworth House Office Building,
Washington, DC 20515.

Re: ``Lytton Rancheria Homelands Act of 2015''

    Dear Representative Huffman:

    On behalf of the Windsor Unified School District (District), Board 
of Trustees please accept this letter in support of the introduction 
and enactment of H.R. 2538, the ``Lytton Rancheria Homelands Act of 
2015.''

    This past fall, the District has entered into an Agreement with 
Lytton Rancheria (the Tribe) applicable to its proposed project to 
build housing, governmental and community facilities, for its members 
on land to be acquired in trust for the Tribe within the District's 
geographic boundaries. Under the Agreement, the Tribe agreed to donate 
to the District an amount equal to the developer fees that would be 
afforded to the District if the Tribe's project were a standard 
residential development.

    The District supports the acquisition of the lands in trust for the 
Tribe and continues to work with the Tribe for the betterment of our 
community.

    Thank you for your consideration.

            Sincerely,

                                       Steven L. Jorgensen,
                                                    Superintendent.

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              

    Mr. Huffman. Thank you. As evidenced by the documents that 
I have just referenced, the Tribe has worked very hard to reach 
agreements and address potential concerns from its neighbors 
and local governments. I am very thankful for those efforts. An 
agreement like this that works for all of the affected parties, 
in my opinion, is far preferable to everyone involved than the 
black box of the BIA process.
    So, I am pleased to introduce this bill, along with my 
colleague, Jeff Denham, and I would like to welcome Chairman 
Mejia again. We look forward to your testimony.
    [The prepared statement of Mr. Huffman follows:]
   Prepared Statement of the Hon. Jared Huffman, a Representative in 
                 Congress from the State of California
    I want to start by thanking Chairman Young and Ranking Member Ruiz 
for including the Lytton Rancheria Homeland Act of 2015 in today's 
hearing.
    I would also like to welcome Chairperson of the Lytton Rancheria 
Margie Mejia who is here to speak in support of this bill today.
    The Lytton Rancheria Homelands Act of 2015 (H.R. 2538), which I 
introduced with my friend Congressman Denham, takes lands already owned 
by the Lytton Rancheria in Sonoma County into trust for housing and 
other non-gaming purposes as part of the Lytton Rancheria reservation.
    In 1958, the Lytton Rancheria, a federally-recognized Pomo Indian 
tribe, lost its homeland when it was terminated by the Federal 
Government. In 1991, the Tribe was restored by the courts to federally-
recognized status, but the restoration did not include restoring the 
Tribe's reservation on its ancestral homeland.
    An important condition of my introducing this bill was that the 
Tribe negotiate agreements with its local government neighbors to 
address and mitigate potential concerns, including the strong 
opposition to new casinos in Sonoma County.
    The arrangements that have been negotiated--and in some cases are 
continuing to be finalized--provide certainty for all parties, and 
provide a model for functional, respectful, productive relationships 
between local governments and federally-recognized tribes.
    This bill ensures that the Lytton Tribe, after many long years, can 
finally return to a homeland--and it does it in partnership with the 
Tribe's local government neighbors.
    The County of Sonoma and the Lytton Rancheria entered into a 
Memorandum of Agreement on March 10, 2015 and I ask unanimous consent 
that the resolution signed by the Board of Supervisors of the County of 
Sonoma be entered into the record.
    The Chairperson of the Sonoma County Board of Supervisors, Susan 
Gorin, has also written a statement for the record, I ask unanimous 
consent that it be entered into the record at this time.
    I would like to highlight a few lines from Supervisor Gorin's 
statement for the subcommittee:
    ``The Tribe and County worked together to accurately identify the 
off-reservation impacts and, as the project changed over time, to build 
a framework that met the parties' respective interests.''
    ``Enactment of H.R. 2538 will reestablish an historic homeland for 
the Tribe in Sonoma County while setting a course for a constructive 
intergovernmental relationship and addressing community concerns 
regarding gaming.''

    The town of Windsor is still working cooperatively with the Tribe, 
which will include their public process. While that public process is 
proceeding, I am pleased to note that two of the affected local 
agencies have already reached agreements with the Tribe covering their 
shared interests.

    <bullet> Lytton Rancheria has entered into a Memorandum of 
            Agreement with the Windsor Fire Protection District to 
            provide emergency services to tribal members located in the 
            proposed tribal housing area. I ask unanimous consent that 
            the agreement be entered into the record.
    <bullet> Lytton Rancheria has entered into a Memorandum of 
            Agreement with the Windsor Unified School District to 
            prepare for and mitigate an increase in school-aged 
            children who would move into the proposed tribal housing. I 
            ask unanimous consent that a letter of support for H.R. 
            2538 from the Windsor Unified School District be entered 
            into the record.

    Last, I would like to ask unanimous consent to enter into the 
record the map referenced in my bill. This map can be found on my Web 
site and it is my understanding that it has been on file for public 
review with the town of Windsor since May 28, 2015.
    As evidenced by the documents I have just referenced and included 
in the record, the Tribe has worked hard to reach agreements and 
address potential concerns from its neighbors and local governments, 
and I am very thankful for those efforts.

    Again I would like to welcome Chairperson Margie Mejia. We look 
forward to hearing your testimony.

                                 ______
                                 

    Mr. Young. Mr. Huffman, a little latitude. Thank you for 
your kind gesture of the bottle of wine, you know, celebrating 
my new bride. Thank you.
    So this guy knows how to do the job, you know. I can tell 
you right now. He is up there with--thank you.
    Mr. Huffman. You are welcome. Congratulations.
    Mr. Young. Thank you.
    Mrs. Capps, you are recognized to comment on the 
legislation. It affects your district.

STATEMENT OF THE HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, for giving me the 
opportunity to provide a statement on H.R. 1157 today. I want 
to congratulate you, as well, in a personal way. And I also do 
not have any unanimous consent requests.
    [Laughter.]
    Mrs. Capps. But I also have three constituents who are 
witnesses today, and I want to welcome them to this hearing.
    H.R. 1157 is a bill that would take 1,400 acres of land 
known as Camp 4 in the Santa Ynez Valley into trust for the 
Santa Ynez Band of Chumash Mission Indians. The Santa Ynez 
Valley, which is in my congressional district, has a long 
history of limited development and there has long been a 
concerted effort to retain the undeveloped, rural nature of the 
valley.
    As the earliest inhabitants of the valley, the Chumash 
certainly share the community's commitment to protecting and 
preserving the land and the unique qualities of this area. I 
have had the pleasure of working with Chairman Armenta and the 
Tribe on many occasions over the years, including on their 
wonderful Tribal Health Clinic and Education Center. It is 
clear the Tribe has legitimate needs for more housing for its 
members, a need that must be addressed. That is why I have 
worked many years to try to bring the Tribe, local community 
members, and county leadership together to work out the 
differences and find a way forward.
    While I know this has proven to be a difficult process, I 
sincerely believe that there can still be, and there is, a path 
forward that meets both the needs of the Tribe and addresses 
the concerns of the county and local residents. But let me be 
clear: H.R. 1157 is not that path, and I oppose it for several 
reasons.
    First, the issues at the core of this matter are 
fundamentally local. This is ultimately about local housing, 
zoning, and land use. These are issues best resolved by county 
and municipal officials in consultation with local residents 
and the Tribe, not in Washington, DC by Members of Congress who 
don't even live near the area. These are issues that have 
always been worked out locally, because they involve very 
localized knowledge of the community and its residents. No 
matter how well-intentioned, without the support of the local 
community, we here in Congress, in my opinion, should not 
intervene in this local issue.
    Second, the bill is unnecessary because Camp 4 has already 
been taken into trust. While I think we can all agree that the 
BIA fee-to-trust process certainly has its flaws, this is the 
process that has been put into place to resolve issues like 
Camp 4, and that process is moving forward. After roughly a 
year-and-a-half of review, the BIA approved the Tribe's 
application last year on Christmas Eve. The process may not be 
moving as fast as the Tribe would prefer, but the application 
was approved in a timely manner and appeals will be considered 
under new rules that expedite the process. Legislative action 
such as H.R. 1157 should be for circumstances when the BIA 
process is clearly failing; this is not one of those 
circumstances.
    Third, with Camp 4 already taken into trust, the only real 
effect of this bill would be to cut off consideration of the 
appeals of the BIA decision currently being considered by 
Assistant Secretary Kevin Washburn. Again, the BIA appeals 
process may not move as quickly as the Tribe would like, but 
eliminating the appeals process less than 6 months after it 
began hardly seems appropriate. Agree or disagree, my 
constituents have the right to be heard and provide input on 
this process. This bill would prematurely and needlessly cut 
off this right.
    Finally, I am deeply troubled by the precedent being set by 
the consideration of this bill, and I think my colleagues 
should be troubled, as well. The land taken into trust by H.R. 
1157, as well as the entirety of Santa Barbara County, is 
solely within California's 24th congressional district, which I 
happen to represent. The land has no connection to the 
districts represented by Mr. LaMalfa, by anyone else on this 
committee, or by any other Member of the House. It is my 
congressional district. I alone have been elected by the people 
of the 24th District to represent them here in Congress.
    It is also worth noting that our former Republican 
colleague, Elton Gallegly, who also represented the Santa Ynez 
Valley in Congress for many years, did not support Federal 
legislation on this issue either.
    I would hope that my colleagues would take a minute to 
consider this and the door being opened by today's hearing and 
the committee's consideration of H.R. 1157. Consider the fact 
that this committee is moving forward on legislation that is 
opposed by both local and Federal representatives of the 
communities impacted by this bill. Consider also that the 
outcome of this legislation could have a profound impact on the 
future of the Santa Ynez Valley, yet valley residents do not 
have the opportunity to hold the bill's sponsors accountable at 
the ballot box. I find this profoundly troubling, and I urge my 
colleagues to consider this carefully.
    Once again, Mr. Chairman, I strongly oppose H.R. 1157. I 
urge you not to advance this bill, and I yield back the 
remainder of my time.

    [The prepared statement of Mrs. Capps follows:]
Prepared Statement of the Hon. Lois Capps, a Representative in Congress 
                      from the State of California
    Thank you Mr. Chairman for giving me the opportunity to provide a 
statement on H.R. 1157 today.
    I'd also like to welcome my three constituents testifying on the 
panel.
    H.R. 1157 is a bill that would take 1,400 acres of land known as 
``Camp 4'' in the Santa Ynez Valley into trust for the Santa Ynez Band 
of Chumash Mission Indians.
    The Santa Ynez Valley, which is in my congressional district, has a 
long history of limited development and there has long been a concerted 
effort to retain the undeveloped, rural nature of the valley.
    As the earliest inhabitants of the valley, the Chumash certainly 
share the community's commitment to protecting and preserving the land 
and the unique qualities of the area. I have had the pleasure of 
working with Chairman Armenta and the Tribe on many occasions over the 
years, including on the wonderful Tribal Health Clinic and Education 
Center. It is clear that the Tribe has a legitimate need for more 
housing for its members--a need that must be addressed. And that is why 
I have worked to try to bring the Tribe, local community members, and 
county leadership together to work out their differences and find a way 
forward.
    While I know this has proven to be a difficult process, I sincerely 
believe that there can still be a path forward that both meets the 
needs of the Tribe and addresses the concerns of the county and local 
residents. But let me be clear: H.R. 1157 is not that path, and I 
oppose it for several reasons.
    First, the issues at the core of this matter are fundamentally 
local. This is ultimately about local housing, zoning, and land use. 
These are issues best resolved by county and municipal officials in 
consultation with local residents and the Tribe, not in Washington, DC 
by Members of Congress who don't even live near the area. These are 
issues that have always been worked out locally because they involve 
very localized knowledge of the community and its residents. No matter 
how well-intentioned, without the support of the local community, we 
here in Congress should not intervene in this local issue.
    Second, the bill is unnecessary because Camp 4 has already been 
taken into trust. While I think we can all agree that the BIA fee-to-
trust process certainly has its flaws, this is the process that has 
been put in place to resolve issues like Camp 4 and that process is 
moving forward. After roughly a year-and-a-half of review, the BIA 
approved the Tribe's application last year on Christmas Eve.
    The process may not be moving as fast as the Tribe would prefer, 
but the application was approved in a timely manner and the appeals 
will be considered under new rules that expedite the process. 
Legislative actions such as H.R. 1157 should be for circumstances when 
the BIA process is clearly failing; this is not one of those 
circumstances.
    Third, with Camp 4 already taken into trust, the only real effect 
of this bill would be to cut off consideration of the appeals of the 
BIA decision currently being considered by Assistant Secretary Kevin 
Washburn. Again, the BIA appeals process may not move as quickly as the 
Tribe would like, but eliminating the appeals process less than 6 
months after it began hardly seems appropriate. Agree or disagree, my 
constituents have a right to be heard and provide input on this 
process. This bill would prematurely and needlessly cut off this right.
    And finally, I am deeply troubled by the precedent being set by the 
consideration of this bill, and I think my colleagues should be 
troubled as well. The land taken into trust by H.R. 1157, as well as 
the entirety of Santa Barbara County, is solely within California's 
24th Congressional District, which I represent. This land has no 
connection to the districts represented by Mr. LaMalfa, by anyone on 
this committee, or by any other Member of this House. It is in my 
congressional district; I alone have been elected by the people of the 
24th District to represent them here in Congress.
    And it's also worth noting that our former Republican colleague 
Elton Gallegly, who also represented the Santa Ynez Valley in Congress 
for many years, did not support Federal legislation on this issue 
either. I would hope that my colleagues will take a moment to consider 
this and the door being opened by today's hearing and the committee's 
consideration of H.R. 1157. Consider the fact that this committee is 
moving forward on legislation that is opposed by both the local and 
Federal representatives of the communities impacted by this bill. 
Consider also that the outcome of this legislation could have a 
profound impact on the future of the Santa Ynez Valley, yet valley 
residents do not have the opportunity to hold the bill's sponsors 
accountable at the ballot box. I find this profoundly troubling, and I 
urge my colleagues to consider this carefully.

    Once again, Mr. Chairman, I strongly oppose H.R. 1157 and urge you 
not to advance this bill.

                                 ______
                                 

    Mr. Young. I thank the lady for her statement. Now I will 
introduce our witnesses.
    Mr. Mike Black--again, Mr. Black, welcome. I am not going 
to be mean yet, so just keep that in mind. And you are 
accompanied by Michael Nedd, Assistant Director, Energy, 
Minerals, and Realty Management, Bureau of Land Management. The 
Honorable Vincent Armenta, Chairman of the Ynez Chumash Mission 
Indians, Santa Ynez, California. Ms. Mona Miyasato, Executive 
Officer, County of Santa Barbara, on behalf of the County of 
Santa Barbara Board of Supervisors. Mr. Steve Lavagnino, County 
Supervisor, Fifth District, Santa Barbara County Board of 
Supervisors, Santa Maria, California. Mr. Leo Barlow, 
Representative of the Community of Wrangell, Alaska, on behalf 
of the Southeast Alaska Corporation. And the Honorable Ms. 
Mejia, Chairperson of the Lytton Rancheria, Santa Rosa, 
California.
    Mr. Black, before you proceed, the committee has received 
the Administration's testimony an hour before the hearing. I 
would suggest you hire a little bit more efficient clerks, 
because we, as a committee, do not appreciate 1 hour. The rules 
are 24 hours at the minimum. I just want you to know that. I 
have had trouble with every administration and the Department 
of the Interior--just not your administration--not recognizing 
the rules of the committee, that you have to follow because we 
have to have the testimony ahead of time so we can review what 
you are going to say, what you are going to do--defend it or 
support it. And I think it is inappropriate to have the 
committee get it an hour before the hearing. Just want you to 
know it doesn't make me happy.
    So, Mr. Black, you are up.
    I think all of you know you have 5 minutes. And I will, 
very frankly--I am pretty lenient in some cases, if you are 
making sense. And that is--you have to keep that in mind.
    [Laughter.]
    Mr. Young. So, we will try to be as generous as we can, and 
then the questions.
    Mr. Black, you are up.

STATEMENT OF MICHAEL BLACK, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
        U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Black. Chairman Young, Ranking Member Ruiz, and members 
of the subcommittee, I am accompanied today, as you stated, by 
Michael Nedd, Assistant Director for the Bureau of Land 
Management. I want to thank you for the opportunity to present 
the Department of the Interior's views on H.R. 1157, a bill to 
authorize the Secretary of the Interior to place certain lands 
located in the unincorporated area of the County of Santa 
Barbara, California into trust for the benefit of the Santa 
Ynez Band of Chumash Mission Indians; H.R. 2538, a bill taking 
certain lands located in the County of Sonoma, California into 
trust for the benefit of the Lytton Rancheria and for other 
purposes; and H.R. 2386, the ``Unrecognized Southeast Alaska 
Native Communities Recognition and Compensation Act.''
    Taking land into trust is one of the most important 
functions that the Department undertakes on the behalf of 
Indian tribes. Homelands are essential to the health, safety, 
and welfare of tribal communities. Thus, the Administration has 
made the restoration of tribal homelands a priority, and is 
committed to this effort through the Department's acquisition 
of land in trust for tribes, where appropriate.
    H.R. 1157 authorizes the Secretary for the Department to 
place approximately five parcels of land into trust for the 
Tribe. H.R. 1157 clearly provides a legal description for the 
lands that will be held in trust for the Tribe, and once the 
land is placed in trust for the Tribe, removes any restrictions 
on the property, pursuant to California State law, but also 
provides that the legislation does not terminate any right-of-
way, right-of-use issued, granted, or permitted prior to the 
date of the enactment of this legislation.
    H.R. 1157 also includes a restriction that the Tribe may 
not conduct any gaming activities on any land taken into trust 
pursuant to this Act.
    The Department supports mandatory fee-to-trust legislation, 
but takes no position on H.R. 1157, given that the five parcels 
identified in the bill are currently on appeal to the Assistant 
Secretary for Indian Affairs.
    H.R. 2538 will place approximately 500 acres of land into 
trust for the Tribe. H.R. 2538 references a map titled, 
``Lytton Fee Owned Property to be Taken Into Trust,'' dated May 
1, 2015, for the lands that will be held in trust for the 
Tribe. Under H.R. 2538, once the land is in trust for the 
Tribe, valid existing rights, contracts, and management 
agreements related to the easements and right-of-ways will 
remain.
    H.R. 2538 also includes a restriction that the Tribe may 
not conduct any gaming activities on any land taken into trust 
pursuant to this Act.
    The Department recommends adding language into H.R. 2538 
that does allow the BIA to examine the land for any 
environmental issues prior to such lands going into trust. The 
Department supports H.R. 2538 with some amendments.
    H.R. 2386 would amend ANCSA to authorize the five Southeast 
Alaska Native communities of Haines, Ketchikan, Petersburg, 
Tenakee, and Wrangell to organize as urban corporations, 
entitling each, upon incorporation, to receive one township of 
land, or approximately 23,040 acres, the local areas of 
historical, cultural, traditional, and economic importance. The 
bill provides that the establishment of these new urban 
corporations does not affect any entitlement to land of any 
native corporation established before this Act being proposed.
    Although the Department opposes H.R. 2386, we would be glad 
to work with the sponsor and committees to address issues with 
the proposed legislation, as well as problems with eligible 
existing ANCSA communities.
    Mr. Nedd and I would be happy to answer any questions that 
you may have. Thank you again.
    [The prepared statement of Mr. Black follows:]
 Prepared Statement of Michael Black, Director of the Bureau of Indian 
 Affairs, U.S. Department of the Interior on H.R. 1157, H.R. 2386, and 
                               H.R. 2538

 H.R. 1157, ``Santa Ynez Band of Chumash Mission Indians Land Transfer 
                             Act of 2015''

    Chairman Young, Ranking Member Ruiz, and members of the 
subcommittee, my name is Michael Black and I am the Director for the 
Bureau of Indian Affairs. Thank you for the opportunity to present the 
Department of the Interior's (Department) views on H.R. 1157, a bill to 
authorize the Secretary of the Interior to place certain lands located 
in the unincorporated area of the County of Santa Barbara, California 
into trust for the benefit of the Santa Ynez Band of Chumash Mission 
Indians (Tribe), and for other purposes.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal communities. 
Thus, this Administration has made the restoration of tribal homelands 
a priority. This Administration is committed to the restoration of 
tribal homelands, through the Department's acquisition of lands in 
trust for tribes, where appropriate. The Department supports mandatory 
fee-to-trust legislation but takes no position on H.R. 1157 given that 
the five parcels identified in the H.R. 1157 are currently on appeal to 
the Assistant Secretary for Indian Affairs at the Department.
    H.R. 1157 authorizes the Secretary for the Department to place 
approximately five parcels of land into trust for the Tribe. H.R. 1157 
clearly provides the legal description for the lands that will be held 
in trust for the Tribe. H.R. 1157, once the land is placed in trust for 
the Tribe, removes any restrictions on the property pursuant to 
California state law, but also provides that the legislation does not 
terminate any right-of-way, or right-of-use issued, granted or 
permitted prior to the date of the enactment of this legislation. H.R. 
1157 also includes a restriction that the Tribe may not conduct any 
gaming activities on any land taken into trust pursuant to this Act.
    Thank you for the opportunity to present the Department's views on 
this legislation. I will be happy to answer any questions the 
subcommittee may have.

     H.R. 2386, ``Unrecognized Southeast Alaska Native Communities 
                   Recognition and Compensation Act''

    Thank you for the opportunity to provide the views of the 
Department of the Interior on H.R. 2386, the Unrecognized Southeast 
Alaska Native Communities Recognition and Compensation Act. H.R. 2386 
would amend the Alaska Native Claims Settlement Act (ANCSA) to 
authorize the five Southeast Alaska Native communities of Haines, 
Ketchikan, Petersburg, Tenakee, and Wrangell to organize as urban 
corporations, entitling each to receive land in southeastern Alaska.
    The Department supports the goals of fulfilling ANCSA entitlements 
as soon as possible so that Alaska Native corporations may each have 
the full economic benefits of completed land entitlements. In recent 
years, the Bureau of Land Management (BLM) has maintained an 
accelerated pace in fulfilling entitlements pursuant to the ANCSA. To 
date, the BLM has fulfilled 95 percent of ANCSA and state of Alaska 
entitlements by interim conveyance, tentative approval, or patent. The 
BLM is committed to improving the Alaska land transfer process wherever 
opportunities exist. For example, we have proposed to establish a 
faster, more accurate, and more cost-effective method for land 
conveyances required by the Alaska Statehood Act, though we continue to 
wait for meaningful engagement and feedback from the state of Alaska.
Background
    ANCSA effected a final settlement of the aboriginal claims of 
Native Americans in Alaska through payment of $962.5 million and 
conveyances of more than 44 million acres of Federal land. Although it 
was impossible for Congress to have effected total parity among all 
villages in the state, there was a distinction made in ANCSA between 
the villages in the Southeast and those located elsewhere. Prior to the 
passage of ANCSA, natives in the Southeast received payments from the 
United States pursuant to court cases in the 1950s and late 1960s, for 
the taking of their aboriginal lands. Because natives in the Sealaska 
region benefited from an additional cash settlement under ANCSA, the 
eligible communities received less acreage than their counterparts 
elsewhere in Alaska. Congress specifically named the villages in the 
Southeast that were to be recognized in ANCSA; these five communities 
were not among those named. Despite this, the five communities applied 
to receive benefits under ANCSA and were determined to be ineligible. 
Three of the five appealed their status and were denied.
    Notwithstanding the ineligibility of some communities for corporate 
status under ANCSA, all natives potentially receive benefits from the 
ANCSA settlement. Alaska Natives in these five communities are enrolled 
as at-large shareholders in the Sealaska Corporation. The enrolled 
members of the five communities comprise more than 20 percent of the 
enrolled membership of the Sealaska Corporation, and as such, have 
received benefits from the original ANCSA settlement.
H.R. 2386
    H.R. 2386 would amend ANCSA to authorize the five Southeast Alaska 
Native communities of Haines, Ketchikan, Petersburg, Tenakee, and 
Wrangell to organize as urban corporations, entitling each, upon 
incorporation, to receive one township of land (23,040 acres) from 
local areas of historical, cultural, traditional and economic 
importance. The bill provides that establishment of these new urban 
corporations does not affect any entitlement to land of any native 
corporation established before this Act being proposed.
    Recognition of these five communities as provided in the bill, 
despite the history and requirements of ANCSA, risks setting a 
precedent for other similar communities to seek to overturn 
administrative finality and re-open their status determinations. 
Establishing this de facto new process would contravene the purposes of 
ANCSA and could create a continual land transfer cycle in Alaska.
    The Department also has concerns with specific provisions in the 
bill. For example, in Section 6, new ANCSA Section 43 contains very 
open-ended selection language. The provision does not require the new 
urban corporations to take lands for ``the township or townships in 
which all or part of the native village is located,'' as provided for 
in ANCSA. Instead, it requires only that the lands be ``local areas of 
historical, cultural, traditional, and economic importance to Alaska 
Natives'' from the villages. The bill also appears to require the 
Secretary, in consultation with the Secretary of Commerce and 
representatives from Sealaska Corporation, to select and offer lands to 
the new urban corporations.
    Although the Department does not support H.R. 2386, we would be 
glad to work with the sponsor and the committee to address these issues 
as well as problems with eligible existing ANCSA communities. For 
instance, rather than simply addressing the perceived inequities of 
five communities formerly deemed to be ineligible under ANCSA, the 
Department would like to work with the committee to find solutions to 
the existing eligible communities that have no remaining administrative 
remedies, such as the villages of Nagamut, Canyon Village and Kaktovik.
Conclusion
    The BLM's Alaska Land Transfer program is now in a late stage of 
implementation and the Department strongly supports the equitable and 
expeditious completion of the remaining Alaska Native entitlements 
under ANCSA and other applicable authorities. H.R. 2386 would delay the 
Department's goal of sunsetting the Alaska Land Transfer Program, which 
is in its final stages. The Department believes that the completion of 
the remaining entitlements under ANCSA and the Statehood Act is 
necessary to equitably resolve the remaining claims and fulfill an 
existing congressional mandate.

         H.R. 2538, ``Lytton Rancheria Homelands Act of 2015''

    Chairman Young, Ranking Member Ruiz, and members of the 
subcommittee, my name is Michael Black and I am the Director of the 
Bureau of Indian Affairs. Thank you for the opportunity to present the 
Department of the Interior's (Department) views on H.R. 2538, a bill 
taking certain lands located in the County of Sonoma, California into 
trust for the benefit of the Lytton Rancheria of California (Tribe), 
and for other purposes.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal communities. 
Thus, this Administration has made the restoration of tribal homelands 
a priority. This Administration is committed to the restoration of 
tribal homelands, through the Department's acquisition of lands in 
trust for tribes, where appropriate. The Department supports H.R. 2538, 
with some amendments.
    H.R. 2538 will place approximately 511 acres of land into trust for 
the Tribe. H.R. 2538 references a map titled ``Lytton Fee Owned 
Property to be Taken into Trust'' dated May 1, 2015 that identifies the 
lands to be transferred into trust for the Tribe. Under H.R. 2538, once 
the land is in trust for the Tribe, valid existing rights, contracts, 
and management agreements related to easements and rights-of-way will 
remain. H.R. 2538 includes a restriction that the Tribe may not conduct 
any gaming activities on any land taken into trust pursuant to this 
Act.
    H.R. 2538 also references a Memorandum of Agreement between the 
County of Sonoma and the Tribe. The MOA affects not only the trust 
acquisition covered in the legislation but also future acquisitions and 
subjects the Tribe to the land use/zoning authority of the County for 
most of the property identified in the legislation for the term of the 
MOA, 22 years, and imposes negotiated restrictions on the Tribe's 
residential development.
    This Administration is supportive of legislative efforts to take 
land into trust for tribes. The Administration is also supportive of 
counties and tribes negotiating agreements to resolve their 
differences. The decision to compromise principles of tribal 
sovereignty is itself an exercise of sovereignty and tribal self-
governance. In that spirit, the Administration defers to the decision 
made by the Tribe.
    Thank you for the opportunity to present the Department's views on 
this legislation. I will be happy to answer any questions the 
subcommittee may have.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Black. We have now--let me see.
    Vincent, you are up.

  STATEMENT OF VINCENT ARMENTA, CHAIRMAN, SANTA YNEZ BAND OF 
        CHUMASH MISSION INDIANS, SANTA YNEZ, CALIFORNIA

    Mr. Armenta. Good afternoon, Chairman Young, Ranking Member 
Ruiz, and members of the subcommittee. My name is Vincent 
Armenta, and I am the Tribal Chairman for the Santa Ynez Band 
of Chumash Indians. On behalf of our tribe, first I would like 
to thank you today for allowing me to testify on H.R. 1157.
    The Santa Ynez Band of Chumash Indians is located in the 
Santa Ynez Reservation in Santa Barbara County, California. Our 
tribe was federally recognized in 1901, and remains the only 
federally-recognized Chumash Tribe in the Nation. The Chumash 
aboriginal territory lies along the California coast, between 
Malibu and Paso Robles, as well as the Northern Channel 
Islands. Their area was first settled about 13,000 years ago, 
and at one time the total population of the Chumash was 
approximately 18,000.
    Our tribe was eventually relegated to a 99-acre 
reservation. For many years, very few tribal members lived on 
the reservation. Running water, electricity were not available 
to our residents. We did not even have indoor plumbing until 
the 1960s.
    In the 1970s, the Tribe was able to secure funding for 
assistance from the Department of Housing and Urban Development 
to build the first modern homes on our reservation. Those homes 
are now nearly 50 years old, and insufficient to meet the needs 
of our people. In many instances, several generations live 
under one roof. Still, only about 17 percent of our members and 
descendants live on our reservation.
    The HUD homes from the 1970s may have met the basic health 
and safety standards, but fire and rescue equipment commonly 
used today would be hard-pressed to service many of these homes 
as the roads are too narrow and the population density is too 
great. Unfortunately, building additional homes on our existing 
reservation is not possible. The majority of our reservation 
land is already developed and the remaining is in a creek bed 
or on a sloped hillside.
    Knowing the housing shortage will only worsen, our tribe 
purchased 1,400 acres of our ancestral land in 2010, known as 
Camp 4. Camp 4 sits just a few miles east of our reservation. 
The Department of the Interior has confirmed that Camp 4 is 
part of our ancestral land. Shortly after purchasing Camp 4, we 
submitted a draft cooperative agreement to the Santa Barbara 
County Board of Supervisors, hoping to negotiate a payment in 
lieu of taxes in that agreement. Even though the land was 
currently only generating $81,000 a year in property taxes, our 
tribe offered $1 million a year for a period of 10 years.
    For more than 2 years, the Santa Barbara County Board of 
Supervisors ignored our offer. On August 20, 2013, the Board 
voted 3 to 2 not to enter into a government-to-government 
dialog with our tribe, ending any hope we had of resolving this 
at the local level. The official position of the Board to this 
day is that tribes are not governments and, therefore, the 
County need not negotiate with them. One of the supervisors 
even went so far as to call for the end of tribal sovereignty.
    In spite of the Board's decisions, our tribal government 
continues to build partnerships in our community. For instance, 
we recently completed a cooperative agreement with both the 
sheriff's department and the Santa Barbara County fire 
department. We are paying for law enforcement, not just on the 
reservation, but for the entire valley. We are providing two 
additional positions at two separate fire stations in our 
community, for the purpose of protection of our tribal members, 
as well as community members.
    These agreements demonstrate that the Tribe is willing to 
work with the County in a positive and constructive manner, if 
we are given the opportunity to do so. Sadly, relations between 
the Tribe and the Board of Supervisors and its anti-tribal 
allies remain toxic. The Board and its allies blocked us from 
acquiring 6.9 acres of trust land for nearly 14 years. After 
lawsuits from anti-tribal groups, the BIA finally placed the 
land into trust last year.
    We are willing to work with the County to resolve these 
concerns. For instance, we address fears of gaming, which is in 
H.R. 1157.
    As witnessed by our lengthy but successful efforts to bring 
6.9 acres into trust through the administrative process, we 
will eventually prevail on this issue. There are only two 
variables, which are timing and restrictions on land use.
    Mr. Chairman and Members, thank you again for the 
opportunity to testify today.
    [The prepared statement of Mr. Armenta follows:]
Prepared Statement of Vincent Armenta, Tribal Chairman, Santa Ynez Band 
                    of Chumash Indians on H.R. 1157
    Good afternoon Chairman Young, Ranking Member Ruiz and members of 
the subcommittee. My name is Vincent Armenta and I am the Tribal 
Chairman of the Santa Ynez Band of Chumash Indians.
    On behalf of our tribe, thank you for the opportunity to testify 
today about H.R. 1157, the Santa Ynez Band of Chumash Mission Indians 
Land Transfer Act of 2015.
I. Brief History of the Santa Ynez Band of Chumash Indians/California 
        Tribes
    The Santa Ynez Band of Chumash Indians is located on the Santa Ynez 
Reservation in Santa Barbara County, California. Our tribe was 
federally recognized in 1901 and remains the only federally-recognized 
Chumash Tribe in the Nation.
    The Chumash original territory lies along the California coast, 
between Malibu and Paso Robles, as well as on the Northern Channel 
Islands. The area was first settled about 13,000 years ago and at one 
time, the Chumash had a total population of approximately 18,000 
people.
II. Need for Housing
    Our tribe was eventually relegated to a 99-acre reservation. For 
many years, very few tribal members lived on our reservation. Running 
water and electricity were not made available to our residents.
    Our source of water had been declared unfit for human consumption. 
Tribal members living on the reservation at that time had to walk to 
the creek to fill buckets of water for use in their homes. Toilets were 
open pits that sometimes overflowed into the creek, the very creek that 
supplied our members with drinking water.
    While it took a few years and many fundraisers, our reservation 
eventually secured running water and we finally had indoor plumbing in 
the late 1960s.
    In the 1970s, our tribe was able to secure funding and assistance 
from the Department of Housing and Urban Development to build the first 
modern homes on our reservation. Those homes are now nearly 50 years 
old and are insufficient to meet the needs of our people. In many 
instances, multiple generations live under one roof. Still, only about 
17 percent of our tribal members and lineal descendants live on our 
reservation.
    While the subdivision planned by HUD in the 1970s may have met 
basic health and safety standards, fire and rescue equipment commonly 
used today would be hard pressed to service many of the homes in our 
current development as the roads are too narrow and the population 
density is too great.
    Unfortunately, building additional homes on our existing 
reservation is not possible. The majority of our reservation land is 
already developed and the remaining is in a creek bed or sloped areas 
that are impossible to develop.
    Knowing the housing shortage would only worsen, our tribe purchased 
1,400 acres of ancestral land in 2010--land known as ``Camp 4.'' One of 
our primary goals in purchasing the land is to build homes on it for 
our tribal members and their families.
    Camp 4 sits just a few miles east of our reservation. By official 
action, the Department of Interior has confirmed that Camp 4 is part of 
our ancestral lands.
III. Initial Offer to County of SB, Refusal to Meet and Rejection
    Shortly after purchasing the Camp 4 property, we submitted a Draft 
Cooperative Agreement to the Santa Barbara County Board of Supervisors, 
hoping to negotiate a payment in lieu of property taxes agreement. Even 
though the land was currently only generating $81,000 in property taxes 
per year, we offered the County a million dollars annually, for 10 
years.
    For more than 2 years, the Board ignored our offer.
    On August 20, 2013, the Board voted 3-2 not to enter into a 
government-to-government dialog, ending any hope we had of resolving 
this at the local level.
    The official position of the Board to this day is that tribes are 
not governments and therefore the County need not negotiate with them. 
One supervisor even went so far as to call for the end of tribal 
sovereignty.
    Unfortunately, the majority of the Santa Barbara County Board of 
Supervisors simply lack a basic understanding of tribes as 
governments--an elementary recognition required to work effectively 
with tribal nations.
IV. Meetings and Agreements with Sheriff and Fire Department
    Notwithstanding the perpetual opposition from the County, our 
tribal government continues to build partnerships with those in the 
community who are willing to work with us.
    For instance, we recently completed cooperative agreements with our 
local Sheriff and Fire Departments. Through these agreements, Chumash 
is now paying for law enforcement and fire safety services not only on 
our reservation, but also mitigating off-reservation impacts and 
improving emergency services across the entire Santa Ynez Valley.
    As members of the subcommittee will recall, just last month, the 
California State Association of Counties testified in support of a 
number of reforms for the land into trust process, including providing 
for a legal framework to encourage tribes to reach intergovernmental 
mitigation agreements. Mr. Chairman, it is not the tribes that need 
encouragement, but rather, it is the counties. It is shameful that one 
of CSAC's leading members, Santa Barbara County, can't be troubled to 
take the advice of its own membership association.
    These agreements demonstrate that we are willing to work with the 
County in a positive and constructive manner, if we are just given the 
opportunity to do so.
    We have also built solid relationships in the community with 
various organizations. Through our Santa Ynez Band of Chumash Indians 
Foundation, our tribe has played a significant role in the 
philanthropic arena, donating millions of dollars to a wide variety of 
non-profit organizations and schools. In addition to funding a myriad 
of community projects that benefit the entire community, our tribe also 
provides volunteers for a number of non-profit organization projects 
through our volunteer organization, Team Chumash.
    A few of our Foundation's recent donations include donating iPads 
to school children in an effort to expand technology access throughout 
the largest elementary school in the Lompoc school district, donating 
$10,000 to the Legal Aid Foundation of Santa Barbara County to help the 
organization continue its efforts to reduce homelessness and donating 
annually to the Santa Ynez Valley People Helping People organization to 
help with emergency and short-term social services.
    For the past decade, our tribe has also hosted its annual Chumash 
Charity Golf Classic where the proceeds from the tournament go to well-
deserving local charities. In 2014, the largest amount in the 
tournament's history was raised--$150,000--bringing the total amount 
raised through the tournament for local nonprofit organizations to $1 
million.
    Through our Foundation, our tribe has donated more than $19 million 
to hundreds of groups, organizations and schools in the community and 
across the Nation as part of our tribe's long-standing tradition of 
giving.
V. Conclusion
    Sadly, relations between the Tribe and the Board of Supervisors and 
its anti-tribal allies remain toxic.
    The Board and its allies blocked us from acquiring just 6.9 acres 
of trust land for nearly 14 years, as lawsuit after lawsuit was filed 
then dismissed. The BIA's decision to finally acquire the land last 
year came after a process that cost both the Tribe and our neighbors 
millions.
    But now that the playbook has been written, we are witnessing the 
same game play out. The County's allies have once again filed frivolous 
lawsuits to stop the Tribe at every turn. And with housing pressures 
growing, we are left with passage of H.R. 1157 as the only viable 
solution.
    Regardless of how we have been treated, the Santa Ynez Chumash 
still stand ready to work with the County to resolve concerns. For 
instance, we have heard fears about additional gaming--that's why the 
legislation takes gaming off the table. And if there are other 
reasonable requests, we remain open to finally opening a true 
government-to-government dialog with the County of Santa Barbara.
    As witnessed by our lengthy but successful efforts to bring the 6.9 
acre parcel into trust via the administrative process, we will 
eventually prevail on this issue. The only two variables are timing and 
restrictions on land use. Your efforts and support of this legislation 
can ensure that the land is put in use in a timely manner with 
reasonable restrictions; or conversely, the land will eventually be 
brought into trust administratively with no restrictions on its use or 
additional financial compensation to the County.
    Thank you for the opportunity to testify today. I welcome any 
questions.

                                 ______
                                 

    Mr. Young. Thank you, Vincent.
    Mona Miyasato?
    Ms. Miyasato. Yes.
    Mr. Young. Mona, you are up.

STATEMENT OF MONA MIYASATO, EXECUTIVE OFFICER, COUNTY OF SANTA 
  BARBARA, ON BEHALF OF THE COUNTY OF SANTA BARBARA BOARD OF 
             SUPERVISORS, SANTA BARBARA, CALIFORNIA

    Ms. Miyasato. Thank you, Subcommittee Chairman Young, 
Ranking Member Ruiz, and members of the subcommittee, for this 
opportunity to testify today. My name is Mona Miyasato, and I 
am the County Executive Officer for the County of Santa 
Barbara, California. This testimony is submitted on behalf of 
the County of Santa Barbara, and reflects the policy position 
of the Board of Supervisors.
    The County has adopted a legislative policy that recognizes 
the role and unique interests of tribes, states, and counties 
to protect all members of our community, and to provide 
services and infrastructure benefits to all.
    H.R. 1157 would take into trust 1,427 acres in the Santa 
Ynez Valley, as you have been told. But Camp 4 is over 10 times 
larger than the existing 138-acre Chumash Reservation, and this 
would have substantial negative impacts on our community.
    The County of Santa Barbara respectfully opposes H.R. 1157 
for the following reasons: the County has a pending appeal of 
the decision by the BIA to accept Camp 4 into trust. The 
purpose of the administrative appeal process is to address 
concerns of local entities and residents. These concerns 
include loss of tax revenue, lack of compliance with NEPA, 
insufficient environmental mitigations and conflicts with local 
land use regulations. H.R. 1157 would essentially shortcut this 
administrative process, and prevent the County and its 
residents from addressing these concerns. And finally, H.R. 
1157 does not rule out any use of the property other than 
gaming, while the BIA's administrative process proposes 
residential use and has been more focused.
    Therefore, the County of Santa Barbara requests that, 
instead of enacting H.R. 1157, Congress allow the regular 
administrative process on the appeal to proceed.
    I would like to spend a few minutes now to detail some of 
the areas of concern we have.
    The County of Santa Barbara submitted a timely appeal of 
the Christmas Eve, December 24, 2014 BIA decision to accept 
Camp 4 into trust. In the appeal, the County thoroughly 
discusses the process shortcomings, including the need for 
appropriate weighing of factors detailed in the Code of Federal 
Regulations, as well as a lack of adequate environmental 
review, including the need for an environmental impact 
statement, rather than the environmental assessment, and 
appropriate mitigation. This bill would bypass that appeal 
review.
    Also, the County questions the need for and purpose to take 
the land into trust, as the present BIA regulations provide 
inadequate guidance as to what constitutes legitimate tribal 
need for a trust land acquisition. Given the stated need for 
only a fraction of the acreage requested to be taken into trust 
for housing, the County questions why the 1,400 acres needs to 
be taken into trust at this time.
    In addition, the County projected that it would lose up to 
$311 million in tax revenue over a 50-year period if the land 
is taken into trust and developed. The County provides major 
public services to the Camp 4 area, including law enforcement, 
fire protection, emergency medical response, roadway access and 
maintenance. And there will be no property tax compensation or 
funding offset required by the County for these services if 
Camp 4 is taken into trust into perpetuity.
    Also, this permanently exempts it from community land use 
processes. The project alternatives, including a proposal for 
143 residences and over 12,000 square feet of tribal facility 
with parking for 250 cars and possibly up to 800 visitors a 
week to the valley, is inconsistent with the surrounding uses. 
The development contravenes rural area policy countywide and is 
incompatible with the County's General Plan, Santa Ynez 
Community Plan, and our land use regulations.
    Further, the property has been preserved for agricultural 
use by an Ag. preserve contract, a Williamson Act Contract, 
since 1971. In August of 2013, the Tribe submitted an 
application for non-renewal, meaning that it will expire in 
December 2022.
    Another primary area of concern relates to environmental 
impacts, such as groundwater resources. Santa Barbara County 
and the rest of California are in severe drought conditions. 
The environmental assessment acknowledged the past designation 
of an overdraft in the groundwater basin in which Camp 4 
resides, but did not analyze the potential for Camp 4 to 
exacerbate that overdraft. The environmental document did not 
analyze the long-term water supply.
    Finally, the County supports the BIA's administrative 
process, although we believe there should be an effort to 
reform that process. We strongly support the efforts of the 
California State Association of Counties to achieve 
comprehensive fee-to-trust reform and improve the role of local 
government in this process.
    In conclusion, I respectfully urge Members to reject H.R. 
1157. As stated, this would bypass the administrative appeal 
process, whose purpose is to address concerns of our local 
residents and entities, and those concerns include loss of tax 
revenue, lack of compliance with NEPA, insufficient 
environmental mitigation and conflicts with our local land use 
regulations in perpetuity.
    Furthermore, I respectfully request that reforms to the 
existing process be considered in the future to improve local 
government involvement, which can reduce significant impacts on 
communities and reduce controversy, delay, and existing 
distrust in the process.
    Thank you very much for considering my testimony this 
morning, and allowing me to appear before you today. Thank you.
    [The prepared statement of Ms. Miyasato follows:]
  Prepared Statement of Mona Miyasato, Santa Barbara County Executive 
 Officer on Behalf of the County of Santa Barbara Board of Supervisors 
                              on H.R. 1157
    Thank you Subcommittee Chairman Young, Ranking Member Ruiz, and 
members of the subcommittee for the opportunity to testify today. My 
name is Mona Miyasato and I am the County Executive Officer for the 
County of Santa Barbara. This testimony is submitted on behalf of 
County of Santa Barbara and reflects the adopted policy position of the 
County Board of Supervisors.
    The County of Santa Barbara has adopted a legislative policy which 
recognizes the role and unique interests of tribes, states, counties 
and other local government to protect all members of their communities 
and to provide governmental services and infrastructure benefits to 
all. In addition, the County recognizes and respects the tribal right 
of self-governance, to provide for tribal members and to preserve 
traditional tribal culture and heritage. In similar fashion, the County 
recognizes and promotes its own self-governance to provide for the 
health, safety and general welfare of all residents of our communities.
    H.R. 1157 would take into trust five parcels of land totaling 
approximately 1,427.78 acres in the Santa Ynez Valley (commonly known 
as ``Camp 4'') for the benefit of the Santa Ynez Band of Chumash 
Indians. Camp 4 is over 10 times larger than the existing 138-acre 
Chumash Reservation. This would have substantial, negative impacts on 
our community.

    The County of Santa Barbara respectfully opposes H.R. 1157 for the 
following reasons:

    <bullet> The County has a pending appeal of the decision by the 
            Bureau of Indian Affairs to accept Camp 4 into trust and 
            the BIA's related decisions under the National 
            Environmental Policy Act (NEPA);

    <bullet> The purpose of the Code of Federal Regulations (CFR) 
            administrative appeal process is to address concerns of 
            local entities and residents, including loss of tax 
            revenue, lack of compliance with NEPA, insufficient 
            environmental mitigation and conflicts with local land use 
            regulations;

    <bullet> H.R. 1157 would short-circuit this administrative process 
            and prevent the County and its residents from addressing 
            these concerns; and

    <bullet> H.R. 1157 does not rule out any use of the property other 
            than gaming, while the BIA's administrative process 
            proposes residential use and is more focused.

    The County of Santa Barbara therefore requests that instead of 
enacting H.R. 1157, Congress allow its regular administrative appeal 
process to proceed.
                             pending appeal
    On December 24, 2014, the BIA issued a Notice of Decision to accept 
Camp 4 into trust. The County of Santa Barbara submitted its appeal on 
January 21, 2015. In that appeal, the County discusses the shortcomings 
of the BIA's review, which must include appropriate weighing of eight 
required factors detailed in the CFR and adequate environmental review 
and mitigation. Those eight factors are attached to this testimony. 
This bill would bypass that appeal review.

    A few areas of significant concern with the fee-to-trust decision 
include the following:

    <bullet> Need for the Land and Purposes of Use: The present BIA 
            regulations provide inadequate guidance as to what 
            constitutes legitimate tribal need for a trust land 
            acquisition. Two alternatives have been identified in the 
            fee-to-trust application, providing housing for tribal 
            members, the stated purpose of the Fee-to-Trust 
            application. One alternative requires 793 acres for 
            residential homes and infrastructure; the other requires 
            194 acres for homes and infrastructure. Given the stated 
            need for only a fraction of the acreage requested to be 
            taken into trust for housing, the County has questioned why 
            the 1,400 acres need to be taken into trust.

      Also, in the second alternative, 30 acres would be dedicated for 
            Tribal Facilities including a Community Center with Banquet 
            Hall/Exhibition Facility, resulting in potentially 400 
            visitors per event, with two events per week, or up to 800 
            visitors to the Valley each week. The analysis by the BIA 
            did not discuss the facility structure or the purposes for 
            which it will be used and therefore, could not fully assess 
            the land use conflicts.

      Impact on County Tax Rolls: The County projected in FY 2012/13 
            that it would lose up to $311 million in tax revenue over a 
            50-year period if the land is taken into trust and 
            developed. In addition, the County would lose mitigation 
            fees required to be paid by developers for provision of 
            transportation improvements, parks, fire protection and 
            other public services. The BIA decision regarded the tax 
            loss as insignificant given the financial contributions by 
            the Tribe to the community. However, the County provides 
            major public services to the Camp 4 area, including law 
            enforcement, fire protection, emergency medical response 
            and roadway access and maintenance. The proposed 
            development will increase the number of residents and 
            employees in the area that use county parks, schools, roads 
            and public services. The need for county services would 
            expand yet the County would not be able to collect property 
            taxes or other special assessments that would pay for those 
            additional services.

      Jurisdictional and Land Use Conflicts: The development of 143 
            residences and over 12,000 square feet of tribal facility 
            with parking for 250 cars would constitute a change in the 
            current land use that is inconsistent with the surrounding 
            uses. Essentially, it would be an urban development in the 
            middle of a rural area. Given that the zoning is currently 
            AG-II100 (agriculture with a minimum parcel size of 100 
            acres), housing development at 1 residence per acre, or 1 
            residence per 5 acres, would result in potentially 
            increasing density 20 to 100 times what is currently 
            allowed. The development contravenes rural area policy 
            countywide and is incompatible with the County's General 
            Plan, Santa Ynez Community Plan and land use regulations. 
            Further, the property has been preserved for agricultural 
            use by a Williamson Act Contract since at least 1971. In 
            August of 2013 the Tribe submitted an application for non-
            renewal meaning the contract will expire on December 31, 
            2022. On July 1, 2013 the Tribe passed Resolution 931 which 
            requires compliance with the existing Williamson Act 
            Contact until the contract expires.

      The BIA noted that the Chumash Tribe has consistently been 
            cooperative with local government and service providers to 
            mitigate adverse effects and cited agreements with County 
            Fire and Sheriff's Office. Those agreements, however, 
            relate to services on the existing reservation and the 
            ongoing impacts to that development, not Camp 4. The County 
            is grateful to the Chumash Tribe for their willingness to 
            work collaboratively to achieve these service agreements. 
            In the Fire Department agreement, however, the Tribe's 
            agreement to provide an aerial ladder truck for its planned 
            12-story tower Casino expansion only came after the County 
            requested it as mitigation to the project; it was not 
            included as part of the Tribe's environmental evaluation or 
            mitigation. In this case, the identification of mitigation 
            by the county fire personnel resulted in a better outcome 
            for the Tribe and community members. Other issues raised by 
            the County regarding the casino expansion, however, were 
            not addressed by the Tribe.

    <bullet> Compliance with NEPA and Environmental Mitigation: The 
            fee-to-trust acquisition raises substantial questions about 
            the environmental impacts of the action as to its context 
            and intensity. The County identified a need for the 
            environmental document to be elevated from the current 
            level proposed by the BIA of an Environmental Assessment 
            (EA) to an Environmental Impact Statement (EIS).

      The loss of agricultural land is of great significance to the 
            state, region and locality as agriculture provides economic 
            and environmental benefits to the public. The development 
            will bring more residents, employees and visitors to a 
            largely agricultural area and change the land use. This 
            change implicates unique geographic considerations such as 
            conversion of prime agricultural farmland, threatens land 
            use and regulatory requirements imposed for the protection 
            of the environment and the community, impacts public health 
            and safety concerns, such as the demand for services, 
            groundwater and wastewater resources, air quality, and 
            traffic control, impacts threatened or endangered species 
            habitat and other unique habitat involving oak trees, and 
            creates controversy as shown by the debate among many 
            knowledgeable, interested parties as to the environmental 
            effects of the project.

      A particular area of concern relates to Groundwater Resources. 
            Santa Barbara County and the state of California are in 
            severe drought conditions. The Environmental Assessment 
            acknowledged the past designation of an overdraft in the 
            Santa Ynez Uplands Groundwater Basin but did not analyze 
            the potential for Camp 4 to exacerbate that overdraft. The 
            EA did not analyze long-term water supply.

      In addition, mitigation measures proposed to date do not 
            sufficiently minimize or avoid environmental impacts or 
            adequately protect against significant adverse impacts of 
            the proposed action. The measures suggested in the EA do 
            not provide the detail and discussion required to support a 
            finding of no significant impact.

           bypass of administrative process through h.r. 1157
    H.R. 1157 would short-circuit the administrative appeal process and 
prevent the County and its residents from addressing the concerns just 
described. Another example of this relates to the identical real 
property descriptions in both H.R. 1157 and the BIA's Notice of 
Decision, dated December 24, 2014. These are unclear and do not 
adequately address the property interests of the County or nearby 
residents in roadway rights-of-way. In its pending appeals with the 
Interior Board of Indian Appeals, the County has raised this question 
about County rights of way throughout Camp 4 and whether those rights 
of way are held in fee or easement. The appeal process provides an 
opportunity to resolve these legal questions. If H.R. 1157 is enacted, 
though, neither the County nor any county resident would have the 
opportunity to clarify their property interests in those roads.
         broadness of h.r. 1157 and conflicts with bia process
    H.R. 1157 does not rule out any use of the property other than 
gaming. The legislative approach is broader than the BIA's process. The 
existing process, with its combination of evaluation of factors 
specified in 25 CFR Sections 151.10 and 151.11 and NEPA, provides some 
comfort to the community of the proposal, given what was studied and 
allowed per the BIA process. The legislation only rules out gambling 
but does not specify other uses.
                   reforms to bia process are needed
    While the County supports the BIA's administrative process, we also 
strongly support the efforts of the California State Association of 
Counties, and their extensive work on behalf of all California 
counties, to achieve comprehensive fee-to-trust reform and improve the 
role of local government in the fee-to-trust process. Therefore, it is 
respectfully requested that the following reforms of the existing 
process be considered.

    <bullet> Often local governments are afforded limited, and 
            sometimes late, notice of a pending trust land application. 
            In our case, the Notice of Decision was issued on Christmas 
            Eve, December 24, 2014. Our staff resorted to checking the 
            BIA's Web site daily to ensure notice given the 30-day 
            appeal period. The notice first came to our attention as a 
            courtesy from Chumash Tribe members, followed by mailed 
            notices in subsequent days from the BIA. Improved notice is 
            needed to ensure adequate time for meaningful input, as 
            well as reasonably detailed information early on to 
            affected local governments, as well as the public, about 
            the proposed uses. Broad notice of trust applications 
            should allow at least 90 days to respond, compared to the 
            current 30-day requirement.

    <bullet> There is a lack of standards of any objective criteria in 
            fee-to-trust decisions, which has been criticized by local 
            governments. For example, the BIA requests only minimal 
            information about the impacts of such acquisitions on local 
            communities and trust land decisions are not governed by a 
            requirement to balance the benefit to the Tribe against the 
            impact to the local community. As a result, there are 
            significant impacts on communities with consequent 
            controversy, delay and distrust of the process.

    <bullet> Regulations should provide adequate guidance as to what 
            constitutes legitimate tribal need for trust acquisitions. 
            There is now the stipulation that the land is necessary to 
            facilitate tribal self-determination, economic development 
            or Indian housing. These standards can be met by virtually 
            any trust land request.

    <bullet> Under Part 151, the BIA does not mention input by third 
            parties even though individuals or communities as a whole 
            may experience negative impacts, although it will accept 
            and review such comments. BIA accepts comments only from 
            the affected state and local government with legal 
            jurisdiction over the land and, from those parties, only on 
            the narrow question of tax revenue loss, government 
            services currently provided to the subject parcels and 
            zoning conflicts. The reviews, therefore, do not provide 
            real consultation or an adequate representation of the 
            consequences of the decision.

                               conclusion
    In conclusion, I respectfully urge Members to reject H.R. 1157. As 
stated, this would bypass the administrative appeal process, whose 
purpose is to address concerns of local entities and residents, 
including loss of tax revenue, lack of compliance with NEPA, 
insufficient environmental mitigation and conflicts with local land use 
regulations. Also, H.R. 1157 does not rule out any use of the property 
other than gaming, while the BIA's administrative process is less 
broad, focusing on the uses of the site, namely residential housing. 
Furthermore, I respectfully request that reforms to the existing 
process be considered in the future to improve local government 
involvement, which can reduce significant impacts on communities and 
reduce controversy, delay and distrust of the process.

    Thank you for considering my testimony. Should you have questions 
regarding my testimony, the policy position of the Santa Barbara County 
Board of Supervisors, or if I can be of further assistance, please feel 
free to contact me.

Attachments: 25 CFR Sections 151.10, 151.11 and Maps

                              ATTACHMENTS

                           TITLE 25--INDIANS
    CHAPTER I--BUREAU OF INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR
                      SUBCHAPTER H--LAND AND WATER
                      PART 151--LAND ACQUISITIONS

Sec. 151.10 On-reservation acquisitions.

Upon receipt of a written request to have lands taken in trust, the 
Secretary will notify the state and local governments having regulatory 
jurisdiction over the land to be acquired, unless the acquisition is 
mandated by legislation. The notice will inform the state or local 
government that each will be given 30 days in which to provide written 
comments as to the acquisition's potential impacts on regulatory 
jurisdiction, real property taxes and special assessments. If the state 
or local government responds within a 30-day period, a copy of the 
comments will be provided to the applicant, who will be given a 
reasonable time in which to reply and/or request that the Secretary 
issue a decision. The Secretary will consider the following criteria in 
evaluating requests for the acquisition of land in trust status when 
the land is located within or contiguous to an Indian reservation, and 
the acquisition is not mandated:

(a) The existence of statutory authority for the acquisition and any 
limitations contained in such authority;

(b) The need of the individual Indian or the tribe for additional land;

(c) The purposes for which the land will be used;

(d) If the land is to be acquired for an individual Indian, the amount 
of trust or restricted land already owned by or for that individual and 
the degree to which he needs assistance in handling his affairs;

(e) If the land to be acquired is in unrestricted fee status, the 
impact on the State and its political subdivisions resulting from the 
removal of the land from the tax rolls;

(f) Jurisdictional problems and potential conflicts of land use which 
may arise; and

(g) If the land to be acquired is in fee status, whether the Bureau of 
Indian Affairs is equipped to discharge the additional responsibilities 
resulting from the acquisition of the land in trust status.

(h) The extent to which the applicant has provided information that 
allows the Secretary to comply with 516 DM 6, Appendix 4, National 
Environmental Policy Act Revised Implementing Procedures, and 602 DM 2, 
Land Acquisitions: Hazardous Substances Determinations. (For copies, 
write to the Department of the Interior, Bureau of Indian Affairs, 
Branch of Environmental Services, 1849 C Street NW, Room 4525 MIB, 
Washington, DC 20240.)

Sec. 151.11 Off-reservation acquisitions.

The Secretary shall consider the following requirements in evaluating 
tribal requests for the acquisition of lands in trust status, when the 
land is located outside of and noncontiguous to the tribe's 
reservation, and the acquisition is not mandated:

(a) The criteria listed in Section 151.10 (a) through (c) and (e) 
through (h);

(b) The location of the land relative to state boundaries, and its 
distance from the boundaries of the tribe's reservation, shall be 
considered as follows: as the distance between the tribe's reservation 
and the land to be acquired increases, the Secretary shall give greater 
scrutiny to the tribe's justification of anticipated benefits from the 
acquisition. The Secretary shall give greater weight to the concerns 
raised pursuant to paragraph (d) of this section.

(c) Where land is being acquired for business purposes, the tribe shall 
provide a plan which specifies the anticipated economic benefits 
associated with the proposed use.

(d) Contact with state and local governments pursuant to 151.10 (e) and 
(f) shall be completed as follows: upon receipt of a tribe's written 
request to have lands taken in trust, the Secretary shall notify the 
state and local governments having regulatory jurisdiction over the 
land to be acquired. The notice shall inform the state and local 
government that each will be given 30 days in which to provide written 
comment as to the acquisition's potential impacts on regulatory 
jurisdiction, real property taxes and special assessments.

                                  MAPS
                                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  



Mr. Young. Thank you.
    Steve Lavagnino. Is that good enough?
    Mr. Lavagnino. Very good, Chairman Young.
    Mr. Young. All right, thank you.
    Mr. Lavagnino. Appreciate it.

STATEMENT OF STEVE LAVAGNINO, FIFTH DISTRICT COUNTY SUPERVISOR, 
                SANTA BARBARA COUNTY, CALIFORNIA

    Mr. Lavagnino. Chairman Young, Mr. Ranking Member, I am 
Steve Lavagnino, Fifth District Supervisor for Santa Barbara 
County. Members of the committee, good morning. Thank you for 
the opportunity to speak before you today regarding H.R. 1157, 
the vehicle that would move 1,400 acres known as Camp 4 into 
Federal trust for the Santa Ynez Band of Chumash Indians.
    In my opinion, I should not be needed here today and this 
piece of legislation should have never been necessary. I 
believe the Santa Barbara County Board of Supervisors has 
failed to perform its responsibilities as the local 
jurisdiction, and I am grateful you have allowed me the 
opportunity to provide another perspective.
    More than 4 years ago, Tribal Chairman Vincent Armenta 
requested that the County of Santa Barbara enter into 
government-to-government dialog to discuss the Tribe's plans 
for Camp 4, as well as mitigation strategies for those impacts 
deemed significant enough to warrant mitigation. On August 20, 
2013, our Board held a hearing during which Chairman Armenta 
once again reiterated his desires to begin negotiations, and in 
order to show his good faith, he made an initial $10 million 
offer over 10 years for payments in lieu of property taxes, as 
well as an offer to waive the Tribe's sovereign immunity, which 
would allow the County to legally enforce the agreement.
    Instead of responding to the offer, our Board decided that 
the Tribe was not equal to other governments we commonly 
negotiate with, including our local cities, Vandenberg Air 
Force Base, and the University of California Santa Barbara. On 
a 3-2 vote, the decision was made to reject the request for 
dialog.
    Some would consider Santa Barbara County a progressive 
region. It is a leader when it comes to protecting most human 
rights, but for some reason those same protections are not 
always afforded to the Tribe. During our public hearings, 
seemingly educated people still regularly questioned the 
heritage of the tribal members and the validity of the Tribe's 
sovereign status. While you may expect such comments sometimes 
from the public, most alarming are shocking statements from 
current and former elected officials.
    The County Supervisor who formerly represented the area in 
which both Camp 4 and the Tribe's current reservation lie said, 
``These are not real sophisticated people.'' She went on to 
question their work ethic by stating that they ``get $300,000 a 
year for sitting on the couch watching a Lakers game.'' One of 
our current board members, whose district is home to more than 
800 people employed by the Tribe recently questioned whether or 
not the reservation system as a whole should be abolished. This 
is the environment in which the Tribe is asked to live and 
work.
    I share my colleagues' concerns regarding loss of property 
tax revenue and loss of local land use control. However, they 
have refused to even discuss these matters with the Tribe. I 
warned my colleagues that if we failed to acknowledge the Tribe 
as a federally-recognized government entity, it would lead to 
congressional action such as H.R. 1157. That warning fell on 
deaf ears. But it wasn't just my advice--Governor Jerry Brown's 
expert on tribal relations indicated the best strategy for 
counties in dealing with fee-to-trust applications is to 
``negotiate early in the process.''
    Opponents will speak about density, even though the Tribe's 
plan calls for less density than the neighboring development. 
They will speak about a lack of water, even though the Tribe 
has proposed a water-neutral development, and they will claim 
that CEQA will be ignored, even though any development will 
fall under the regulations provided in NEPA. Although they will 
claim to be concerned about all of these potential impacts, one 
has to question what their true motivation is. Just last year, 
6.9 acres of land directly adjacent to the existing reservation 
and slated for construction of a cultural center and park was 
finally taken into trust after more than 14 years of appeals by 
these same opponents.
    Finally, the Tribe currently resides in substandard housing 
that lies directly in a flood plain. In case of a fire or 
emergency, the ingress and egress for those living on the 
reservation is extremely limited. The Tribe purchased Camp 4 
specifically to remedy the housing situation, and is willing to 
negotiate with the County to resolve the concerns that have 
been raised. Without negotiations, the County is destined to 
incur all of the impacts without any share of the revenue.
    Unlike some in Santa Barbara County, I understand that the 
process of taking land into trust is wholly a Federal decision, 
whether it is through Congress or the Bureau of Indian Affairs. 
Given that fact, my goal is to work together with the Tribe to 
mitigate potential impacts through negotiation. Unfortunately, 
I believe the Tribe has thoroughly exhausted all avenues in 
search of reaching an agreement with their local government; 
and thus, I understand why congressional action is being taken. 
Thank you.
    [The prepared statement of Mr. Lavagnino follows:]
Prepared Statement of Steve Lavagnino, Fifth District Supervisor, Santa 
                      Barbara County on H.R. 1157
    Chairman Young and members of the committee: Good morning and thank 
you for the opportunity to speak before you today regarding H.R. 1157, 
the vehicle that would move 1,400 acres (Camp 4) into Federal trust for 
the Santa Ynez Band of Chumash Indians (Tribe). In my opinion, I should 
not be needed here today and this piece of legislation should have 
never been necessary. But I believe the Santa Barbara County Board of 
Supervisors has failed to perform its responsibilities as the local 
jurisdiction and I am grateful that you have allowed me the opportunity 
to provide another perspective.
    More than 4 years ago, Tribal Chairman Vincent Armenta requested 
that the County of Santa Barbara enter into government-to-government 
dialog to discuss the Tribe's plans for Camp 4 as well as mitigation 
strategies for those impacts deemed significant enough to warrant 
mitigation. On August 20, 2013 our Board held a hearing during which 
Chairman Armenta once again reiterated his desires to begin 
negotiations and in order to show his good faith, he made an initial 
$10 million offer for payments in lieu of property taxes as well as an 
offer to a waive the Tribe's sovereign immunity, which would allow the 
County to legally enforce the agreement. Instead of responding to the 
offer, our Board decided that the Tribe was not equal to other 
governments we commonly negotiate with, including our local cities, 
Vandenberg Air Force Base and the University of California at Santa 
Barbara. On a 3-2 vote, the decision was made to reject the request for 
dialog.
    Some would consider Santa Barbara County a progressive region and 
it is a leader when it comes to protecting most human rights, but for 
some reason those same protections are not afforded to the Tribe. 
During our public hearings, seemingly educated people still regularly 
question the heritage of the tribal members and the validity of the 
Tribe's sovereign status. While you may expect such comments from the 
public, most alarming are shocking statements from current and former 
elected officials. The County Supervisor who formerly represented the 
area in which both Camp 4 and the Tribe's current reservation lie, 
said, ``These are not real sophisticated people.'' She went on to 
question their work ethic by stating that they ``get $300,000 a year 
for sitting on the couch watching a Lakers game.'' One of our current 
Board members, whose district is home to more than 800 people employed 
by the Tribe, recently questioned whether or not the reservation system 
as a whole should be abolished. This is the environment in which the 
Tribe is asked to live and work.
    I share my colleagues' concerns regarding loss of property tax 
revenue and loss of local land use control; however they have refused 
to even discuss these matters with the Tribe. I warned my colleagues 
that if we failed to acknowledge the Tribe as a federally-recognized 
government entity it would lead to congressional action such as H.R. 
1157. That warning fell on deaf ears. But it wasn't just my advice--
Governor Jerry Brown's expert on tribal relations indicated the best 
strategy in dealing with fee-to-trust applications is to ``negotiate 
early in the process.''
    Opponents will speak about density even though the Tribe's plans 
call for less density than the neighboring development, they will speak 
about a lack of water even though the Tribe has proposed a water 
neutral development and they will claim that CEQA will be ignored even 
though any development will fall under the regulations provided in 
NEPA. Although they will claim to be concerned about all of these 
potential impacts, one has to question what their true motivation is. 
Just last year, 6.9 acres of land directly adjacent to the existing 
reservation and slated for construction of a cultural center and park 
was finally taken into trust after more than 14 years of appeals by 
these same opponents.
    Finally, the Tribe currently resides in substandard housing that 
lies directly in a flood plain. In case of a fire emergency, the 
ingress and egress for those living on the reservation is extremely 
limited. The Tribe has purchased Camp 4 specifically to remedy the 
housing situation and is willing to negotiate with the County to 
resolve the concerns that have been raised. Without negotiations, the 
County is destined to incur all of the impacts without any share of the 
revenue.
    Unlike some in Santa Barbara County, I understand that the process 
of taking land into trust is wholly a Federal decision, whether it is 
through Congress or the Bureau of Indian Affairs. Given that fact, my 
goal is to work together with the Tribe to mitigate potential impacts 
through negotiation. Unfortunately, I believe the Tribe has thoroughly 
exhausted all avenues in search of reaching an agreement with their 
local government and thus I understand why congressional action is 
being taken.

                                 ______
                                 

    Mr. Young. Thank you, sir. Now we have Mr. Barlow.
    Mr. Barlow, thank you and welcome from where--I believe--
from the free State of Alaska, come down and see me on an issue 
that has been on my burner for a long time, and I wish my 
colleagues will listen to this testimony, and why we think it 
is justifiable, regardless of what the Department says. So, Mr. 
Barlow, you are up.

 STATEMENT OF LEO BARLOW, REPRESENTATIVE FOR THE COMMUNITY OF 
 WRANGELL, ALASKA, ON BEHALF OF THE SOUTHEAST ALASKA LANDLESS 
                  CORPORATION, JUNEAU, ALASKA

    Mr. Barlow. Thank you, Mr. Chairman. Good morning, Chairman 
Young and subcommittee members.
    Mr. Young. Turn the microphone on.
    Mr. Barlow. Good morning, Chairman Young and subcommittee 
members. I have traveled here today from Alaska to provide 
testimony regarding H.R. 2386, a bill to provide for the 
recognition of five communities in Southeast Alaska in the 
Alaska Native Claims Settlement Act, commonly known as ANCSA. 
Thank you for this opportunity to testify on this important 
issue to several thousand Alaska Natives, and a special thank 
you, Congressman Young, for introducing this much-needed 
legislation and for once again taking on our worthy cause.
    My name is Leo Barlow, and I have the great honor and 
responsibility of serving as a representative for the community 
of Wrangell on the Southeast Alaska Landless Corporation (SALC) 
Board of Directors, which represents Alaska Natives through 
ANCSA to the native villages of Haines, Ketchikan, Petersburg, 
Tenakee, and Wrangell. The people I represent today have 
suffered an injustice for more than 40 years, an injustice the 
legislation currently before this subcommittee would address.
    In 1971, Congress enacted ANCSA to recognize and settle the 
aboriginal claims of the Alaska Natives to their traditional 
homelands. ANCSA provided for establishment of native 
corporations to receive and manage funds and lands throughout 
Alaska and Southeast Alaska, where recognized and afforded the 
opportunity to establish village or urban corporations, and 
secure a native land settlement. Our five communities were 
denied these benefits of ANCSA and we have been fighting this 
injustice since the passage of the Act.
    Under ANCSA, as Alaska Natives, we enrolled to 1 of 13 
regional corporations, and also to the villages where we lived 
or to which we had a historic, cultural, or familial tie. For 
example, I enrolled to the region for Southeast Alaska, and 
also to the village of Wrangell, my hometown, where our 
ancestors have lived for many generations.
    A total of 747 Alaska Natives enrolled to the native 
village of Wrangell. Other members of our Landless Corporation 
enrolled to the four villages of Haines, Petersburg, Tenakee, 
and Ketchikan. Those of us who enrolled to these five 
communities during the ANCSA process did so because they are 
our traditional homelands and places of origin. Our families 
and clans originated in these communities and have lived here 
for hundreds, if not thousands, of years.
    In Section 11 of ANCSA, Congress set forth a general 
process for determining eligibility for each native village in 
Alaska. Native villages throughout the state of Alaska were 
listed in this section, and the Secretary of the Interior was 
charged with making determinations as to whether the listed 
villages met the eligibility requirements. For a number of 
reasons, however, there was a different process created for 
determining eligibility of Southeast Alaska Native villages in 
Section 16 of ANCSA. These reasons included previous Tlingit 
and Haida Indian Claims cash settlement, the existence of the 
Tongass National Forest, the existence of large timber 
contracts secured by powerful pulp companies, and the 
significant non-native populations in certain communities.
    Another significant difference between Southeast and non-
Southeast Alaska communities in ANCSA was the fact that Section 
11 of ANCSA provided an appeal right for communities left off 
of the list of eligible villages, while Section 16 of the Act 
did not. Three of our coalition's villages--Ketchikan, Haines, 
and Tenakee--brought protests of this inequitable treatment to 
the Alaska Native Claims Appeal Board of the U.S. Department of 
the Interior through appeals in 1974 and 1977. The appeals were 
rejected because Section 16 made no provision for the 
administrative reconsideration of the eligibility of villages 
in Southeast Alaska. Thus, we must appeal directly to Congress 
for help. You are our only recourse.
    The over-3,500 natives who originally enrolled to the 
affected five villages comprised over 20 percent of the 
shareholders of Sealaska Corporation in 1972--our regional 
corporation. Over the years we have received revenue-sharing 
distributions from Sealaska pursuant to Section 7(j) of ANCSA, 
but have not enjoyed the social, economic, and cultural 
benefits of owning shares in a village, urban, or group 
corporation. Many of the village or urban corporations in our 
region have brought significant economic benefits to their 
communities. Additionally, we have been deprived of the 
significant cultural benefit of owning an interest in lands 
located within and around our traditional homelands.
    The history I am telling today is not based only on the 
opinions and conclusions made by landless natives. In 1993, 
Congress directed the Secretary of the Interior to prepare a 
report examining the reasons why the unrecognized communities 
had been denied eligibility to form native corporations under 
the Act.
    This report--``A Study of Five Southeast Alaska 
Communities,'' referred to as the ISER report--was done by the 
University of Alaska and concluded that requirements for 
villages eligible to form native corporations were met by the 
native villages of Haines, Ketchikan, Petersburg, Tenakee, and 
Wrangell. The report noted that our communities appeared on 
early versions of native village lists in the ANCSA Act, and 
the subsequent omission was never clearly explained in any 
provision of ANCSA or in the accompanying conference report. 
The ISER Report is attached hereto, and I ask that the 
subcommittee incorporate this report into the record for this 
hearing.
    Mr. Young. Mr. Barlow, how much time do you have left?
    Mr. Barlow. I will conclude fairly rapidly here, sir.
    Mr. Young. OK.
    [No response.]
    Mr. Young. Are you finished?
    Mr. Barlow. Yes, almost.
    Mr. Young. OK.
    [Laughter.]
    Mr. Barlow. The legislation before this subcommittee today 
proposes simply to correct a 40-year wrong, and grant rights 
that we, the native communities of Haines, Ketchikan, 
Petersburg, Tenakee, and Wrangell should have been given in 
1971. Unlike other native villages that were recognized under 
ANCSA, our communities have not been able to use the tools 
provided by the Act to create an economic engine by utilizing 
the resources in our lands, and to promote the well-being of 
our community members. Sadly, many of our elders have passed 
who fought for this legislation. We have seen a generational 
change, and we have much interest now by our younger 
shareholders who will carry on this battle.
    In closing, Mr. Chairman and members of the subcommittee, 
on behalf of the Southeast Alaska communities affected, I want 
to once again personally express our extreme gratitude for your 
consideration of this important legislation.
    With that, we conclude our report and thank you. In our 
language, [Speaks native language.]
    [The prepared statement of Mr. Barlow follows:]
  Prepared Statement of Leo Barlow, Representative for the Southeast 
                Alaska Landless Corporation on H.R. 2386
    Good Morning, Chairman Young and subcommittee members. I have 
traveled here today from Alaska to provide testimony regarding H.R. 
2386, a bill to provide for the recognition of five communities in 
Southeast Alaska in the Alaska Native Claims Settlement Act (ANCSA). 
Thank you for this opportunity to testify on this important issue to 
several thousand Alaska Natives; and a special thank you to Congressman 
Young for introducing this much needed legislation, and for once again 
taking on our worthy cause.
    My name is Leo Barlow, and I have the great honor and 
responsibility of serving as a representative for the community of 
Wrangell on the Southeast Alaska Landless Corporation (SALC), which 
represents Alaska Natives enrolled through ANCSA to the native villages 
of Haines, Ketchikan, Petersburg, Tenakee and Wrangell. The people I 
represent today have suffered an injustice for more than 40 years; an 
injustice the legislation currently before this subcommittee would 
address.
    In 1971, Congress enacted ANCSA to recognize and settle the 
aboriginal claims of Alaska Natives to their traditional homelands. 
ANCSA provided for establishment of native corporations to receive and 
manage funds and lands awarded in settlement of the claims of all 
Alaska Natives. While many villages throughout Alaska and Southeast 
Alaska were recognized and afforded the opportunity to establish 
Village or Urban Corporations and secure a native land settlement, our 
five communities were denied these benefits of ANCSA. We have been 
fighting this injustice since ANCSA's passage.
    Under ANCSA, as Alaska Natives we enrolled to one of 13 Regional 
Corporations and also to the villages where we lived or to which we had 
a historic, cultural and familial tie. For example, I enrolled to the 
region for Southeast Alaska, and also to the village of Wrangell, my 
hometown, where my ancestors have lived for many generations. A total 
of 747 Alaska Natives enrolled to the native village of Wrangell. Other 
members of our Landless Corporation enrolled to the four villages of 
Haines, Petersburg, Tenakee and Ketchikan. Those of us who enrolled to 
these five communities during the ANCSA process did so because these 
are our traditional homelands and places of origin. Our families and 
clans originated in these communities.
    In Section 11 of ANCSA, Congress set forth a general process for 
determining eligibility for each ``native village'' in Alaska. Native 
villages throughout the state of Alaska were listed in this section, 
and the Secretary of the Interior was charged with making 
determinations as to whether the listed villages met the eligibility 
requirements. For a number of reasons, however, there was a different 
process created for determining eligibility of Southeast Alaska Native 
villages in Section 16 of ANCSA. These reasons included the previous 
Tlingit and Haida Indian Claims cash settlement, the existence of the 
Tongass National Forest, the existence of large timber contracts 
secured by powerful pulp companies, and the significant non-native 
populations of certain communities.
    Another significant difference between Southeast and non-Southeast 
Alaska communities in ANCSA was the fact that Section 11 of ANCSA 
provided an appeal right for communities left off of the list of 
eligible villages, while Section 16 of ANCSA did not. Three of our 
Coalition's villages (Ketchikan, Haines and Tenakee) brought protests 
of this inequitable treatment to the Alaska Native Claims Appeal Board 
of the U.S. Department of the Interior through appeals in 1974 and 
1977. The Appeals were rejected because Section 16 made no provision 
for administrative reconsideration of the eligibility of villages in 
Southeast Alaska. Thus, we must appeal directly to Congress for help. 
You are our only recourse.
    Southeast Alaska was the first area of Alaska with significant 
settlement by non-natives because of the inviting climate and abundant 
resources in our homelands. Although we welcome non-natives who have 
chosen to live in Southeast Alaska, their presence does not make our 
homes any less ``native'' than other villages in Southeast Alaska. 
Nonetheless, this was a significant factor in the exclusion of our five 
communities from the list of eligible Southeast Native villages in 
ANCSA. This occurred despite the clear evidence that each of these 
Communities has historic, cultural, and traditional Alaska Native 
characteristics.
    The 3,425 natives who originally enrolled to Haines, Ketchikan, 
Petersburg, Tenakee, and Wrangell comprised over 20 percent of the 
shareholders of Sealaska Corporation in 1972--our Regional Corporation 
for Southeast Alaska. Over the years we have received revenue-sharing 
distributions from Sealaska pursuant to Section 7(j) of ANCSA, but have 
not enjoyed the social, economic and cultural benefits of owning shares 
in a Village, Urban, or Group Corporation. Many of the Village or Urban 
Corporations in our Region have brought significant economic benefits 
to their communities. Additionally, we have been deprived of the 
significant cultural benefit of owning an interest in lands located 
within and around our traditional homelands.
    The history I am telling today is not based only on the opinions 
and conclusions made by Landless Natives. In 1993, Congress directed 
the Secretary of the Interior to prepare a report examining the reasons 
why the Unrecognized Communities had been denied eligibility to form 
native corporations under the Act. This report--A Study of Five 
Southeast Alaska Communities (the ISER Report) \1\ concluded that 
requirements for villages eligible to form native corporations were met 
by the native villages of Haines, Ketchikan, Petersburg, Tenakee and 
Wrangell. The Report noted that, with the exception of Tenakee, our 
communities appeared on early versions of native village lists, and the 
subsequent omission was never clearly explained in any provision of 
ANCSA or in the accompanying conference report. The ISER Report is 
attached hereto, and I ask that the subcommittee incorporate this 
report into the record for this hearing.
---------------------------------------------------------------------------
    \1\ Lee Gorsuch, Steve Colt, Charles W. Smythe, and Bart K. Garber, 
Institute of Social and Economic Research, University of Alaska 
Anchorage, ``A Study of Five Southeast Alaska Communities,'' prepared 
for the U.S. Forest Service, Bureau of Land Management and Bureau of 
Indian Affairs (Feb. 1994) available at http://www.iser.uaa.alaska.edu/
Publications/StudyOf5-SE-AK-Communities.pdf.
---------------------------------------------------------------------------
    The ISER Report also indicated that the populations and percentage 
of natives in each of our communities, as well as the historic use and 
occupation of the lands, were comparable to those Southeast Alaska 
communities recognized under ANCSA's original language. Prior to 
passage of ANCSA, each of the Unrecognized Communities had been 
involved in advocating for the settlement of the aboriginal claims of 
that community.
    In short, the ISER report found no meaningful distinction between 
the native communities of Haines, Ketchikan, Petersburg, Tenakee and 
Wrangell and other communities listed in Sections 14 or 16 of ANCSA, 
and thus no justification for omission from the list of communities 
eligible to form Urban or Group Corporations under ANCSA.
    Based on the history set forth above, it is clear that those of us 
who enrolled to the five Unrecognized Communities--and our heirs--have 
been unjustly denied the financial and cultural benefits of enrollment 
in a Village, Urban or Group Corporation. The legislation before this 
subcommittee today proposes simply to correct a 44-year wrong, and 
grant rights that we, the native communities of Haines, Ketchikan, 
Petersburg, Tenakee and Wrangell, should have been given in 1971.
    In summary, we are Southeast Alaska Natives. These villages 
identified in H.R. 2386 are our traditional homelands. All we are 
asking is that Congress recognize that fact and provide us with what we 
deserve under law and equity: a chance to form ANCSA Corporations for 
our people and for future generation with ties to our traditional 
communities. Sadly, many of the original shareholders enrolled to these 
five communities have passed on and will never see this injustice 
resolved. I hope that you will help those of us original landless 
shareholders and our descendants finally secure recognition under 
ANCSA. It is long overdue.
    In closing, Mr. Chairman and members of the subcommittee, on behalf 
of the Southeast Alaska villages of Haines, Ketchikan, Petersburg, 
Tenakee and Wrangell, I want to once again express our extreme 
gratitude for your consideration of this important legislation and we 
urge you to support our efforts to be included in the benefits that 
ANCSA has brought to other Alaska Natives. I hope that this 
subcommittee and the House will act quickly to ensure that we finally 
receive the recognition we have deserved for more than 44 years.

    Gunalcheesh (Thank You).

                                 ______
                                 

    Mr. Young. Thank you. The next witness is Margie?
    Ms. Mejia. Yes.

STATEMENT OF MARGIE MEJIA, CHAIRPERSON, LYTTON RANCHERIA, SANTA 
                        ROSA, CALIFORNIA

    Ms. Mejia. Good morning, Chairman Young, Ranking Member 
Ruiz, and members of the Subcommittee on Indian, Insular, and 
Alaska Native Affairs. My name is Margie Mejia, I am the 
Chairwoman of the Lytton Rancheria in Santa Rosa, California. 
Thank you for allowing me to be here today to speak in strong 
support of H.R. 2538, the Lytton Rancheria Homeland Act of 
2015.
    A special thank you to our Congressman, Jared Huffman, for 
working with the Tribe to introduce the bill, and our 
neighboring Congressman, Jeff Denham, for supporting us and co-
sponsoring the bill.
    The Tribe has provided a written statement for the record, 
and I would like to explain why the passage of this bill is so 
important for the Lytton Rancheria. Taking this land into trust 
will allow the Tribe to construct, with its own funds, housing 
and community facilities. This will allow the Tribe to live as 
a community for the first time in over 50 years.
    The creation of a homeland will allow the Tribe to govern 
itself and continue to diversify its economy to provide for 
tribal generations to come. The status as a federally-
recognized tribe will fully be restored, and the Tribe will now 
be on equal footing with other recognized tribes.

    Thank you for your time and your support, and I am 
available for any questions you may have. Thank you.

    [The prepared statement of Ms. Mejia follows:]
   Prepared Statement of Margie Mejia, Lytton Rancheria, Santa Rosa, 
                        California on H.R. 2538

    Good morning Chairman Young, Ranking Member Ruiz and members of the 
Subcommittee on Indian, Insular and Alaska Native Affairs. My name is 
Margie Mejia, Chairperson of the Lytton Rancheria in Santa Rosa, 
California. Thank you for allowing me to be here today to speak in 
strong support of H.R. 2538, the Lytton Rancheria Homeland Act of 2015. 
A special thank you to our Congressman Jared Huffman for working with 
the Tribe to introduce the bill and to our neighboring Congressman Jeff 
Denham for supporting us and co-sponsoring the bill.
    If enacted, H.R. 2538 would right a historical wrong and restore a 
permanent homeland for the Lytton Rancheria now and for our future 
generations. The bill would provide that lands currently owned by the 
Tribe in fee be held in Federal trust and have reservation status. On 
behalf of the members of the Lytton Rancheria of California, I ask that 
you support the Lytton Rancheria Homeland Act of 2015.
                               background

    The Lytton Rancheria is a federally-recognized Pomo Indian Tribe 
from California's San Francisco Bay area. Prior to European contact it 
is estimated that as many as 350,000 Indians were living in what is now 
the state of California. By the end of the 19th century, that number 
was reduced by 96 percent to approximately 15,000.
    The Pomo people occupied lands in the northern part of California 
that spanned an area from the Pacific coast at the northern San 
Francisco Bay area to the Lake District in northern California. Their 
ancestors were devastated by the Gold Rush and hostile state and 
Federal policies toward Indians in the 19th century. By the early 1900s 
most Indians and Indian tribes from the area that managed to survive 
were poverty stricken, landless and homeless. Because of this 
unconscionable state of affairs in California, Congress enacted 
legislation to help purchase reservation lands for many of these 
Indians and tribes. The Lytton Rancheria is one such tribe which 
received reservation lands in Sonoma County from these purchases.
    The Tribe resided and flourished on the land sustaining itself by 
farming and ranching until it once again fell prey to bad ``Indian 
policy'' on the part of the government. Unfortunately, the hostile 
attitude toward California tribes soon returned, and with passage of 
the Rancheria Act of 1958, Lytton Rancheria, along with dozens of other 
California tribes, had its relationship with the Federal Government 
terminated. This resulted in the Tribe losing all of its Rancheria 
lands as well, and it once again became a destitute, landless Indian 
tribe with no means of supporting itself. As has now been widely 
accepted, the Rancheria Act was another failed attempt to cause Indian 
tribes to disband. Despite the hardships caused to it by continuously 
losing its homelands, the Lytton Tribe remained cohesive and strong, 
not giving up its claim that it had been wrongfully terminated.
    In 1987, the Tribe joined with three other tribes in a lawsuit 
against the United States challenging the termination of their 
Rancherias. In 1991, a Federal court concluded in ``Scotts Valley Band 
of Pomo Indians of the Sugar Bowl Rancheria v. United States of 
America'' No. C-86-3660 (N.D.Cal. March 22, 1991), that the termination 
of the Lytton Rancheria was indeed unlawful, and Lytton's federally-
recognized tribal status was restored by court order. In part the 
Stipulated Judgment reads, ``. . . that the distributees of the Lytton 
Rancheria are eligible for all rights and benefits extended to Indians 
under the Constitution and laws of the United States; and that the 
Lytton Indian Community and its members shall be eligible for all 
rights and benefits extended to other federally-recognized Indian 
tribes and their members . . .''
    Lytton's status was restored, but its land base, now owned by non-
Indians, was not returned to them and Lytton remained a landless and 
impoverished tribe. The Tribe had no home to return to. The Stipulated 
Judgment that ended the case was agreed to by Federal and county 
authorities and specifically promised the Tribe a new homeland in 
Sonoma County on lands to be held in Federal trust. Twenty-four years 
later, the Tribe is still waiting for that promise to be fulfilled. 
Almost three generations of our people have not known what it is like 
to live in a community on tribal lands.
    In 2000, Congress passed Section 819 of P.L. 106-568 which directed 
the Secretary of Interior to take certain land into trust for gaming 
purposes for the Tribe in San Pablo, California. This action was taken 
after due consideration and with strong local support. Lytton has 
established a small, successful Class II gaming operation in that 
location which is limited by law to electronic bingo games and poker. 
The Tribe collects revenues from this facility to pay for tribal needs 
including education and health care, as well as purchasing property for 
a homeland and area to diversify the Tribe's economic development. The 
Tribe's 9.5 acre San Pablo trust parcel is only large enough for the 
gaming facility and cannot meet the Tribe's need for tribal homeland.
                          need for trust land

    Indian tribes have long been held to be distinct political 
communities. This inherent sovereignty of tribal governments is 
acknowledged in the United States Constitution, as well as treaties, 
legislation and judicial and administrative decisions. Land is 
essential for tribes in order for them to function as governments. 
Tribal trust lands are especially important to this advancement. Tribes 
need trust lands so that they can provide governmental services for 
their members, such as housing, health care, education, economic 
development, and in order to protect historic, cultural and religious 
ties to the land.
    The Indian Reorganization Act (``IRA'') recognized the need for 
tribes to have and govern their own lands to provide for the 
advancement and self-support of their people. The legislative history 
of the IRA clearly shows the intent of Congress to address and 
ameliorate the extensive loss of land tribes had suffered. 
Specifically, the IRA made a change in Federal Indian policy which 
would ``establish machinery whereby Indian tribes would be able to 
assume a greater degree of self-government, both politically and 
economically.'' This is done through growing their land bases.
    Every Indian tribe needs to have a homeland with clearly delineated 
authority to provide services to its members and jurisdiction over its 
lands to provide the necessary infrastructure and land use planning for 
future generations. With the exception of the small parcel Congress 
provided it for gaming in San Pablo, which is not large enough for a 
tribal homeland, Lytton Rancheria has been left essentially landless 
since it was terminated in 1961. For more than 50 years the Tribe has 
not been able to provide its members a homeland on which to have 
housing, community and governmental facilities, and to follow their 
religious practices without interference from outsiders.
    Lytton Rancheria has used revenues from the San Pablo Casino to 
purchase lands, from willing sellers and at fair market value, near its 
former Rancheria in the Alexander Valley of Sonoma County. Lytton 
Rancheria has concentrated the purchase of property near the Town of 
Windsor and currently holds these lands in fee status. The attached map 
entitled, ``Lytton Fee Owned Property to be Taken into Trust--May 1, 
2015'' shows the property proposed for trust status under H.R. 2538 
which includes 511 acres. There will be no gaming on any of the lands 
covered in H.R. 2538. The bill specifically prohibits gaming on any of 
the lands.
    Of the acreage proposed for trust status, the Tribe proposes to use 
approximately 124.12 acres for housing and other governmental and 
community facilities. This will allow it to have a homeland for its 
members after 50 years in exile. A portion of the land proposed to be 
taking into trust is currently being used for economic development 
purposes such as viniculture.
    The Tribe has purchased a number of vineyards and is operating them 
in an environmentally sensitive manner. Vineyards that were in various 
stages of disrepair prior to the Tribe's purchase are now being put 
back into clean, healthy working order. Small tributaries of the 
Russian River that have long been clogged and unusable by fish are 
being cleaned out and made ready for use again. Additionally, the Tribe 
has installed wind machines to use during frost warnings to keep the 
grapes from freezing, rather than using overhead spray from the Russian 
River like many ranches in the area. This innovative measure will save 
water from being taken from the Russian River at a vital time of the 
river's flow. The Tribe's investment in the ongoing viniculture 
operations has reinvigorated many previously deteriorating vineyards, 
and its grapes are being used to produce high-quality wines. Lytton 
operates its vineyards on a fish-friendly and sustainable basis, and is 
working toward sustainability certification pursuant to the practices 
of the Sonoma County Winegrape Association and the California 
Sustainable Winegrowing Alliance.
                  lytton rancheria is a good neighbor

    Lytton Rancheria has prided itself in being a good neighbor to the 
communities surrounding its lands. For example, in San Pablo, the Tribe 
provides more than 50 percent of the City's operating budget and 
donates to many local charities. For instance, the Tribe sponsors a 
yearly golf tournament to benefit the Brookside Foundation thus 
providing $100,000 a year for healthcare for an impoverished community. 
The Tribe has also donated $50,000 to the Boys and Girls Clubs of San 
Pablo. In addition, the Tribe contributes $25,000 a year to the 
Friendship House in San Francisco to help aid in drug and alcohol 
rehabilitation in the Bay Area.
    The Tribe is a premier supporter of the Wells Fargo Center for the 
Arts in Sonoma County, donating $500,000 a year for children's programs 
and musical instruments. Lytton has recently agreed to give $250,000 a 
year for 5 years to the Charles Shultz Children's Charities, which 
includes three different children's charities in Sonoma County. These 
are just a few examples of Lytton Rancheria using its resources to 
assist its local communities.
    On the Federal level, Lytton Rancheria does not accept any Federal 
funding it is eligible for as a tribe except for Indian Health Service 
(IHS) funding, which it immediately turns over to the Sonoma Indian 
Health Clinic. This Clinic provides healthcare for all Indians, 
regardless of tribal affiliation, residing in Sonoma County. On top of 
its IHS funding, the Tribe also donates an additional $600,000 per year 
to the Sonoma Indian Health Clinic to use for expenses.
                         memoranda of agreement

    Realizing that having land in trust in Sonoma County would change 
some of the current uses of the land, the Tribe has spent years meeting 
with, negotiating and forming agreements with the County of Sonoma, the 
local school district and the local fire department.
                    windsor fire protection district
    Lytton Rancheria has entered into a Memorandum of Agreement with 
the Windsor Fire Protection District to provide emergency services to 
tribal members located in the proposed tribal housing area, which is 
within the District's jurisdiction. Under the Agreement, the Windsor 
Fire Protection District will provide the initial response to all 
emergency incidents for fire, medical, rescue or other reported 
emergency reason.
    In return for these services, the Tribe has agreed to make payments 
to the fire district including: $50,000 a year for equipment purchases 
and $80,000 a year for one full-time firefighter. In addition, the 
Tribe has agreed to pay to the District, prior to the start of 
construction: $750 per each single family home, $525 per each multi-
family unit, and $340 per every 1,000 square feet of space for a 
community center and tribal retreat center. Once property is in trust 
status the Tribe has also agreed to pay the District on an escalating 
basis yearly. The beginning payment would be $25,000/year and increase 
up to $50,000/year for the term of the agreement. Further, the Tribe 
has agreed to provide additional funding if necessary in the case of an 
emergency such as terrorism, earthquake or other act of God.
    The Tribe will comply with California Fire Code and Fire Safety 
Standards Ordinance during construction of all housing and tribal 
buildings. The Tribe will also be responsible for providing adequate 
water and pressure for firefighting.
                    windsor unified school district

    Lytton Rancheria has entered into a Memorandum of Agreement with 
the Windsor Unified School District to prepare for and mitigate an 
increase in school aged children who would move into the proposed 
tribal housing. The Tribe has agreed to pay, based on the Environmental 
Assessment for the housing project, the amount of $1 million dollars. 
This amount is similar to the amount that would be owed to the School 
District if the land were developed by a non-tribal entity.
                            town of windsor

    The Tribe is in talks with the Town of Windsor for water and sewer 
support for the tribal housing area since the development would be just 
outside the current Town water and sewer boundaries. This decision is 
likely to be made through public referendum and the Tribe is prepared 
to pay substantially to mitigate any costs required by such services as 
well as to assist the Town with other priorities it might have for its 
citizens.
                            county of sonoma

    After years of discussion and negotiation, Lytton Rancheria and the 
Sonoma County Board of Supervisors have agreed to and signed a binding 
Memorandum of Agreement (MOA). I am pleased to report that both the 
Lytton Tribal Council and the Sonoma County Board of Supervisors voted 
unanimously to support the agreement and the legislation to take lands 
into trust for the Tribe.
    The detailed Agreement with the County initially spans a term of a 
generation and covers almost every aspect of land management once the 
tribally owned land is taken into trust status. The MOA is too long to 
detail in this testimony, but I will cover some of the significant 
portions.

    <bullet> An Environmental Assessment was prepared and submitted to 
            the Bureau of Indian Affairs and circulated regarding the 
            residential development area for tribal housing. The Bureau 
            of Indian Affairs issued a Finding of No Significant Impact 
            (FONSI) on June 5, 2012. The MOA contains agreements for 
            the mitigation of potential impacts from this, or any 
            future, land being taken into trust status for Lytton 
            Rancheria.

    <bullet> In the residential development area, the MOA contains 
            agreements on how many units will be built, the size of the 
            units and who can reside there. Some oak trees will be cut 
            in the residential area, however the Tribe has marked and 
            will protect the larger heritage trees, and is providing 
            the County with funding to replace, on a 1 to 1 ratio, the 
            smaller trees that are cut down.

    <bullet> The Tribe has agreed to strict environmental protection 
            and mitigation efforts for the residential project, 
            including the community and governmental facilities. The 
            Tribe has also agreed that for a potential future lodging 
            facility and winery, it will prepare an Environmental 
            Impact Statement in compliance with NEPA and negotiate with 
            the County on mitigating impacts. The Tribe waived its 
            sovereign immunity in the MOA and agreed to binding 
            arbitration if there is disagreement on mitigation.

    <bullet> Lytton Rancheria has agreed to provide compensation for 
            substantial mitigation and other costs to the County. These 
            include a one time payment of $6 million dollars for 
            mitigation of, among other things, county roads, native 
            oaks, woodlands; and a one time payment of $100,000 for 
            costs incurred by the County to prepare and implement the 
            MOA.

    <bullet> The Tribe has agreed to a continuous payment to the County 
            based on the valuation of the land as determined by the 
            County Assessor's Office. In addition the Tribe has agreed 
            to pay to the County 9 percent of all rents collected by 
            the Tribe on hotel rooms and vacation rentals.

                         governor of california

    On May 27, 2015, Governor Jerry Brown, Jr. wrote a letter to 
Congressman Jared Huffman expressing his support for the Lytton 
Rancheria Homeland Act of 2015. In his letter he stated in part, 
``Lytton Rancheria and Sonoma County have concluded an Agreement that 
reflects a respectful relationship. The Act and Agreement provide the 
framework for mutually beneficial cooperative efforts that protect the 
Tribe's sovereignty as well as the vital interests of Sonoma County 
residents.''

                                closing

    In closing Mr. Chairman, I want to thank you again for holding this 
hearing addressing the number one priority of my tribe--the re-
establishment of a homeland on which the Lytton people can once again 
live communally now and for future generations. We have been fighting 
back from losing our lands (the last time) for more than 50 years, and 
I do not want another of our tribal elders to pass away without knowing 
there once again is tribal land to house our people.
    This committee has been there for us in our struggle. Please know 
that fact is not lost on us. All people need a homeland and we are no 
different. We are not asking for Federal or state lands. We have been 
able to purchase our own land and we have done the hard work of getting 
agreements with our local non-Indian communities. All we need now is 
for the Federal Government to finish what was promised to us when our 
status was restored. As an Indian tribe, we need our land to be held by 
the Federal Government in trust for the Lytton Rancheria.
    Passage of H.R. 2538, the Lytton Rancheria Homeland Act of 2015 
will restore my people to where we were before termination. I hope you 
will continue to support the Lytton Rancheria and move H.R. 2538 out of 
committee and to the House Floor in the near future.

    Thank you.

Attachment: Map

                                  MAP
                                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  
                                  


    Mr. Young. Thank you. Before I recognize the Ranking 
Member, who will ask the first series of questions, Steve, I 
will tell you this is not new to me. This issue has been around 
for a long time. Thank you for your testimony. And I mean that, 
because I have not seen the effort put forth, as you suggest in 
your testimony, by the people involved that don't want the bill 
to pass. If I thought for a moment there was true negotiation, 
government-to-government, I wouldn't be having this bill. I 
wouldn't have this hearing. But I don't see that effort. I see 
a total lack of consideration. And some of the comments you 
made are telling about the character of some people. So we are 
going to try to move this piece of legislation.
    With that, I will recognize the Ranking Member.
    Dr. Ruiz. I am going to go ahead and yield the first round 
of questions to Representative Huffman. Go ahead.
    Mr. Huffman. I thank the Ranking Member. My question is to 
Mr. Black from the BIA.
    One of the reasons I introduced this bill is that I 
appreciate the detailed agreements that this tribe, the Lytton 
Tribe, has reached with county and local agencies. These are 
agreements that anticipate and mitigate possible impacts. They 
describe how future decisions will be made. And, along with the 
legislation, they actually prohibit gaming on the land.
    Now, it is my impression that if we think about the 
alternative of the BIA process, there are far fewer 
opportunities for all of the affected parties to collaborate on 
a path forward. Can you give us an idea as to how many 
applications the BIA has approved in recent years, including 
post-Carcieri, and how much land has been taken into trust 
through that process?
    Mr. Black. Yes, sir. Thank you for the question. Since 
about 2009, we have brought in approximately 1,921 
applications, totaling a little over 300,000 acres of land into 
trust for tribes.
    Mr. Huffman. So the perception that Carcieri sort of shut 
down the BIA land-to-trust process is incorrect. We hear this 
sometimes.
    Mr. Black. I wouldn't say it shut down the process. It did 
add some complications and length to the process, yes.
    Mr. Huffman. Right. As we heard from the Chairperson at the 
Tribe, the Lytton Rancheria is a federally-recognized Pomo 
Indian Tribe, and these folks have occupied land in California 
and entered into treaties with the Federal Government going 
back to the 1850s.
    I understand that the Tribe has two land-to-trust 
applications pending before the BIA. I wonder if you could 
speak to the scenario where, if BIA approved those pending 
applications, would any of the agreements that have been 
reached with local agencies or the County, or the prohibition 
on casinos, would any of that necessarily be included in a BIA 
decision on those applications?
    Mr. Black. Those decisions, or those types of agreements 
and stuff, are considered when we are reviewing applications, 
but they do not become part of the application process, or the 
decision, no.
    Mr. Huffman. So there would be no guarantee, for example, 
that there would be a no-casino provision in a BIA decision.
    Mr. Black. No, generally not, no.
    Mr. Huffman. Chairperson Mejia, your written testimony 
explains that you have used revenues from San Pablo, the 
casino, to buy lands in Sonoma County from willing sellers, and 
some of the property that the Tribe has acquired includes 
vineyards. The Tribe is now getting into the wine business.
    Why is it important for you that the Tribe diversify its 
economic holdings?
    Ms. Mejia. It is important because you can't put all your 
eggs in one basket. And gaming, while it is a viable vehicle 
for generating revenue, we can't be guaranteed that that is 
going to always be there. As a Senator told me years ago, the 
gaming industry is fluid.
    Second, it is what IGRA intended, for tribes to be 
sovereign. You diversify to make your money work for you and to 
be able, for the longevity of the Tribe, to provide for my 
members for generations to come--not only for my members, but 
for the community, because with the agreements that we have, we 
are definitely good neighbors. And I think the signed 
agreements show that.
    Mr. Huffman. You have agreements with the County of Sonoma, 
the local fire district, local school district, the possibility 
of an additional agreement with the Town of Windsor. This is a 
lot of work. You are not required by law to do any of this. Why 
was it important to you to spend months and, actually I think, 
even years at the negotiating table to try to work these things 
out with your local government partners?
    Ms. Mejia. It was important because we want to be good 
neighbors. We don't want to be in a community where we are not 
wanted and we are a burden. So in doing these agreements, we 
gave the local communities the assurance that we were going to 
be good neighbors, we were going to be productive citizens in 
the community, and it is a mutual respect and a win-win 
situation for everyone.
    Mr. Huffman. Well, I want to thank you for taking that 
approach. This is not how it always works in these land-to-
trust situations around the country, or even everywhere in my 
district. So I applaud you for doing the hard work of trying to 
work things out with your local government partners.
    Ms. Mejia. Thank you.
    Mr. Huffman. I appreciate your testimony today. With that, 
I yield back.
    Dr. Benishek [presiding]. Thank you. I will yield myself 5 
minutes, since I was up next.
    Ms. Miyasato, you work for the County Board, or the Board 
of Supervisors, then. You are the Executive Director. I 
listened to your testimony and why you opposed the land-into-
trust thing, and the reasons for it. I guess the question I 
have for you is, how do you propose remedying the Tribe's 
current need for housing?
    Ms. Miyasato. Congressman, thank you for asking that 
question. We never said the Tribe didn't need housing. And when 
the Board made its decision back in August 2013, which Chairman 
Armenta and Mr. Lavagnino referred to, the actual motion was 
for the Tribe to--we requested that they begin discussions with 
the County regarding their plans to develop housing on Camp 4 
and other projects that they would like to see, and they 
directed their staff, us, to work with the Tribe on any 
potential plans for Camp 4.
    So, I just wanted to clarify that that was actually the 
Board's direction to staff. There was a meeting, I believe, 
with the representative from the Tribe and with our staff, and 
there was an explanation of our process, and then no follow-up 
from the Tribe.
    Dr. Benishek. Well, what about the gentlemen next to you, 
both say that the County was unwilling to work with the Tribe 
as a government? What is that about?
    Ms. Miyasato. Congressman, I think that since I have been 
with the County--I have been with the County for a year-and-a-
half as the CEO--I know there have been different stories and 
discussions about what had happened. So I went back to look at 
the record myself, and all I can tell you is that the actual 
direction from the Board of Supervisors at that time and at 
that meeting was directing staff to work with the Tribe in 
discussions with our planning staff on plans to develop Camp 4. 
And that is the information that I have.
    And since I have been with the County, the Board of 
Supervisors has worked productively with the Tribe. There are 
two agreements that Chairman Armenta discussed, which was one 
for sheriff services and fire services. So they offered, and 
the County voted unanimously to work with them and approve 
those agreements. Just as a side note, those agreements for 
existing services on the reservations----
    Dr. Benishek. Chairman Armenta, now, give me your response 
to what she just said here. You know, what is the story? I 
mean, like any other landowner, can't you do an application to 
put up housing? And why is this not an option for you?
    Mr. Armenta. Our request at that meeting was that the 
County meet and negotiate with the Tribe on a government-to-
government basis. Instead, the County Board of Supervisors 
failed to acknowledge our sovereign status, and pointed us in 
the direction of staff, county staff, as a typical landowner, 
not as a government. That is the direction we were sent.
    Dr. Benishek. So that is not going to work for you, then? 
Is that the story?
    Mr. Armenta. To address the housing need for our 
membership, that does not fall within the Santa Barbara County 
or the Santa Ynez Valley community land use plan. No, sir.
    Dr. Benishek. I see. So you couldn't build housing there 
without it being put into trust?
    Mr. Armenta. We could build one house for every 100 acres. 
So we could build 14 houses.
    Dr. Benishek. I see. OK. Let me ask Mr. Barlow.
    Can you discuss a little bit further the economic benefits 
that the recognized tribal communities in your area might have 
with the passage of this?
    Mr. Barlow. Thank you for your question, Congressman. I 
would----
    Dr. Benishek. You mentioned it, but I need a little more 
detail.
    Mr. Barlow. Sure. In the case of those communities in our 
region that have been recognized, they have been able to form 
business operations. We are organized under a corporate 
structure in Alaska. And they are into several different 
enterprises, including things such as government contracting, 
including eco-tourism, cultural tourism. Some have invested in 
operating companies all over the United States of America. This 
has allowed them to, provided they are profitable, have enough 
wherewithal to fund such things as cultural programs, 
educational programs, scholarship programs for their 
shareowners, as well as to participate in furthering the 
political process in the region. So they have much more of a 
realized benefit than those of us who have not been recognized.
    Dr. Benishek. All right, thank you. I appreciate it. I just 
want to ask Chairwoman Mejia a question here.
    Can you describe the current status of the land, again, 
that is going to be taken into trust? And what is the current 
status?
    Ms. Mejia. It is held in fee.
    Dr. Benishek. Oh, OK. All right.
    Ms. Mejia. It is owned by the Tribe, but it is in fee 
status, currently.
    Dr. Benishek. OK. All right, thank you. I yield back.
    Mr. Young [presiding]. Mr. Ruiz.
    Dr. Ruiz. Thank you, Mr. Chairman.
    Mr. Black, I have a clarifying question. I heard today that 
the Chumash bill is unnecessary because the land is already 
into trust, the Camp 4 land is already into trust. Is it into 
trust?
    Mr. Black. The decision was made by the Pacific regional 
director to bring that land into trust. That decision is 
currently under appeal. So it hasn't completed the process. No, 
sir.
    Dr. Ruiz. OK. So it is not into trust.
    Mr. Black. Not officially, no----
    Dr. Ruiz. OK.
    Mr. Black [continuing]. It is still under appeal.
    Dr. Ruiz. Chairman Armenta, I understand, then, in the late 
1800s the Tribe lost over 13,000 acres of land. It seems to me 
that one of the concerns was that this new land would be 10 
times larger than the existing reservation. But yet you lost 
your ancestral land that was larger than this 10 times the size 
of what your current exists. Can you give me more of that 
history, please?
    Mr. Armenta. There was a lawsuit filed by the Archdiocese 
of the Catholic Church against the Federal Government to remove 
the tribes and the tribal member's name off a title, when the 
Catholic Church held that land with the tribe on title. And, in 
return for that lawsuit, that is when they gave us 99 acres. 
For a period of time we were on title for over 13,000 acres.
    Dr. Ruiz. So you had 13,000 acres. They put you on 99 
acres. And, of those 99 acres, how many of it can you develop 
housing on, or do anything with it?
    Mr. Armenta. The original 99 acres, about 40 acres of it is 
developable.
    Dr. Ruiz. So, in other words, they took away your land, put 
you on a very small piece, and the majority of that is rocky 
hillside, where you can't do anything with it. Is that----
    Mr. Armenta. Either rocky hillside, sir, or swamp.
    Dr. Ruiz. OK. So, my understanding is that you owned this 
piece of land, and it has been determined to be your ancestral 
land, and you want members of your tribe to come home to, 
basically, live on their land. Is that the premise of this 
bill?
    Mr. Armenta. Yes, sir. It is.
    Dr. Ruiz. OK. And my understanding, from what I have heard 
today, is that you have shared any concerns, the burden of any 
concerns, in providing for law enforcement, fire department, 
and anything else that the local different agencies want you to 
address, but that the stalemate here is that the County does 
not want to negotiate in a government-to-government level with 
the Tribe. Is that my understanding?
    Mr. Armenta. That is your understanding. We currently have 
two agreements with Santa Barbara County to provide law 
enforcement and fire safety of a total of about $2 million a 
year.
    Dr. Ruiz. So I am wondering. What is the heart of this 
issue? So they are concerned about gaming, and you put in the 
provision there is no gaming. They are concerned about taxes, 
yet you want to give them $1 million a year when they are only 
collecting $81,000. So that is 125 years' worth of taxes in the 
next 10 years. You are going through the NEPA process. You are 
looking at water. There is a development next to yours that is 
even more dense in housing than what you are proposing.
    So, this question is for Ms. Miyasato. What else--what is 
the heart of this issue? What is the matter here?
    Ms. Miyasato. Congressman, there are a couple of different 
things that you have mentioned, so thank you for mentioning 
those things.
    One is when you talked about the provision of service. The 
provision of service that Chairman Armenta discussed was for 
the existing reservation and the casino. And we consider it as 
mitigation for those and their casino expansion, which is a 
recent project to put in a 12-story tower, and to expand their 
casino with that. So, the recent agreements we have agreed to 
with the Chairman and the Tribe were really for the existing 
reservation, not for the 1,400 acres that we are talking about 
today.
    In addition, you talked about--and rightfully so--you said 
there is other land in the area that is developed. When the 
community went through a community planning process, and the 
County went through a comprehensive planning process, we said, 
``Yes, we agree there are some pockets of development. But 
those are not pockets of development we would like to see in 
this particular land, which has been zoned for agricultural 
use.'' And, as Mr. Armenta said, it is zoned for 100 acres, and 
it is because, when we went through this local community 
planning process, we said there are areas that are part of the 
urban boundary, and areas outside. And we, in Santa Barbara 
County, are committed to preserving and encouraging 
agricultural viability.
    So, some of the land that has been purchased by the Tribe 
is in that agricultural zone; so it is really a discussion of 
the community's values of maintaining agricultural use, and 
confirming the community's desires through our comprehensive 
planning process. Then this land being in there, this isn't in-
fill development. We are talking about an area that we have 
looked at for rural agricultural use.
    And when the Chairman said you couldn't build the houses--
--
    Dr. Ruiz. So then, in other words, the point of the matter 
is that you don't want housing on this agricultural land. 
Because it seems to me that everything else, the Tribe is 
bending over backwards to work with you. So then, it not only 
becomes an agricultural zoning issue versus whether you want to 
build houses on it, but, on the flip side, the other side of 
the story is a moral justification for some sense of justice 
for a tribe who has lost a large portion of their land, and is 
now simply wanting to have their members come home and to have 
a homeland of which it was taken away years ago. So, I believe 
that is sort of the dilemma that is going on in this.
    And one of the things that I want to make very clear is 
that they are a government. They are a sovereign nation. And 
for any institution in the United States not to recognize that 
is backwards. So, we need to make sure that they are respected, 
that they have a seat at the table, and that they are in 
negotiations with any other government, as a government. I 
believe that is another part of the matter for our committee to 
make it understood to the County.
    Mr. Young. I thank the gentleman.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you again, Mr. Chairman. And again, 
thank you all for your travel here to come all the way to DC, 
Chairman and Supervisor, Ms. Miyasato--sorry about that.
    Supervisor, I think we may share the same old-country 
roots, so I am going to try it the right way. Is it Lavagnino?
    Mr. Lavagnino. Lavagnino.
    Mr. LaMalfa. Lavagnino. OK, all right. I was trying to 
account for the G there. So, anyway, now, as a county 
supervisor--and, you know, I represent 11 counties up in the 
north, in the first congressional district, and it is pretty 
rural--they are always battling, trying to stay funded, trying 
to work with the Federal Government for a lot of the Federal 
lands that are owned there that we have the PILT, payment in 
lieu of taxes, and that is probably fairly important to you in 
Santa Barbara, as well.
    So, what we are looking at here is kind of a PILT-type 
situation. Of course, there were concerns, taking land into 
trust. But we have seen where the Chumash Tribe has stepped 
forward to more than make up for that. So what do you see that 
as being beneficial for your county, which--I would imagine all 
counties, you know, having worked with CSAC and RCRC before--
how important is that to you, to see the potential benefit 
here?
    Mr. Lavagnino. Well, thank you, Congressman. We, as any 
county has over the past few years in California, we have 
struggled financially, and this was our first year where we 
really had a surplus and have been able to restock our surplus 
accounts.
    But, obviously, when you are talking about an area--if you 
are just looking at this from a financial perspective, we have 
been receiving somewhere between $80,000 and $85,000 a year, 
and now we would be getting $1 million a year. Obviously, that 
would have a significant impact to the services that we would 
provide.
    Mr. LaMalfa. And earlier, Chairman Armenta testified that 
they do indeed provide not only their own weight, but above 
that with their emergency services and other things they 
provide to the area, to the valley. So that has to have a 
pretty positive impact already, as well, for----
    Mr. Lavagnino. It does, and it is very well received. And 
those were actually agreements that the Chairman worked--I 
would have to say it is almost offline with the sheriff. The 
Board of Supervisors were not involved until we actually 
approved the contracts at the end. They brought us the 
contracts between the Tribe and the sheriff and our fire 
department. And one of them is for a large--forgot how much 
they spent--over $1 million on a piece of equipment that is 
going to be used all throughout the Santa Ynez Valley.
    Mr. LaMalfa. OK, thank you.
    Ms. Miyasato, you kind of mentioned earlier that the 
legislation, or the effort by the Tribe, would be a shortcut to 
getting to their end goal of providing housing, of using their 
land as they would perhaps like to see fit.
    So they have already owned the land for about 5 years. But, 
even more so, you point back to taking into trust recently 6 
acres adjacent right to the trust land they have, which was a 
14-year lawsuit-filled process. How can you really think that, 
at this point, this looks like a shortcut, when they have 
waited this long, and past history shows that they have endured 
a lot of unnecessary attorneys fees and delay, again, with the 
end goal they have members that need housing, would like 
housing, would like it in the traditional way, with people they 
would like to associate with? How can you justify that?
    Ms. Miyasato. Congressman, I think what we are saying in 
the County is that we have--you have a process, Congress has a 
process for hearing the community and the local residents' 
concern through the appeal process, and we would like to see 
that through, rather than have this bill preempt that.
    And on the 6.9 acres, I am sympathetic to the Tribe in the 
length of time. And I just want people to know that the County 
did not oppose that, taking that into trust. It was commercial 
property for their uses, and we did not oppose that. I think 
the issue, here again, is that this----
    Mr. LaMalfa. But you have a culture there of people that 
will come forward with lawsuits, frivolous in nature--and that 
is debatable, I suppose--but the delay there for people trying 
to do what they see fit, and do business, and the County is 
contributing to that in this scenario here.
    Ms. Miyasato. Congressman, I think that there are some 
errant voices, and maybe misguided voices in the community, as 
you have pointed out. In my time there, in evaluating that and 
talking to community members, I think the main concern is just 
the change in use and the lack of input through the process. 
And as we talked about----
    Mr. LaMalfa. There has been plenty of input through the 
courts, ma'am, and it looks like there will be more to come 
along.
    And a disturbing thing, too, is that you didn't acknowledge 
that they are already providing emergency services above and 
beyond what anybody would expect. Instead you referred that the 
County has to do this on the lands that are--as is. So I think 
a little more acknowledgment of the cooperation of the Tribe, 
it would be very much in order.
    I will yield back, Mr. Chairman.
    Mr. Young. Thank you.
    Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. Just a follow-up 
question to Ms. Miyasato.
    What are your--you were talking about community values. I 
happen to value affordable housing. Have you met your numbers?
    Ms. Miyasato. For the state? Yes, we did. We just passed 
our most recent housing community development plan for the 
state of California. So we just approved that, yes.
    Mrs. Torres. OK. What is the number of homeless individuals 
in your county?
    Ms. Miyasato. Congresswoman, I don't have that information, 
but I could certainly provide it to you.
    Mrs. Torres. When you provide that information, can you 
provide tribal members that may be homeless or at risk of 
homelessness?
    Chairman Armenta, can you give the committee a little bit 
more information about the Tribe's current housing stock? 
Specifically, can you elaborate on who does and doesn't live on 
the reservation?
    Mr. Armenta. Yes, Congresswoman. Currently we have 65 homes 
on the reservation. There are 143 enrolled tribal members, 
there are 500 children. Of those, 17 percent live on the 
reservation. They are homes that were built--started being 
built in the 1970s by HUD. Most of them are two-, perhaps 
three-bedroom homes, that are housing multiple generations.
    Mrs. Torres. As a follow-up, if the Tribe is able to 
acquire this land, how far would it go toward addressing the 
housing situation among tribal members?
    Mr. Armenta. It would assure that every enrolled tribal 
member would have a home to live in on the reservation and 
practice our cultural beliefs, as well.
    Mrs. Torres. I read in the reports about all of your 
outreach efforts to the community. Can you elaborate for this 
hearing today how extensive those efforts have been?
    Mr. Armenta. Congresswoman, we have lived within this 
community far before it was developed. Even when the first 
settlers came in, we felt that it was the responsibility of our 
tribe, it was the nature of our membership to be hospitable to 
people. But we provide our community, I believe, with items 
that are not recognized as well as they should be.
    For instance, the fire agreement. This fire agreement that 
we have with the County was originally dated back to 2002 that 
I personally negotiated, far before any casino expansion. Three 
years ago I started negotiations with the county sheriff, well 
before we were doing any expansion of any casino.
    California is a Public Law 280 state. Santa Barbara County 
has the responsibility for providing fire service and public 
safety, law enforcement on reservations. We just insist on 
helping them, because we know it not only makes our reservation 
community a better place to live, but it makes the Santa Ynez 
Valley a better place to live.
    Mrs. Torres. Right. Thank you.
    And thank you, Mr. Chairman.
    Mr. Young. I thank you.
    Mr. Gosar.
    Dr. Gosar. Thank you very much.
    Director Black, the Tribe has been very forthcoming that 
this land taken into trust will not facilitate a casino. Is 
that true?
    Mr. Black. Yes, sir.
    Dr. Gosar. So----
    Mr. Black. That legislation has that statement in it.
    Dr. Gosar [continuing]. So they have been above board the 
whole time.
    Mr. Black. That is my understanding, sir.
    Dr. Gosar. Well, the reason I bring that up is that we have 
a problem in Arizona, that a tribe wasn't very forthcoming, 
actually lied to the commission in Arizona in regards to buying 
a piece of property and extending casinos in Phoenix. So that 
is very important, that they were straightforward.
    Chairman Armenta, you have been very forthcoming, as well. 
You have been more than polite, extending a hand. Is that true?
    Mr. Armenta. Yes, sir.
    Dr. Gosar. So do you see this as a win-win situation, the 
potential for a win-win situation?
    Mr. Armenta. I believe any time two governments work 
together it is absolutely a win-win for both parties involved.
    Dr. Gosar. Ms. Miyasato--I am probably saying your name 
wrong, I am sorry--do you see a position for a win-win 
situation in this?
    Ms. Miyasato. Congressman, I think there is always a chance 
for a win-win, an opportunity----
    Dr. Gosar. I don't know--don't like that word, ``chance.'' 
Because it seems to me like you are on the back burner, and 
they should be on the front burner. So tell me that there is a 
win-win situation here, because I am about ready to tell you 
how it can happen.
    Ms. Miyasato. I think there can always be a win-win 
situation. And----
    Dr. Gosar. And particularly when you have that mind set, 
right? When you go in with a positive mind set, there are a lot 
of things that you usually----
    Ms. Miyasato. There is a lot you can do with a positive 
mind set. You are absolutely right, Congressman.
    Dr. Gosar. Yes. Well, I see a lot of negativity in this 
process.
    I have a tribe in my hometown. It is called the Yavapai 
Apaches. And what happens, they have an island, and they are 
surrounded by the Town of Prescott in Prescott Valley. And so, 
a choice came to this entity about collaborating and working 
with the tribes, or treating them like what you are doing right 
now. And it has turned out to be a magical relationship. 
Because when there is a problem for Prescott and Prescott 
Valley with the Federal Government, they let the tribes address 
it. That is unbelievable. And then, when they have the state 
and local aspects, the city councils and the Board of 
Supervisors work. They even included them in their economic 
plan. Yes, they have a casino up on top of the hill, but they 
are very diversified in their applications now.
    Why don't we see something like that in this case?
    Ms. Miyasato. Congressman, I think that--and, again, I am 
going to give from my experience--the relationship has been 
inconsistent with the Tribe and the County, so----
    Dr. Gosar. And whose fault is that?
    Ms. Miyasato. I think there is shared responsibility in 
that. And I think Chairman Armenta talked about the great 
things that they have done for the County, the sheriff 
agreement, the fire agreement. Again, that was a response to 
their existing reservation, their existing casino. And the fire 
truck that he mentioned, that was brought up by our fire staff, 
and not brought up originally by the Tribe, to provide an 
aerial fire truck to service a tower that is part of the casino 
expansion. Our staff is the one who brought that up, that 
wasn't part of the original plans or their mitigation.
    And the things that we wanted to continue to talk about, 
and we asked the Tribe, ``That is great, and can we continue 
talking about these other things that we see as issues,'' they 
never came back to us. So I think it is an uneven discussion.
    Dr. Gosar. So let me ask you a question. It seems like, 
from your standpoint, when I do the background on this, you 
have delayed and delayed and delayed from the County's 
perspective. Would you agree with that?
    Ms. Miyasato. From my existing experience, I don't see that 
we have delayed and delayed. I think----
    Dr. Gosar. Chairman Armenta, would you agree or disagree 
with that comment?
    Mr. Armenta. I would have to agree with it, sir.
    Dr. Gosar. OK. So, how do you go forward? I mean you want 
us to slow this legislation down, and I don't think the 
Congress wants to do that, because that is our jurisdiction. So 
how do you see the next time frame, or the next, let's say, 6 
months?
    Ms. Miyasato. Congressman, we would like the appeal to 
proceed, and have those discussions about the issues that we do 
see with the process and with the fee-to-trust application, and 
some of the inadequacies that we saw in the environmental 
impact, or the environmental assessment. Some of the issues 
that we saw needed to be addressed that weren't addressed. So 
we would like that process to proceed, so that we, the county, 
the government, and the local communities can have some more 
input in discussing those impacts and what we see are issues.
    Dr. Gosar. Chairman Armenta, how do you see the next 6 
months?
    Mr. Armenta. Congressman, I have not seen a change since 
1999, when I became Tribal Chairman. I have reached out to the 
County many times. I will continue to reach out to the County. 
But, to be perfectly honest, I don't know if the County is 
going to allow that. So I don't know if I see much change. If 
there is an opportunity to meet with the County, I will 
absolutely do that.
    Dr. Gosar. I see it as a possibility here that Congress 
needs to keep the fire on you guys' feet. And I have done this 
with the Forest Service in our fire-laden forests in Arizona. 
So I actually would applaud the folks here to continue pushing 
this legislation. And I ask you to speed up your negotiation 
and do it in good faith, because there is a win-win at the end 
of this tunnel.
    So thank you very much, Mr. Chairman.
    Mr. Young. I thank the gentleman.
    Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Ms. Miyasato, in our notes here it says that you are 
currently getting $82,000 annual for tax revenue on that 
current piece of property.
    Ms. Miyasato. That is correct, sir.
    Mr. Denham. And the Tribe is offering a million. Those are 
correct numbers?
    Ms. Miyasato. I am told the Tribe offered a million some 
time ago.
    Mr. Denham. And in this relationship, this government-to-
government relationship, this negotiation they are having with 
the Tribe, what is it you are actually looking for? What are 
you asking for?
    Ms. Miyasato. The last action of the Board of Supervisors 
was to ask the Tribe to engage us in a planning process for 
their housing development and other uses that they asked for on 
the site.
    Mr. Denham. Other uses. So you want a greater say over the 
agricultural part of the land use?
    Ms. Miyasato. We wanted a greater say into the whole 
development, so part of the application, or part of the initial 
project alternatives from the Tribe was--one was to have lots 
of open space, one was to do a community facility and 
exhibition hall and have some visitor serving kind of uses.
    Mr. Denham. Do you not want an exhibition hall or another 
type of facility there?
    Ms. Miyasato. Currently we believe that would have 
significant impacts to the residents, if it brought 800 
visitors to the valley. So we wanted to have more discussions 
with----
    Mr. Denham. Well, what impact would it have?
    Ms. Miyasato. Well, one could be traffic, one could be 
noise, one could be the intersection with the agricultural 
area. We have these agricultural buffer areas between the 
commercial or residential areas----
    Mr. Denham. It is currently in Ag. use now, is it not?
    Ms. Miyasato. It currently is. Yes, sir.
    Mr. Denham. OK. So further Ag. use is not a problem, is it?
    Ms. Miyasato. Further Ag. use is not a problem, currently.
    Mr. Denham. OK. And the density of this housing development 
is less dense than the current housing unit that is adjacent to 
this property. Is it not?
    Ms. Miyasato. Congressman, could you repeat that?
    Mr. Denham. There is another piece of property adjacent to 
this property, where there is a housing development that is 
more dense than what is actually being proposed by the Tribe.
    Ms. Miyasato. There is a housing development that is one 
unit per 5 acres to the east, and that was one of the things 
that the Tribe had proposed, would be a 5-acre----
    Mr. Denham. I guess what I have continued to not understand 
over the years--and I think the committee members of this 
committee are failing to understand--is if the housing 
development is less dense than the one next to it, if the Ag. 
use is currently being used for Ag. use, and they are willing 
to offer more than 10 times what you get in property values 
today for that tax revenue, what is it you are looking for, 
other than just holding this issue up?
    Ms. Miyasato. Congressman, some of the issues you raise are 
significant issues. And on the money, let's talk about that for 
a second. I am told there was a draft agreement some years ago 
where that was the offer. That wasn't based on any particular 
number. So, in the Lytton agreement, for example, that you are 
looking at today, they are looking at a percentage. But, we 
don't know what the number of people per household would be. 
There is no document that tells us how many new residents are 
going to be coming. And the Tribe's environmental review said 
you are not going to have an increase in people, because people 
who live in the valley will then move----
    Mr. Denham. Have you been to their current reservation?
    Ms. Miyasato. I am sorry?
    Mr. Denham. Have you been to their current reservation?
    Ms. Miyasato. Yes.
    Mr. Denham. Have you seen the housing?
    Ms. Miyasato. I have driven by, yes.
    Mr. Denham. The HUD housing that is there. I mean do you 
see that as being acceptable housing? Can you see why they are 
looking to build new housing elsewhere?
    Ms. Miyasato. I can see why they are looking to build new 
housing elsewhere, and the County has never said that they 
shouldn't build new housing. In fact----
    Mr. Denham. They just took the----
    Ms. Miyasato [continuing]. We invited them to come talk to 
us about it----
    Mr. Denham [continuing]. Land into trust through the 
government-to-government negotiation.
    Ms. Miyasato. I am sorry, Congressman? I am sorry.
    Mr. Denham. My time is limited. Do you have issues with the 
current development under the current reservation, developing a 
larger casino, large hotel, any of their current issues--are 
there issues that the County has with the development on the 
current reservation?
    Ms. Miyasato. We did have issues with their expansion 
plans.
    Mr. Denham. You did, or do?
    Ms. Miyasato. We do, but it is sort of a moot point at this 
point.
    Mr. Denham. Why is it a moot point? You said something in 
your testimony which got my attention. It seems to me that you 
are--because we have failed over the years to find any land use 
issue with the property that they are trying to develop for 
housing for their individuals, but in your testimony you 
mentioned that you had concern over the development on their 
current reservation.
    Now, I imagine you can't do much about their current 
reservation, the current developments there. But because you 
can hold hostage another piece of property, that gives you 
leverage to hold up something that may or may not be happening 
on their current----
    Ms. Miyasato. Congressman, we are not holding up anything 
on their existing reservation.
    Mr. Denham. OK. Let me conclude. This is an issue of 
government-to-government relationships. The Federal Government 
is going to negotiate, just as you would hope the local 
government would negotiate in good faith. This is not a 
geographic issue, any more than the fine folks of Utah and the 
Red Rock bill that continues to come up every year, with no 
members of the Utah delegation supporting something that other 
members continue to try to push, or, in my community, where we 
need water storage, and we have a coalition of members that are 
fighting for water storage, and yet there are members outside 
of our community that want to stop that water storage.
    This is not about a regional issue, as it is about a self-
reliance, or a government-to-government negotiation. You either 
believe in tribal sovereignty--which many members in this body 
do--or you don't. We believe that we have to make up for the 
misdeeds of previous Congresses, and misdeeds that have 
happened to Indian Country throughout the country. And this is 
one of those ways that, in a government-to-government 
relationship, in a fight for self-reliance, that this tribe, as 
well as other tribes, should be able to provide housing, 
medical facilities, and many other essential necessities to be 
able to have self-reliance for their tribe. This isn't about 
gaming. It is about being able to help your family, same way 
that we want to help our family.
    Mr. Young. Thank you.
    Mr. Denham. We need to correct an injustice, and this is 
one bill to be able to do that.
    Mr. Young. Thank you. I thank the gentleman.
    Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman, and thank you all for 
your testimony--to our witnesses.
    Again, I am pleased to have several constituents here, 
providing their perspectives on H.R. 1157 and the complex 
issues involved. But I believe even our witnesses would admit 
that they do not represent the full array of views on this 
issue in the Santa Ynez Valley and throughout Santa Barbara 
County.
    As we know, we locals, there are fierce opponents of this 
bill, strong supporters, and many people in between, who are 
not necessarily vocal about their views. This diversity of 
opinion on this local issue cannot fully be represented 
accurately in this setting, which is one of the many reasons 
why I oppose the legislation, and oppose it moving forward in 
this committee.
    As I am sure Supervisor Lavagnino and Ms. Miyasato can 
certainly attest, when these types of local land issues and 
zoning issues are considered at the county level, the full 
array of interested parties can participate in the process--and 
they do--and voice their opinions directly to decisionmakers.
    Santa Barbara County has heard from hundreds of local 
residents in hours and hours of meetings, community forums, and 
hearings on these issues, as well as considered hundreds of 
pages of letters, legal filings, and environmental studies. But 
this diversity of opinion and in-depth debate of the many 
issues involved in this matter are not a part of today's 
limited hearing.
    H.R. 1157, which impacts only my district, and is being 
considered today with only the limited views of three witnesses 
from the area, and questions from a handful of Members of 
Congress who do not represent the region, and consequently do 
not fully understand the community or the complexity of the 
issues at hand. This restrictive process is not how these 
issues should be resolved.
    The BIA fee-to-trust is far from perfect, but it at least 
does allow for all interested parties to participate and make 
their voices heard. As I mentioned in my opening statement, the 
BIA has approved Camp 4 property being taken into trust, and 
several appeals of this decision have been filed.
    Director Black, my understanding is that these appeals of 
the Camp 4 decision are being considered under new rules from 
2013 that speed up the internal appeals process. Is that true?
    Mr. Black. Yes----
    Mrs. Capps. Well, would you explain this new process--maybe 
some of my colleagues are not familiar with it--under which 
this particular Camp 4 appeal is now being considered, and the 
expected timeline going forward?
    Mr. Black. Yes. The Assistant Secretary, under current 
regulations, has the ability to take an appeal from the IBIA 
and issue that decision from his office. So he has exercised 
that right on this case.
    Mrs. Capps. OK. And how does the appeals process for Camp 4 
differ from the process used to consider the 6.9 acres that the 
Tribe has been trying to take into trust for well over a 
decade? Do you expect the Camp 4 appeals to take as long as the 
6.9 acres did?
    Mr. Black. I don't know how much of that time involved in 
the previous one was under the IBIA and how much of it was at 
Federal court.
    Mrs. Capps. Well, can you----
    Mr. Black. Subsequently, you know----
    Mrs. Capps. Right.
    Mr. Black [continuing]. Upon issuing the decision from the 
Assistant Secretary's office, there is the ability to go to 
Federal court. That is oftentimes what happens. And, as it was 
stated earlier, this went on for 14 years.
    Mrs. Capps. Right. But now there is a consolidated appeal.
    Mr. Black. There is a consolidated appeal before the 
Assistant Secretary, yes.
    Mrs. Capps. Have there been examples that this has been a 
shorter time frame?
    Mr. Black. I can't speak to that, right at the moment, no.
    Mrs. Capps. OK. Well, finally, if H.R. 1157 were enacted, 
how would it impact the consideration of the pending Camp 4 
appeals?
    Mr. Black. It is my understanding that if this legislation 
was enacted, it would moot those appeals.
    Mrs. Capps. So there would be no further opportunity for 
any local appeals to be considered.
    Mr. Black. Not through our process, no.
    Mrs. Capps. I yield back.
    Mr. Black. That is my understanding.
    Mrs. Capps. I yield back the balance of my time.
    Mr. Young. I thank the good lady.
    Mr. Black, again, you just hit a time frame on appeals. It 
is my understanding, if it goes against the Santa Barbara 
County, that that could be appealed to a court ruling?
    Mr. Black. Yes, sir.
    Mr. Young. And that would be to, what, a local district 
court? Or would it be to----
    Mr. Black. I believe that goes to Federal court, sir.
    Mr. Young. And it would be a Federal court, but at a lower 
court.
    Mr. Black. I would have to ask my lawyers exactly what 
the----
    Mr. Young. OK. And then, if that was lost, it could be 
appealed again to a higher court of the lower court?
    Mr. Black. I have seen that in the past, with----
    Mr. Young. So, what we are talking about is 14 years, 
right? That is really what we are talking about.
    Mr. Black. Yes, sir.
    Mr. Young. OK. If I can--and this is a question--it will be 
a little short.
    Mr. Black, my concern is my bill. We've got a lot about all 
these other bills, but the villages or the townships and the 
natives in Southeast Alaska--I am going to go to Mr. Barlow 
later on--you keep saying, ``Aside from precedent, the issue of 
identifying specific lands and administrative difficulty of 
conveying lands''--does the Department find any good reason to 
deny the aboriginal land claims for the five Alaska Native 
communities?
    Mr. Black. [No response.]
    Mr. Young. What is the precedent? That is what I want to 
know.
    Mr. Black. Sir, I am going to defer that question to Mr. 
Nedd, if that is OK with you.
    Mr. Young. You are on the hot seat, bud.
    Mr. Black. Well, I am sorry, I don't have a----
    Mr. Young. No, he can do it.
    [Laughter.]
    Mr. Nedd. Thank you, Congressman. I am sorry, I didn't get 
your full question.
    Mr. Young. The testimony we have from you is precedent. And 
I always like that we are in the precedent. There is no such a 
thing as precedent as the law. We make the law. So, the 
question is, you use the word ``precedent,'' but is there any 
good reason to deny the aboriginal land claims of these five 
native communities?
    Mr. Nedd. Well, Congressman, it is my understanding that 
these five communities previously were found ineligible, and 
appealed--and three of them appealed that. So, therefore, what 
the Department is saying, if Congress was to move ahead and 
determine eligibility when they were ineligible, it would set a 
precedent, and open it for any other community----
    Mr. Young. Only we can open it up.
    Mr. Nedd. Well----
    Mr. Young. You know, you can see there is no precedent. 
Only the Congress can do it. And this is not an attempt to open 
up ANCSA at all. What we are trying to say here is there are 
reasons why they were not recognized, and why they were denied 
that recognition through the appeals process, because the law 
was written in 1971.
    But in 1971, when this law was written--and go back and 
read a little bit of history--the communities involved here all 
had large, lumbering timbering operations. There was effort put 
into this Congress at that time not to recognize them because 
it might have affected the long-term leases of that timber. 
They were still aboriginal people, they still had a right under 
the Lands Claims Act, as far as being an aboriginal settlement. 
And I am suggesting respectfully, is there any other reason, 
other than precedent? Don't you recognize them as aboriginals?
    Mr. Nedd. Congressman, again, right now what we have is the 
1971 law that was passed----
    Mr. Young. That is right. And we passed that. OK? You admit 
that. And what we passed, we can rectify. That is our role, as 
this committee. And they were excluded by Members of Congress 
at that time because there was an undue pressure put upon those 
that are not to be recognized that would have affected the 
leases from the Federal Government--you guys remember, from the 
Federal Government. It wasn't from the state of Alaska. So they 
were excluded. What I am trying to do is rectify that.
    Now, let's see. Five times--what is it, 27, Mr. Barlow? How 
many acres by township?
    Mr. Barlow. Congressman, that would be 23,040 acres per 
township.
    Mr. Young. Twenty-three thousand. So we are talking about 
five. How many acres in the Tongass National Forest, Mr. Black, 
do you know?
    Mr. Black. I have it somewhere here----
    Mr. Young. It is 17 million.
    Mr. Black. OK.
    Mr. Young. So we are talking about little itty bits to 
justify the aboriginal right to those lands. And I always worry 
about this, because there is this--``It is mine.'' This is the 
Forest Service, these are the other agencies--``Ours.'' It was 
theirs, before. And to take and be this small, and not say it 
is their right, is wrong. And they are not asking for the barn 
or the farm. Every other community in the Southeast, every 
other village, got these lands. But they didn't have this 
timber interest.
    Now we turn around and ruin the timber industry, because 
you reneged on the--you didn't, but my administration reneged 
on the long-term leases. And now we have these five communities 
without land. It just bothers me.
    Mr. Barlow--just a moment, I am going to get you right--why 
did--I think I hit it, but why do you think they didn't give 
you guys land? And, by the way, most of these Native Land 
Claims Act started in Wrangell, way back when in 1903. And this 
was the hotbed of the natives in Southeast Alaska. They were 
leading forward the brotherhood, and et cetera, and they were 
left out.
    But go ahead, Mr. Barlow.
    Mr. Barlow. Thank you, Mr. Chairman. There has been much 
speculation over the years, and there certainly is no record of 
why there was not a conveyance to the five affected 
communities. There are a lot of suspicions. Of course, the 
timber contracts that you mentioned, as well as activities by 
the Forest Service and, in some respects, by the state of 
Alaska, which didn't view native land ownership in the 
Southeast as a good thing. Frankly, there was a lot of 
prejudice in the communities at times, too.
    But we really do not know why we were not included. All we 
know is that the University of Alaska report confirms this, 
there was nothing on the record. So, therefore, we will 
continue to pursue resolution of this issue, because the battle 
isn't over yet.
    Mr. Young. All right. I thank you. I can tell you in that 
period of time a lot of things weren't on the record. Probably 
some of it should have been.
    I just want to thank you. As you know, I have been pursuing 
this legislation for a long time. And I just wish my 
administration would--excuse me, not my administration--I wish 
the Administration would start looking at the amounts of land 
we are talking about. We had the veterans--``Can't do it. Oh, 
it is awful.'' And we have these communities, these small 
pieces of land. I do not believe in precedent; we set, if there 
is such a thing, the rules. And don't refer as your lawyer, 
going back and saying the precedent has been set, because only 
we can change that, this Congress.
    On the issue of the question of Santa Barbara, I am just--I 
don't know. I just want you to know one thing, young lady. You 
go back and tell your people this is not new to me. Mrs. Capps 
mentioned the idea of Elton Gallegly was against it. And we do 
have a responsibility. And I don't see any effort by anybody--
and those Board of Supervisors, other than one--that wants to 
solve this problem.
    I just asked Mr. Black. You are going to appeal it again. 
Are you not going to appeal it, if you lose?
    Ms. Miyasato. Congressman, I can't presuppose what the 
Board is going to be doing.
    Mr. Young. Well, I can tell you, you are. Like right now.
    [Laughter.]
    Mr. Young. You probably won't have a job, as CEO. So I am 
suggesting that either you tell them they better sit down with 
this chief, or I am moving this bill. It is that simple. 
Injustice does not pander to those that have, and deprive those 
that do not have. The right of housing, the right of being able 
to live under good shelter, is a basic right of every American. 
And we provided all kinds of public housing for everybody else, 
and yet this group that wants to build their own housing in the 
scenic area of a backyard of a lot of other people, this 
bothers me.
    So, you had better tell them that. Because I suggested this 
to them 5 years ago, 5 years ago. And, as a courtesy, I said, 
``No, I haven't seen any progress.'' And I listened to Mr. 
Seymour there--is it Seymour? Is that his name? What is his 
name? You know, the supervisor, next to the chief. And it is a 
pretty damning case. So you better go back and tell your 
friends that we will, if they don't. It is that simple.
    Anybody want to ask any other questions?
    [No response.]
    Mr. Young. If not, Mr. Denham.
    Mr. Denham. Just one final question for Mr. Armenta. There 
is a safety issue I am concerned about, as well. I was 
surprised to learn that there could be severe fire hazards 
faced by some of the HUD housing that is currently on the 
reservation. It is not something that has been talked about yet 
today.
    Mr. Armenta. Congressman, when that housing development was 
designed, it wasn't designed in a manner that would allow for 
safety equipment to access the streets. They are narrower than 
a typical street. The housing, where there is multiple housing 
on one lot, is denser than anywhere else, and it wouldn't allow 
for public safety departments to access our reservation in a 
timely manner.
    The county-owned road that enters the reservation is even 
below substandard, when it comes to ingress and egress for 
emergency vehicles.
    Mr. Denham. Thank you. Mr. Chairman, I yield back.
    Mr. Young. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. You know, I have 
toured the area. My son went to college down in the general 
area, as I did years ago, as well. So, we have a connection. 
But more so, it is important that we in Congress back up, 
basically, our oath to preserve constitutional ideals. And that 
would be freedom, that would be property rights, and that would 
be the ability to exercise your ability to use your land and do 
things as you see fit. So we know we have constraints with 
planning and local government, and I respect that, I greatly 
respect that.
    But we hear, again, an unyielding roadblock by the local 
government to have a dialog, really. So, Mr. Chairman, I 
appreciate your stern suggestion to the County that they step 
up here, that we do have a piece of legislation that we will 
continue to be pursuing in this process.
    But I think what everybody needs to recognize here is that 
the County actually will do better under this legislation than 
the open-endedness of what a BIA decision would do. The 
legislation provides for certain aspects that the County can 
predict, whereas the Tribe wouldn't necessarily have to do 
certain things under a BIA decision. So there is really not a 
downside for the County, other than maybe they enjoy being a 
roadblock, for whatever reason. And that is not right, because 
I work very well with my counties up in the north, and they are 
by and large very willing to come together and have great 
relationships with the tribes, and see that there is a mutual 
benefit. Mr. Gosar mentioned that a little bit ago, as well.
    So, I don't know that that is the direction CSAC likes to 
go, but this seems to be unique. So I appreciate the attitude 
and the direction that Supervisor Lavagnino wanted to take 
this, as well. And, again, for your travel, Chairman Armenta, 
for your patience and the patience of the people you represent 
to get here, to be here, and to work.
    And for Ms. Miyasato, I hope you really have heard loud and 
clear what the attitude of this subcommittee is today, and that 
you will take that back, along with your supervisor, and if 
there is something to be done locally, really reflect upon that 
and show that there has been a wrong done for a long time here 
with delays that are unnecessary, and do the right thing. Your 
county will come out better with our legislative process than 
by what could happen in an open-ended one.
    Mr. Chairman, with that, I will yield back.
    Mr. Young. Thank you. I have one question to the Chairman 
again.
    When did you buy this land?
    Mr. Armenta. We bought this land 5 years ago.
    Mr. Young. Five years ago. Was it up for public auction?
    Mr. Armenta. No, sir, it wasn't.
    Mr. Young. Did you have an inroad, or--I mean how did this 
work out?
    Mr. Armenta. The previous owner was Mr. Fess Parker, who 
was a personal friend of mine and a personal acquaintance, 
along with his son. On his death bed, he told his children he 
wants this land to go back to the Tribe.
    Mr. Young. So it was Fess Parker who did this.
    Mr. Armenta. Yes, sir.
    Mr. Young. OK. I think that is good. That is good to know. 
Fess Parker, I like that idea. He had a good idea about 
culture. He had a good idea about justice. So--never mind, I 
won't go into it.
    Any other questions?
    [No response.]
    Mr. Young. If not, the committee is adjourned.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

                               H.R. 1157


  <bullet> August 20, 2013, Santa Barbara Board of Supervisors, 
        Minutes from Board of Supervisors meeting. 35 pages.

  <bullet> June 6, 2015, Santa Barbara County GIS Data, Exhibit 
        A--Aerial Vicinity Parcel Map, Santa Ynez Camp 4. 1 
        page.

  <bullet> June 11, 2015, Mr. Brian Kramer, Santa Ynez, CA, 
        Letter to Chairman Young. 3 pages.

  <bullet> June 12, 2015, C. David and M. Andriette Culbertson, 
        Letter to Chairman Young in regards to proposed 
        legislation. 3 pages.

  <bullet> June 12, 2015, Mr. Thomas P. Walters, County of 
        Santa Barbara, Board of Supervisors, Comments in 
        opposition to proposed legislation. 1 page.

  <bullet> June 30, 2015, Mr. Brian Kramer, Santa Ynez, CA, 
        Letter to Chairman Young. 2 pages.

  <bullet> July 1, 2015, Cappello & Noel LLP, A. Barry 
        Cappello, Comments on proposed legislation. 47 pages.

                               H.R. 2386


  <bullet> April 18-21, 2012, Central Council of Tlingit and 
        Haida Indian Tribes of Alaska, Seventy-Seventh Annual 
        Tribal Assembly, Juneau, Alaska, Resolution TA/12-41, 
        ``Support for `Landless' Alaska Native Communities.'' 2 
        pages.

  <bullet> April 17-20, 2013, Central Council of Tlingit and 
        Haida Indian Tribes of Alaska. Seventy-Eighth Annual 
        Tribal Assembly, Juneau, Alaska, Resolution TA/13-40, 
        ``Support of the Landless Southeast Alaska Native 
        Communities Seeking Legislation to Form Alaska Native 
        Claims Settlement Act (ANSCA) Corporations and Receive 
        ANCSA Benefits.'' 2 pages.

  <bullet> April 9-12, 2014, Central Council of Tlingit and 
        Haida Indian Tribes of Alaska. Seventy-Ninth Annual 
        Tribal Assembly, Juneau, Alaska, Resolution TA/14-32, 
        ``Support of the Landless Southeast Alaska Native 
        Communities to Form Alaska Native Claims Settlement Act 
        (ANSCA) Corporations.'' 3 pages.

  <bullet> October 8-11, 2014, Alaska Native Brotherhood & 
        Alaska Native Sisterhood Grand Camp, Resolution No. 14-
        08, ``Support all Southeast Alaska Native Communities 
        and their Descendants from the failures of the Alaska 
        Native Claims Settlement Act (ANCSA) to include Land 
        Selection Rights and Compensation.'' 2 pages.

  <bullet> April 15-17, 2015, Central Council of Tlingit and 
        Haida Indian Tribes of Alaska, Eightieth Annual Tribal 
        Assembly, Juneau, Alaska, Resolution TA/15--19, 
        ``Support of the Unrecognized Southeast Alaska Native 
        Communities Seeking Legislation to Allow Them to Form 
        Alaska Native Claims Settlement Act (ANCSA) 
        Corporations and Receive ANCSA Benefits.'' 2 pages.

  <bullet> June 16, 2015, Southeast Alaska Conservation 
        Council, Statement for the record on H.R. 2386. 4 
        pages.

  <bullet> June 16, 2015, Various letters to the Chairman from 
        residents of Tenakee, Alaska in opposition to H.R. 
        2386. 8 pages.

  <bullet> June 18, 2015, Christie Lee (Dailey) Jamieson, 
        Wrangell Landless Tribal Member, Letter to Chairman 
        Young in support of H.R. 2386. 1 page.

  <bullet> June 19, 2015, Ms. Joyce Ruth Freiberg, Letter to 
        Chairman Young in support of H.R. 2386. 1 page.

  <bullet> June 24, 2015, Sealaska Corporation, Mr. Anthony 
        Mallott, President & CEO, Statement for the record in 
        support of H.R. 2386. 3 pages.

  <bullet> June 25, 2015, Richard `Tashee' Rinehart, Letter to 
        Chairman Young. 6 pages.

  <bullet> June 30, 2015, Grand Camp Alaska Native Brotherhood, 
        Mr. Bradley J. Fluetsch, CFA, ANB Executive Committee, 
        Chair Landless Committee, Letter to Chairman Young in 
        support of H.R. 2386. 1 page.

  <bullet> July 1, 2015, Central Council of Tlingit and Haida 
        Indian Tribes of Alaska, Mr. Richard J. Peterson, 
        President, Letter to Chairman Young in support of H.R. 
        2386. 3 pages.

  <bullet> July 1, 2015, National Congress of American Indians, 
        Letter to Chairman Young in support of H.R. 2386. 4 
        pages.

  <bullet> July 24, 2015, Senator Bert K. Stedman, Alaska State 
        Legislature, Letter to Chairman Young in support of 
        H.R. 2386. 2 pages.

                               H.R. 2538


  <bullet> May 27, 2015, Governor Edmund G. Brown, Jr., Office 
        of the Governor of California, Letter to Congressman 
        Jared Huffman expressing support for H.R. 2538. 1 page.

  <bullet> June 14, 2015, Michael Robinson and Eric Wee, 
        Testimony submitted to Chairman Young in opposition of 
        H.R. 2538. 18 pages.

  <bullet> June 15, 2015, Thane Young, Vice President, Van 
        Scoyoc Associates, Letter to Chairman Young in support 
        of H.R. 2538. 1 page.

  <bullet> June 16, 2015, Craig Curreri, Vice President of the 
        Board, Windsor Fire Protection District, Letter to 
        Representative Jared Huffman in support of H.R. 2538. 1 
        page.

  <bullet> June 26, 2015, Brent Gudzus, Letter to Chairman 
        Young in opposition of H.R. 2538. 1 page.

  <bullet> June 27, 2015, Margaret Rouse, Letter to Chairman 
        Young in opposition of H.R. 2538. 2 pages.

  <bullet> June 27, 2015, C. Stan Shusda, Letter to Chairman 
        Young in opposition of H.R. 2538. 1 page.

  <bullet> June 28, 2015, Robert E. Hopkins, Letter to Chairman 
        Young in opposition of H.R. 2538. 2 pages.

  <bullet> June 28, 2015, Richard Mendelsohn, Letter to the 
        Chairman in opposition of H.R. 2538. 2 pages.

  <bullet> June 28, 2015, Debbie Paulsen, Letter to the 
        Chairman in opposition of H.R. 2538. 2 pages.

  <bullet> June 28, 2015, Jenny Whalen, Letter to the Chairman 
        in opposition of H.R. 2538. 1 page.

  <bullet> June 29, 2015, Ms. Candise Alvarez, Letter to 
        Chairman Young in opposition of H.R. 2538. 2 pages.

  <bullet> June 29, 2015, Mariela P. Au and the Au Family, 
        Letter to Chairman Young in opposition of H.R. 2538. 1 
        page.

  <bullet> June 29, 2015, Whitney Hopkins, Letter to Chairman 
        Young in opposition of H.R. 2538. 3 pages.

  <bullet> June 29, 2015, Janice Mascadri, Letter to Chairman 
        Young in opposition of H.R. 2538. 3 pages.

  <bullet> June 29, 2015, Barbara Mendelsohn, Letter to the 
        Chairman in opposition of H.R. 2538. 2 pages.

  <bullet> June 30, 2015, Peg Champion, Letter to the Chairman 
        in opposition of H.R. 2538. 2 page.

  <bullet> June 30, 2015, Karen Dubrule, Ed. D., Letter to the 
        Chairman in opposition of H.R. 2538. 2 pages.

  <bullet> June 30, 2015, Jennifer Ramirez, Letter to the 
        Chairman in opposition of H.R. 2538. 1 page.

  <bullet> July 1, 2015, Sheri R. Greene, Letter to Chairman 
        Young in opposition of H.R. 2538. 2 pages.

  <bullet> July 1, 2015, Robb & Ross, Testimony for the Record 
        on H.R. 2538. 19 pages.

  <bullet> July 1, 2015, John Stayton, Letter to Chairman Young 
        in opposition of H.R. 2538. 1 page.

                                 [all]
</pre></body></html>
